APPENDIX A
United States Court of Appeals, Third Circuit.
C.A. Nos. 18-2953 and 18-3168
UNITED STATES OF AMERICA
vs.
GEORGE GEORGIOU, Appellant
(E.D. Pa. Crim. No. 2-09-cr-00088-001)
(Criminal treated as civil)
Present: MCKEE, SHWARTZ, and PHIPPS,
Circuit Judges
(Submitted April 9, 2020)
________ORDER________
Georgiou‘s motions to accept an application for a
certificate of appealability (―COA‖) and a reply in
excess of the word limit are granted. The Government‘s motion to file a response in excess of the word
limit is likewise granted. To the extent a COA is
required under 28 U.S.C. § 2253(c)(1)(B), Georgiou‘s
application for a COA is denied. Jurists of reason
would not debate the District Court‘s conclusion that
Georgiou did not show that the Government failed to
correct false testimony and evidence at his trial, see
Napue v. Illinois, 360 U.S. 264 (1959), or that the
Government failed to disclose evidence as required by
Brady v. Maryland, 373 U.S. 83 (1963). Jurists of
reason likewise would not debate the District Court‘s
conclusion that Georgiou failed to show that his Sixth
Amendment right to the effective assistance of counsel
was violated. See Miller-El v. Cockrell, 537 U.S. 322,
336 (2003); Strickland v. Washington, 466 U.S. 668,
687, 694 (1984). The District Court did not abuse its
discretion in denying the discovery requests that
Georgiou mentions in his application for a COA, and
to the extent a COA is not required, we summarily
affirm those denials. See Williams v. Beard, 637 F.3d
195, 209 (3d Cir. 2011). We also summarily affirm the
District Court‘s denials of Georgiou‘s post-waiver
requests for appointment of counsel. See United
States v. Leveto, 540 F.3d 200, 207 (3d Cir. 2008).

A1

By the Court,
s/Patty Shwartz
Circuit Judge

Dated: May 4, 2020

A2

APPENDIX B
2018 WL 9618008
United States District Court,
E.D. Pennsylvania.
UNITED STATES of America, Plaintiff,
v.
George GEORGIOU
CRIMINAL NUMBER No. 09-88
Filed 06/19/2018
MEMORANDUM
ROBERT F. KELLY, Sr. J.
*1 Presently before the Court is a pro se Motion Under
28 U.S.C. § 2255 to Vacate, Set Aside, or Correct
Sentence by a Person in Federal Custody (―§ 2255
Motion‖) by George Georgiou (―Georgiou‖), the
Responses and Replies thereto, as well as consideration of the evidence adduced at the evidentiary
hearing, including the parties‘ proposed Findings of
Fact and Conclusions of Law, and Georgiou‘s pro se
―Petitioner‘s Supplemental Brief in Support of His
Habeas Petition.‖ For the reasons set forth below, we
deny Georgiou‘s § 2255 Motion.
TABLE OF CONTENTS
I. BACKGROUND...––––
A. PROCEDURAL HISTORY...––––
1. Trial, Post-Trial, and Appeal...––––
2. Habeas Corpus Litigation...––––
B. LAYOUT OF MEMORANDUM OPINION...––––
II. LEGAL STANDARD...––––
A.
PREVIOUSLY
LITIGATED/PROCEDURAL
DEFAULT...––––
1. Previously Litigated...––––
2. Procedural Default...––––
a. Cause and Prejudice...––––
b. Actual Innocence...––––
III.
PART
I
–
EVIDENTIARY
HEARING
UNNECESSARY ...––––
A. SECTION 1– VARIOUS CLAIMS...––––

A3

1. Count Nine, Charging Wire Fraud, Should Not
Be Dismissed For Constructive Amendment – Fatal
Variance...––––
a. Previously Litigated/Procedural Default...––––
b. Merits...––––
2. Jury Instructions For Securities Fraud – No
Constructive Amendment...––––
a. Previously Litigated/Procedural Default...––––
b. Merits...––––
3. The Government Did Not Engage In Misconduct
In Its Closing Arguments To The Jury...––––
a. Previously Litigated/Procedural Default...––––
b. Merits...––––
4. The Government Did Not Suborn Perjury...––––
a. Previously Litigated/Procedural Default...––––
b. Merits...––––
5. The Government Did Not Engage In Misconduct
Regarding The James Hall Records...––––
a. Previously Litigated/Procedural Default...––––
b. Merits...––––
6. This Court Will Not Revisit The Brady Claims
Relating To Waltzer‘s Mental Health and Drug Use
a. Previously Litigated/Procedural Default...––––
7. Conclusion...––––
B. SECTION 2 – INEFFECTIVE ASSISTANCE OF
COUNSEL CLAIMS...––––
1. Law – Strickland v. Washington..––––
2. Analysis...––––
a. Claims Pertaining to SEC Testimony and
Evidence...––––
i. Counsel Were Not Ineffective in Choosing Not
to Object to Koster Testifying as a Lay
Witness...––––
ii. The Cross-Examination of Koster...––––
(1) Erroneous Trade Analysis...––––
(2) Statistical Insignificance ...––––
iii. The Failure to Object to the Admission of
Koster‘s Summary Charts Into Evidence...––––
*2 b. Claims Pertaining to AUSAs‘ Communications
with Waltzer and Aspects of Waltzer‘s Testimony...–
c. Claims Pertaining to Various Issues...––––

A4

i. Failure to Obtain Telephone Records From
Another Criminal Case Involving James Hall
and Others...–––
ii. Jury Instruction – Fatal Variance...––––
iii.
Failure
to
Raise
JurisdictionalExtraterritoriality and Irrevocable Liability
Issues Pretrial...––––
iv. Failure to Object to a Forfeiture Money
Judgment...––––
3. Conclusion ...––––
IV. PART II – EVIDENTIARY HEARING ...––––
A. FINDINGS OF FACT...––––
1. Facts Relating To Issues Addressed At The
Evidentiary Hearing ...––––
a. Waltzer‘s 2006-2007 Contacts with the
Government
b. Waltzer‘s Mens Rea..––––
c.
Alleged
Government
Concealment
of
Evidence...–––
d. Waltzer‘s Communications with AUSAs During
Investigation...––––
e. The Decision by Counsel to Forego Use of
Expert at Trial...––––
2.
Georgiou‘s
Attempt
to
Present
False
Testimony...––––
B. CONCLUSIONS OF LAW...––––
1. The Brady And Napue Claims Are Procedurally
Defaulted...––––
a. The Brady Claims...––––
b. The Napue Claims...––––
2. The Brady And Napue Claims Fail On The
Merits...––––
a. The Brady Claims...––––
b. The Napue Claims...––––
3. Other Miscellaneous Brady Claims Are Without
Merit...––––
4. The AUSAs Did Not Have Improper Contacts
With Kevin Waltzer And Were Not Necessary Fact
Witnesses At Trial...––––
5. Ineffective Assistance of Counsel Claim – Failure
To Engage A Securities Expert For The Defense ...–
V. CUMULATIVE ANALYSIS...––––
A5

VI. CERTIFICATE OF APPEALABILITY...––––
VII. CONCLUSION ...––––
I. BACKGROUND
The general synopsis of the case and the factual
background have been excerpted from the United
States Court of Appeals for the Third Circuit‘s (―Third
Circuit‖) opinion in United States v. Georgiou, 777
F.3d 125, 130-33 (3d Cir. 2015).
A federal jury convicted Appellant George Georgiou
... of conspiracy, securities fraud, and wire fraud for
his participation in planned manipulation of the
markets of four publicly traded stocks, resulting in
more than $55,000,000 in actual losses. The District
Court sentenced him to 300 months‘ imprisonment,
ordered him to pay restitution of $55,823,398 and
ordered that he pay a special assessment of $900.
The Court also subjected Georgiou to forfeiture of
$26,000,000.
Georgiou, 777 F.3d at 130.
From 2004 through 2008, Georgiou and his coconspirators engaged in a stock fraud scheme
resulting in more than $55 million in actual losses.
The scheme centered on manipulating the markets
of four stocks: Neutron Enterprises, Inc.
(―Neutron‖), Avicena Group, Inc. (―Avicena‖),
Hydrogen Hybrid Technologies, Inc. (―HYHY‖), and
Northern Ethanol, Inc. (―Northern Ethanol‖)
(collectively, ―Target Stocks‖). At all relevant times,
the Target Stocks were quoted on the OTC Bulletin
Board (―OTCBB‖)1 or the Pink OTC Markets Inc.
____________________
―The OTCBB is ‗[a]n interdealer quotation system for
unlisted, over-the-counter securities. The OTC Bulletin
Board or ‗OTCBB‘ allows Market Makers to display firm
prices for domestic securities, foreign securities, and
[American Depository Receipts] that can be updated on a
real-time basis.‘ ‖ Georgiou, 777 F.3d at 130 n.1 (quoting
OTCBB Glossary, Financial Industry Regulatory Authority
(―FINRA‖),
http://www.finra.org/Industry/Compliance/Market
Transparency/OTCBB/Glossary/P126264 (last visited Jan.
5, 2015)).
1

A6

(―Pink Sheets‖).2
*3 In order to facilitate their scheme, Georgiou and
his coconspirators opened brokerage accounts in
Canada, the Bahamas, and Turks and Caicos. Once
opened, the co-conspirators used these accounts to
engage in manipulative trading in the Target
Stocks. Specifically, by trading stocks between the
various accounts they controlled, the co-conspirators
artificially inflated the stock prices and created the
false impression that there was an active market in
each Target Stock.
As a result of this manipulation, Georgiou and his
co-conspirators were able to sell their shares at
inflated prices. In addition, these artificially inflated
shares would be used as collateral to fraudulently
borrow funds on margin and obtain millions of
dollars in loans from Caledonia Corporate
Management Group Limited (―Caledonia‖) and
Accuvest Limited (―Accuvest‖), both brokerage firms
based in the Bahamas. Eventually, these accounts
experienced severe trading losses since the assets
purportedly serving as collateral proved to be
worthless.3
In June [2007],4 unbeknownst to Georgiou, Kevin
____________________
―The Pink Sheets, now known as OTC Market Group Inc.,
is ‗an electronic inter-dealer quotation system that displays
quotes from broker-dealers for many over-the-counter
(OTC) securities.‘ ‖ Georgiou, 777 F.3d at 130 n.2 (quoting
OTC Link LLC, SEC, http://www.sec.gov/answers/pink.htm
(last visited Jan. 5, 2015)).
2

―Indeed, Caledonia was forced to liquidate its business,
resulting in approximately $25 million in losses. These
losses were sustained by the firm‘s clients, many of whom
lost their entire retirement savings.‖ Georgiou, 777 F.3d at
131 n.3.
3

The Third Circuit stated the year as 2006; however, it
appears that, in connection with Georgiou‘s petition for
certiorari, the Solicitor General of the United States
(―Solicitor General‖) inquired about the typographical error
identifying the wrong date, and was informed by then
Assistant United States Attorney, Louis D. Lappen
(―Lappen‖), that, as set forth in the district court record,
Kevin Waltzer‘s (―Waltzer‖) cooperation began in 2007.
(Gov‘t‘s Omnibus Resp. to Discovery Mots. 30.) Apparently,
4

A7

Waltzer,5 one of his co-conspirators, began cooperating in an FBI sting operation. Through Waltzer‘s
cooperation, the FBI monitored Georgiou‘s activities,
including many of his emails, phone calls and wire
transfers.
1. Georgiou’s Four Manipulation Schemes:
Neutron, Avicena, HYHY, and Northern
Ethanol
Georgiou and his co-conspirators manipulated the
prices of the Target Stocks by creating matched
trades,6 wash sales,7 and misleading email blasts.
They used various alias accounts, nominees, and
offshore brokerage accounts to conceal both their
ownership of the Target Stocks and their
_______________(cont'd)
the Solicitor General stated, in its briefing, that
―[u]nbeknownst to petitioner, in mid-2007, co-conspirator
Kevin Waltzer started cooperating with the Federal
Bureau of Investigation (FBI)‖ and included a footnote
explaining that ―[t]he Court of Appeals incorrectly stated
that Waltzer‘s cooperation began earlier.‖ (Pet‘r‘s Reply
31.)
―Waltzer pled guilty to one count of wire fraud, one count
of mail fraud, and one count of money laundering, pursuant
to a written plea agreement. He was sentenced to a term of
imprisonment of 132 months, followed by a term of supervised release, and ordered to pay $40,675,241.55 in restitution.‖ Georgiou, 777 F.3d at 131 n.4. Waltzer has been
released from prison prior to the full term of imprisonment
of 132 months. See Crim. No. 08-552.
5

―A ‗matched trade‘ is an order to buy or sell securities that
is entered with knowledge that a matching order on the
opposite side of the transaction has been or will be entered
for the purpose of: (1) creating a false or misleading
appearance of active trading in any publicly traded
security; or (2) creating a false or misleading appearance
with respect to the market for any such security.‖
Georgiou, 777 F.3d at 131 n.5 (quoting Indictment ¶ 9).
6

A ‗matched trade‘ is an order to buy or sell securities that
is entered with knowledge that a matching order on the
opposite side of the transaction has been or will be entered
for the purpose of: (1) creating a false or misleading
appearance of active trading in any publicly traded
security; or (2) creating a false or misleading appearance
with respect to the market for any such security.‖
Georgiou, 777 F.3d at 131 n.5 (quoting Indictment ¶ 9).
7

A8

involvement in the fraudulent scheme.
At least some of the manipulative trades were
transacted through market makers8 located in the
United States. Georgiou communicated via phone
and e-mail with Waltzer about their plans, and also
had occasional in-person meetings with Waltzer and
others in the United States about these schemes. In
these communications, Georgiou provided direction
on how to implement the manipulative schemes, and
demonstrated his role and culpability in orchestrating and perpetrating the fraud. After fourteen
months, Georgiou wired $5,000 to the account of an
undercover FBI agent as part of a test transaction.
Six days later, Georgiou was arrested.
2. The Caledonia Fraud
In December 2006, Georgiou opened a margineligible account in his wife‘s name at Caledonia. As
a result, Georgiou was able to obtain loans and
purchase stock without using his own funds.
Georgiou represented to the principals at Caledonia
that the margin in his account would be
collateralized by approximately $15 million worth of
Avicena and Neutron stock, but did not disclose that
the value of these securities had been artificially
inflated.
In March 2007, Georgiou borrowed approximately
$3,394,000 from Caledonia to purchase 1,697,000
shares of Avicena from Waltzer. That loan was
secured by Avicena and Neutron stock held in the
name of Georgiou‘s wife at another brokerage firm,
and was never repaid.
During the same
____________________

month,

Georgiou

borrowed

―A market maker is a firm that facilitates trading in a
stock, provides quotes [for] both a buy and sell price for a
stock, and potentially profits from the price spread.‖
Georgiou, 777 F.3d at 131 n.7 (quoting Indictment ¶ 33; 15
U.S.C. § 78c(38) (A ―market maker means any specialist
permitted to act as a dealer ... and any dealer who, with
respect to a security, holds himself out (by entering
quotations in an inter-dealer communications system or
otherwise) as being willing to buy and sell such security for
his own account on a regular or continuous basis‖)).
8

A9

approximately $2.8 million from Caledonia to
purchase Neutron stock and to provide financing to
Neutron. The loan was ostensibly secured by
Avicena and Neutron stock held in a different name
at another brokerage firm. This loan was also never
repaid. Caledonia was unable to cover the
substantial deficits incurred as a result of
Georgiou‘s activities. Ultimately, Caledonia suffered
approximately $25 million in losses. The firm was
later dissolved and liquidated.
*4 3. The Accuvest Fraud
In June 2007, Georgiou met with representatives of
Accuvest in the Bahamas to discuss opening a
brokerage account. In September 2007, Georgiou
opened an account at Accuvest in a different name.
The trading in the account was handled through
William Wright Associates (―Wright‖), an Accuvest
affiliate based in California. From October 2007
through February 2008, Georgiou deposited HYHY
and Northern Ethanol stock into this account, and
in return, Accuvest provided a margin loan of ten
percent of the value of the account. Georgiou did not
disclose that the value of these securities had been
artificially inflated. On several occasions in 2008,
Georgiou directed Wright, via email, to wire cash
from this account to Avicena, or Team One
Marketing, a Canadian company associated with
Georgiou.
In August 2008, Georgiou instructed Wright to open
a second Accuvest account, which was funded with
10 million shares of Northern Ethanol. As had
happened before, Georgiou did not disclose that the
value of these securities had been artificially
inflated. Georgiou failed to repay the money that he
had borrowed on margin and in cash loans from
Accuvest. The artificially inflated stock did not cover
the loans and Accuvest lost at least $4 million.
Id. at 131-32.
A. PROCEDURAL HISTORY
1. Trial, Post-Trial, And Appeal
*5 On February 12, 2010, at the conclusion of a threeA10

week trial, a jury found Georgiou guilty of the
following: one count of conspiracy in violation of 18
U.S.C. § 371; four counts of securities fraud in violation of Section 10(b) of the Securities Exchange Act of
1934 (the ―Exchange Act‖), 15 U.S.C. §§ 78j(b) and
78ff; and four counts of wire fraud in violation of 18
U.S.C. §§ 1343 and 1349.9
During the trial, the government convincingly proved
Georgiou‘s criminal activity through various means,
including: an incriminating phone conversation that
Georgiou inadvertently recorded of himself describing
his criminal activity to a co-conspirator; testimony of
one of Georgiou‘s co-conspirators, Waltzer, who
described criminal activity, which was corroborated by
incontrovertible emails, financial records, and trading
records; recorded conversations, both in-person and
over the telephone, in which the jury heard Georgiou
repeatedly describe his historical stock manipulations
and committing stock fraud in real time with an
undercover FBI agent;10 financial and trading records;
witness testimony establishing that Georgiou did
exactly what he said he did in the recordings, i.e.,
engaging in extensive stock manipulation; recordings
of Georgiou asking if the undercover FBI agent was a
―cop‖ and discussing plans to speak in code and
otherwise conceal the nature of their activity;
incriminating emails from Georgiou furthering his
scheme in the name of a fictional lawyer, Andreas
Augland, and in the name of one of his fronts, Ron
Wyles; and Georgiou attempt to procure false
testimony from his cohort, Alex Barrotti (―Barrotti‖).
In addressing one of Georgiou‘s post-trial motions, I
previously summarized the nature and quality of the
evidence as follows:
____________________
―Georgiou was convicted of securities fraud pursuant to
Section 10(b) of the [Exchange] Act and Section 10(b)‘s
implementing regulation, SEC Rule 10b-5 (‗Rule 10b-5‘).‖
Georgiou, 777 F.3d at 133 (citing 15 U.S.C. § 78j(b); 17
C.F.R. § 240.10b-5; 15 U.S.C. § 78ff (prescribing penalties
for willful violations of the Act)).
9

The undercover FBI agent was known as ―Charlie‖ in his
dealings with Georgiou. He testified during the trial and at
the evidentiary hearing.
10

A11

Georgiou presented a version of the relevant events
which largely contradicted the evidence presented at
trial. The Government captured Georgiou in various
recordings stating ―[n]obody is wearing a wire,‖
suggesting that they conduct their meetings in a
―hot tub‖ and asking if [Charlie] was ―a cop.‖ On the
witness stand, Georgiou insisted that he had
actually been investigating and recording Waltzer,
but produced no evidence to corroborate his claims.
The Government also offered into evidence a
recording in which Georgiou accidentally recorded
himself stating:
Well, Karen [Georgiou‘s wife] has read the letter
now, and she said you need to explain to me how
twenty-two million dollars in losses have occurred.
She goes you know. And it is almost like she is
clairvoyant. Some of the things she started saying
she goes what, you guys put up a bunch of stock
that was inflated, and you borrowed against it and
you sunk a firm. These are her words now. I am
not paraphrasing.
(Trial Tr. vol. 11, 247, Feb. 8, 2010.) Numerous
other recordings presented by the Government, in
addition to voluminous emails and financial records,
overwhelmingly demonstrated that Georgiou had
committed the crimes charged.
*6 (Doc. No. 211 at 36-37.) During Georgiou‘s crossexamination at trial, the following exchange took
place regarding Georgiou‘s inadvertent incriminating
self-recording:
Q. Right, and you call up Vince, and you say my
wife has figured it out, she says you guys put up a
bunch of stock that was inflated, you borrowed
against it, and you sunk a firm. Isn‘t that what
those words say?
A. That is what those words say.
Tr. 2/8/2010, 248-49. Georgiou‘s guilt was not only
overwhelmingly supported by all of the evidence, but,
significantly, by his own words in his own inadvertent
recording.
Regarding

another

post-trial
A12

motion,

I,

again,

commented about the overpowering nature of the
evidence by stating:
The Government‘s evidence against Georgiou
included voluminous recordings, emails, financial
records and other evidence that overwhelmingly
demonstrated that Georgiou had committed the
crimes charged. All of which was consistent with
Waltzer‘s testimony. Georgiou, on the contrary,
produced no evidence to corroborate his claim that
he had actually been investigating and recording
Waltzer. ―The testimony of [a witness] must be
considered in the totality of the circumstance and all
of the evidence introduced at trial.‖ Waltzer‘s
version of the relevant events conforms with the
staggering physical evidence in this case. As such,
we conclude that even if the jury had found Waltzer
to be unreliable, Georgiou‘s trial nevertheless
resulted in a verdict worthy of confidence,
considering the totality of the circumstances and all
of the evidence introduced at trial.
(Doc. No. 266 at 39-40) (quoting United States v.
Hankins, 872 F. Supp. 170, 174-75 (D.N.J. 1995)). In
fact, Georgiou himself acknowledges the large amount
of evidence at trial by stating that ―[a] large body of
evidence pertaining to the conspiracy period was
presented to the jury, including, stock trades, phone
logs, emails, and recordings, all diametrically opposed
in interpretation by the parties.‖ (Pet‘r‘s Br. 1.)
Also, at trial, Georgiou testified and perjured himself.
He attempted to explain away the $5,000 bribe
payment that he made to Charlie as part of the test
trade (which he discussed explicitly in numerous
recorded conversations) by telling the jury that the
$5,000 was a loan to Waltzer to help Waltzer pay his
lawyers due to Waltzer‘s purported IRS problems.
Georgiou also testified that he was going along with
the fraud because he was investigating Waltzer about
this IRS matter. Tr. 2/8/10, 56-57. Significantly,
Georgiou could not explain what he would have
accomplished had he concluded this investigation of
Waltzer‘s IRS issues. Tr. 2/8/10, 29-33, 209-14. As I
previously explained in a prior Memorandum Opinion,
Georgiou failed to produce any corroborating evidence
of his claim that he had actually been investigating
A13

and recording Waltzer. (Doc. No. 266 at 39-40.)
The government further established that Georgiou
lied about the $5,000 bribe payment with the
testimony of his cohort, Barrotti. Barrotti testified
that, after Georgiou was arrested in this case,
Georgiou asked Barrotti to testify for him and lie
about their financial dealings. Tr. 2/8/10, 269-308.
Georgiou also asked Barrotti to falsely testify to
support Georgiou‘s lies to the jury, saying that
Barrotti overheard a telephone conversation in which
Waltzer told Georgiou he needed $5,000. Id. at 302-03.
Additionally, Georgiou asked Barrotti, who was
skilled with computers, to help him concoct a story to
convince the jury that a lawyer named Andreas
Augland was real when, in fact, as Georgiou admitted
to Barrotti, ―[A]ctually, [Augland] does not exist.‖ Id.
at 304-05.
*7 Regarding the overwhelming amount of evidence
and Georgiou‘s perjured testimony, I commented,
during sentencing, as follows:
According to the evidence, the Defendant clearly
manipulated and inflated stocks to his advantage
and to the significant disadvantage of others. In
addition, he obstructed justice by perjuring himself
in this court. The evidence in this case was
overwhelming. The defendant sat there and listened
to it, and yet he took the witness stand and gave
evidence that really left the Court stunned. It was
almost pathetic. I could not understand why he
thought what he was doing was a good idea.
It obviously failed because this case went almost
three weeks, and that jury I think was out about
less than two hours, maybe an hour and a half, and
lunch was served to them while they were there.
That‘s how powerful the testimony and the evidence
were in this case, and they found him guilty of all
nine counts.
Tr. 11/19/10, 83-84.
On November 19, 2010, this Court sentenced Georgiou
to 60 months‘ imprisonment as to Counts One, and
Three through Nine, and a consecutive term of 240
months‘ imprisonment as to Count Two. This Court
A14

also imposed a three-year term of supervised release,
restitution of $55,832,398, a special assessment of
$900, and forfeiture of $26,000,000.
Georgiou filed a series of post-trial motions seeking a
new trial, which were all denied in memorandum
opinions and orders. (Doc. Nos. 211, 212 (September
29, 2010), Doc. Nos. 218, 219 (November 9, 2010), and
Doc. Nos. 240, 241 (March 18, 2011).) Georgiou filed
numerous additional motions seeking, inter alia, more
evidence and reconsideration, which were denied in a
lengthy memorandum opinion and order. (Doc. Nos.
266, 267 (December 12, 2011).)
On December 23, 2011, Georgiou filed a Notice of
Appeal.11 (Doc. No. 268.) After this Notice of Appeal,
Georgiou filed a motion in Waltzer‘s criminal case,
United States v. Waltzer, Crim. No. 08-552, to unseal
certain documents regarding Waltzer, which this
Court denied on March 30, 2012, based on the ground
that Georgiou‘s Notice of Appeal divested this Court of
jurisdiction to consider the motion.12 (Doc. No. 276.)
On April 13, 2012, Georgiou filed another Notice of
Appeal. (Doc. No. 277.)
On January 20, 2015, the Third Circuit affirmed
Georgiou‘s conviction and sentence. See Georgiou, 777
F.3d at 147. In its lengthy opinion, the Third Circuit
itself noted that there was extensive evidence of
Georgiou‘s fraudulent activities in the trial record,
stating:
In light of the extensive evidence in the trial record,
including recordings of Appellant discussing
fraudulent activities, emails between Appellant and
co-conspirators regarding manipulative trades,
voluminous records of the trades themselves, bank
accounts and wire transfers, Appellant‘s argument
that the evidence of Waltzer‘s substance abuse and
____________________
Initially, Georgiou filed a Notice of Appeal on December
29, 2010, and filed another Notice of Appeal on December
23, 2011. (Doc. Nos. 233, 268.)
11

Georgiou filed his Motion to Unseal in United States v.
Waltzer, Crim. No. 08-552, and the Honorable Stewart
Dalzell promptly denied it without prejudice to its reassertion in Georgiou‘s case. (Crim. No. 08-552; Doc. No. 81.)
12

A15

mental illness, or his meetings with the SEC, is
material for our Brady analysis cannot stand.
Waltzer‘s testimony is ‗strongly corroborated‘ by
recordings of phone calls and meetings, and records
of actual trades.... Thus, this evidence would
―generally not [be] considered material for Brady
purposes‖ because when considered ― ‗relative to the
other evidence mustered by the state,‘ ‖ the
allegedly suppressed evidence is insignificant....
Moreover, for the foregoing reasons, the evidence at
issue had not been suppressed, nor is it favorable to
the Appellant. As such, Appellant‘s Brady
arguments must fail.
*8 Id. at 141-42 (citations omitted) (alteration in
original). Georgiou petitioned for certiorari in the
United States Supreme Court (―Supreme Court‖),
which was denied on November 2, 2015. See Georgiou
v. United States, 136 S. Ct. 401 (2015).
2. Habeas Corpus Litigation
Georgiou filed his timely pro se § 2255 Motion on
January 26, 2017.13 (Doc. No. 307.) The government
filed its Response in Opposition on April 3, 2017.14
(Doc. No. 322.) Georgiou filed a pro se Reply, the
government filed a Response to Georgiou‘s Reply, and
Georgiou filed a pro se ―Sur-Surreply.‖15 (Doc. Nos.
380, 383, 393.)
____________________
We have jurisdiction over Georgiou‘s § 2255 Motion
pursuant to 28 U.S.C. §§ 1331 and 2255.
13

The government is represented by Lappen, who is now
the Deputy United States Attorney. In his role as an
Assistant United States Attorney, Lappen was involved in
the investigation of Georgiou, as well as Georgiou‘s trial,
post-trial, and appeal. During trial, the government was
also represented by Derek A. Cohen (―Cohen‖), who, at that
time, was an Assistant United States Attorney. For ease of
understanding, I will refer to Lappen as ―AUSA Lappen‖
and to Cohen as ―AUSA Cohen.‖ Both AUSA Lappen and
AUSA Cohen testified at the evidentiary hearing. Tr.
9/18/2017, 167-297; Tr. 9/26/17, 50-142.
14

Georgiou‘s § 2255 Motion and supporting briefs will be
referred to collectively as the § 2255 Motion. We will be
using the parties‘ pagination when citing to their
submissions.
15

A16

Georgiou‘s § 2255 Motion raises numerous issues,
many of which flow from two primary complaints.
First, Georgiou contends that unbeknownst to the
defense, Waltzer was acting as a government cooperator for approximately one year before June 2007
when Waltzer confessed to his crimes and began
actively cooperating with the government. Georgiou
concludes, from this view of the facts, that numerous
legal errors occurred because Waltzer supposedly ―was
acting for his own purposes, to manufacture leads and
evidence‖ for the government, rather than acting with
the ―mens rea‖ of a criminal. (Pet‘r‘s Br. 2.) In light of
these supposed facts, Georgiou believes that numerous
charges against him are infirm, and that his attorneys
somehow could have used this evidence to impeach
Waltzer (and presumably all the other evidence in the
case) and change the outcome of the trial.
Georgiou‘s second general attack on his conviction is
that the government acted improperly by allowing
Waltzer to speak directly, ―one on one,‖ with the
AUSAs who were working with Waltzer and government agents in dozens of fraud investigations,
including the investigation and prosecution of
Georgiou. Again, Georgiou raises numerous claims
that flow from this claim of government misconduct,
and he suggests that Waltzer and the government
attorneys conspired to frame him. Georgiou contends
that the AUSAs were witnesses to the fraud and were
conflicted in representing the government in light of
their involvement with Waltzer; that the government
should have provided this information to the defense,
and that he was prejudiced – i.e., if these errors had
not occurred, somehow the result of the proceeding
would have been different.
*9 In its Response to Georgiou‘s § 2255 Motion, the
government agreed to an evidentiary hearing to
establish a factual record for a limited number of
issues and requested that the Court appoint counsel to
represent Georgiou. In his pro se § 2255 Motion,
Georgiou requested court-appointed counsel to
represent him and, on April 17, 2017, we conducted a
hearing regarding the appointment of counsel. See Tr.
4/17/17. Cognizant of the fact that an evidentiary
hearing was imminent, the issue of appointment of
A17

counsel was of the utmost importance.16 During the
hearing, Georgiou stated that he wanted to represent
himself. Id. at 6. Consequently, we conducted a
thorough colloquy of Georgiou on his request to
proceed pro se. Id. at 10-38; see also United States v.
Peppers, 302 F.3d 120, 132-37 (3d Cir. 2002).
The Court was prepared to appoint an attorney from
the Federal Community Defender Office for the
Eastern District of Pennsylvania (―Federal Defender‖)
to represent Georgiou. See Tr. 4/17/17, 6. In fact,
Arianna J. Freeman (―Federal Defender Freeman‖),
who is the Federal Defender‘s Managing Attorney
Non-Capital Habeas Unit, was present at the hearing
for that purpose. Id. at 27. Federal Defender Freeman
was ready and willing to represent Georgiou; however,
Georgiou refused the appointment of counsel, waived
counsel, and chose to represent himself.17 Id. at 6-30.
After conducting an extensive colloquy in order to
determine whether Georgiou‘s waiver was knowing,
____________________
―Rule 8(c) of the Rules Governing Section § 2255
Proceedings, 28 U.S.C. foll. § 2255, provides that ‗[i]f an
evidentiary hearing is required, the judge shall appoint
counsel for a movant who qualifies for the appointment of
counsel under 18 U.S.C. § 3006A(g) ....‘‖ United States v.
Iasiello, 166 F.3d 212, 213 (3d Cir. 1999) (footnote omitted).
―18 U.S.C. § 3006A(g) allows for appointment of counsel
when ‗the interests of justice so require and such person is
financially unable to obtain representation.‘ ‖ Id. at 213
n.2. On April 18, 2017, Georgiou filed a CJA 23 Financial
Affidavit indicating his qualification as an indigent
defendant. (Doc. No. 331.)
16

After asking Georgiou for the reason that he would not
accept counsel appointed by the Court, Georgiou responded
as follows:
17

As far as why I wouldn‘t want counsel, I would always
want the advice of counsel, but I don‘t know who that
counsel is and my case has certain complexities to it. It‘s
kind of, in my eyes, having a terminal condition. You may
not want that treated by any practitioner. There has to be
someone you‘re compatible with, presumably, and
somebody who has certain expertise.
Tr. 4/17/17, 9. Georgiou is concurrently representing
himself opposing the forfeiture proceedings in our case, and
in a civil action brought by the Securities and Exchange
Commission (―SEC‖). See SEC v. Georgiou, Civ. No. 09-616.

A18

intelligent, and voluntary, and upon ensuring that he
understood the full implications of his decision, I was
satisfied that he knowingly, intelligently, and voluntarily decided to proceed pro se.18 Id. at 27-28. Out of
an abundance of caution, Federal Defender Freeman
was ―appointed to assist [Georgiou] as stand-by
counsel only. This Appointment is pursuant to Title
18, § 3006A, counsel‘s duties are limited to answering
legal and procedural questions from [Georgiou].‖19 Id.;
Doc. No. 332.
*10 During the pendency of his § 2255 Motion,
Georgiou proceeded to file countless pro se motions
seeking discovery from the government. Significantly,
the government produced records which were not
produced pretrial. Georgiou supplemented the record
with the newly produced documents received from the
government. On July 14, 2017, in light of the
____________________
As I was conducting the colloquy, AUSA Lappen
requested extra time to go back to his office and obtain a
copy of the Third Circuit‘s approved colloquy for a
defendant who wants to proceed pro se. See Tr. 4/17/17, 11.
Specifically, AUSA Lappen stated:
18

[Georgiou] now says he wants to represent himself and go
pro se. He‘s obviously been very litigious. I would request
that if – that before he be allowed to go pro se, that I get a
copy of the Third Circuit approved colloquy for a
defendant who wants to go pro se and we follow that line
by line, word for word, so that we don‘t have further
litigation, with all due respect to Your Honor, over
whether the colloquy is sufficient.
In part, I hear him saying he wants to go pro se for now. I
think what he is going to do – he‘s not saying unequivocally he wants to go pro se for the balance of this
procedure and for these hearings. So I think we need to
have a full colloquy, formal colloquy.
Id. AUSA Lappen was granted the extra time out of an
abundance of caution. See id. at 14-15. After the brief
recess, I continued with the colloquy using the Third
Circuit‘s approved colloquy. See id. at 16-24.
Research and Writing Attorney for the Federal Defender,
Thomas Gaeta (―Federal Defender Gaeta‖), also provided
some assistance to Georgiou, but it appeared such assistance was administrative in nature.
19

A19

government‘s new production of records, the Court
granted Georgiou‘s pro se request for an urgent status
conference, and instructed the parties to be prepared
to discuss, inter alia, the following issues:
1. the Government‘s disclosure that an Assistant
United States Attorney was assigned to the Waltzer
matter in 2006; and
2. the witnesses who both sides expect to call at the
evidentiary hearing.
(Doc. No. 395.) Also, I ordered that a limited
evidentiary hearing was required to develop a factual
record regarding the following issues:
1. Kevin Waltzer‘s (―Waltzer‖) contacts with the
Government before June 2007, including the U.S.
Attorney‘s Office involvement.
2. Waltzer‘s communications with the Government
attorneys during the investigation of Georgiou and
other defendants.
3. Whether former counsel were constitutionally
ineffective for (a) deciding not to engage a securities
expert witness for trial; (b) supposedly entering into
an unauthorized agreement with the Government to
extend the trial, based on a conflict with Government counsel; (c) failing to establish the existence of
Georgiou‘s fictional lawyer, Andreas Augland; (d)
failing to properly advise and inform Georgiou
concerning plea offers from the Government; and (e)
failing to use additional evidence to cross-examine
Government witness Alex Barrotti?20
(Doc. No. 397.) An additional ineffective assistance of
counsel claim for failure to argue that Waltzer‘s
communications with the AUSAs were improper was
subsequently added to the list of limited issues being
addressed at the evidentiary hearing.
On July 19, 2017, a status conference was conducted
where many issues were discussed, and the dates for
____________________
Georgiou later withdrew the ineffectiveness claims (b)
through (e) above, and the Court issued an order formally
dismissing those claims with prejudice. (Doc. No. 495.)
20

A20

the evidentiary hearing were set for September 18, 19,
25 and 26.21 (Doc. No. 401.) From July 19, 2017, until
the start of the evidentiary hearing on September 18,
2017, dozens of motions were filed, mainly, by
Georgiou regarding discovery. Among the matters at
issue were the government‘s supplementation of the
record throughout the habeas proceeding, Georgiou‘s
continual search for records, and the witness list for
the evidentiary hearing. Georgiou also sought to
compel the testimony of AUSA Lappen as a necessary
witness, and his disqualification from representing
the government at the evidentiary hearing.22 During
this time period, the government provided Georgiou
with substantial discovery as requested for the
proceedings, which included more records that were
not produced to Georgiou‘s defense.
*11 Also, a significant issue that arose was which
witnesses that were proposed by Georgiou, numbering
more than forty, should be permitted to testify at the
evidentiary hearing. Georgiou and the government
agreed upon twenty witnesses, and, due to Georgiou‘s
pro se status, the government was in the unusual
position of contacting and scheduling Georgiou‘s
witnesses, which it did diligently. (Doc. No. 449.) A
number of proposed witnesses were in dispute, which
required the Court to determine who were permitted
to testify. (Doc. No. 452.) Given the seriousness of the
situation, there were ten disputed proposed witnesses
who the Court had interviewed by an investigator for
the Federal Defender (―Federal Defender Investi____________________
The evidentiary hearing was originally scheduled for
August 2017, but was rescheduled until September 2017.
(Doc. Nos. 329, 401.)
21

The Court granted Georgiou‘s Motion to Compel the
testimony of AUSA Lappen as a necessary witness and;
therefore, he was required to testify at the evidentiary
hearing. (Doc. No. 413.) Consequently, he was disqualified
from representing the government at the evidentiary
hearing, and Assistant United States Attorney Lesley S.
Bonney (―AUSA Bonney‖) represented the government.
(Id.) However, AUSA Lappen was permitted to remain at
counsel table during the evidentiary hearing. (Doc. No.
438.) After the evidentiary hearing was concluded, AUSA
Lappen continued to represent the government along with
AUSA Bonney.
22

A21

gator‖) to determine whether their testimony was
relevant.23 (Doc. Nos. 456 (Court expanded the role of
the Federal Defender for the limited purpose of hiring
an investigator to interview Georgiou‘s proposed
witnesses), 471.) Overall, the issue of which witnesses
would be permitted to testify was not only hotly
debated, but it was earnestly considered by the Court
given the progression of the habeas proceedings;
specifically, the expansion of the record, and
Georgiou‘s allegations of serious misconduct by the
government.
Georgiou also pursued the ability to have three
current federal inmates, who allegedly knew Waltzer
while he was incarcerated, testify about what Waltzer
supposedly said to them while in prison, which
Georgiou alleged was exculpating of himself and
incriminating of Waltzer. (Doc. Nos. 408, 410, 449.)
Specifically, the three inmates who Georgiou sought to
testify about Waltzer‘s alleged statements to them
are: Adam Lacerda (―Lacerda‖); Michael Vandergrift
(―Vandergrift‖); and Jeff Bellamy (―Bellamy‖). Both
Lacerda and Vandergrift chose not to testify by
pleading the Fifth Amendment through their attorneys at the start of the evidentiary hearing. (Doc. No.
468.) Regarding Bellamy, Georgiou claimed that
Bellamy would testify that Waltzer had confessed to
him that Georgiou had never engaged in illegal
conduct with Waltzer, and that Waltzer continued to
use cocaine during his time working with the FBI.
(Doc. No. 408.) Instead, on September 19, 2017,
Bellamy took the stand and testified under oath that
Georgiou offered him $10,000 to testify for Georgiou at
the evidentiary hearing and to sign an affidavit
____________________
One of the disputed proposed witnesses was Georgiou‘s
sentencing counsel, Mark Cedrone (―Cedrone‖). (Doc. Nos.
471, 478.) Georgiou states that he had a third party contact
Cedrone. (Doc. No. 478.) After the Federal Defender
Investigator completed his investigation of the remaining
witnesses, Georgiou was permitted to supplement the
record explaining their relevance to the limited issues
being addressed at the evidentiary hearing, and the
government was granted time to file a response. (Doc. No.
471.) Regarding six of the witnesses, Georgiou withdrew
his request for their testimony, and I made rulings
pertaining to the remaining witnesses. (Doc. No. 495.)
23

A22

written by Georgiou. Tr. 9/19/17, 138-60. We will delve
further into Bellamy‘s testimony, as well as what
occurred with Vandergrift and Lacerda‘s counsel, in
our Findings of Fact. See Findings of Fact, infra ¶¶
56-70.
The evidentiary hearing was conducted on the
following dates: September 18, 19, 25, 26; November
15, 16; and December 1, 2017. All of the days of
testimony were full days, except for the testimony on
December 1, 2017, which only lasted a little more than
an hour. Throughout the entire evidentiary hearing,
Georgiou effectively represented himself and
thoroughly questioned all of the nineteen witnesses,
which encompassed many seasoned and accomplished
attorneys.24 Georgiou zealously advocated for himself.
Not only did he effectively utilize the law, but he fully
used his unparalleled knowledge of the facts of his
case, including the trial record, to his full advantage.
He also took full advantage of his pro se status, and its
attendant leeway, by knowingly attempting to expand
the scope of the evidentiary hearing at every turn.
Such maneuvering required the need to constantly
reign Georgiou in when he sought to expand the scope.
The record is now fully developed and includes the
additional facts that are helpful to fully resolve
Georgiou‘s claims.
*12 On December 1, 2017, at the conclusion of the
evidentiary hearing, the parties were given a little
more than sixty days, until February 5, 2018, to file
their proposed Findings of Fact and Conclusions of
Law, as well as any other briefing. (Doc. Nos. 516.)
The time limit was extended, at Georgiou‘s request,
until March 5, 2018, which gave the parties a total of
approximately ninety days. (Doc. Nos. 535, 549.) Since
the moment that I set the day for the final briefing to
be filed, Georgiou has claimed that he needs more
time. Tr. 12/1/17, 55-56. At that time, I explained to
Georgiou, ―We must have fixed and hard dates at this
point. It has been dragging on for a long time.‖ Id. at
____________________
In her role as stand-by counsel, Federal Defender
Freeman was present at counsel table with Georgiou along
with Federal Defender Gaeta.
24

A23

55.
Subsequently, Georgiou filed more pro se motions
seeking, among other things, to: obtain more
discovery; recall several witnesses; supplement the
record; release information that was redacted in FBI
records; amend his § 2255 Motion; and obtain an
expansion of time for filing his final briefing.
In addition, Georgiou also filed a pro se ―Motion
Requesting Urgent Status Conference‖ seeking, inter
alia, the ―Appointment/Engagement of Counsel‖ on
December 29, 2017. (Doc. No. 527.) Notably,
Georgiou‘s request for appointment of counsel was
long after my ardent attempts to appoint counsel
during the April 17, 2017 colloquy, and subsequent to
the conclusion of the evidentiary hearing where
Georgiou effectively questioned nineteen witnesses.
Georgiou‘s Motion for an urgent status conference was
granted on January 11, 2018, and an oral argument
was held on January 12, 2018. (Doc. Nos. 530, 531.)
During the oral argument, Georgiou sought time to
find an attorney, and the government strenuously
argued that starting over with a new attorney, after
Georgiou conducted the hearing and wrote various
habeas briefs, would waste a tremendous amount of
resources. Tr. 1/12/18, 3-6. I denied Georgiou‘s request
for appointment of counsel stating that I was not
going to delay the proceedings any further. Id. at 6;
Doc. No. 532. In light of the appointment of counsel
issue raised by Georgiou, it is important for this Court
to make crystal clear that Georgiou has possessed
both an excellent understanding of the issues and the
ability to adequately present, forcefully and coherently, his contentions throughout the entire time that
he has represented himself.25 See Reese v. Fulcomer,
____________________
I noted several times to Georgiou that he has far and
away the best command over all of the aspects of the case.
Tr. 1/12/18, 15, lines 13-17 (―I‘ve commented and I think I
commented in this court on the record that of everybody in
this room, you have a more complete knowledge of this
entire record than anybody.‖). Also, Georgiou had the
means to adequately investigate, prepare and present all of
his claims as evidenced by the fact that he filed approximately fifty-four motions, and many responses and replies,
25

A24

946 F.2d 247, 264 (3d Cir. 1991).
On January 17, 2018, Georgiou sought reconsideration
of the denial of appointment of counsel. (Doc. No. 533.)
Georgiou argued that Rule 8(c) of the Rules Governing
Section § 2255 Proceedings was triggered by the need
for an evidentiary hearing, and the Court‘s current
denial of appointment of counsel amounted to an
abridgement of his statutory right. (Id.) I denied
Georgiou‘s request for appointment of counsel on
January 24, 2018. (Doc. No. 535.) He also filed a pro se
―Urgent Motion to Address Appointment of Counsel
Pursuant to Obtaining Colloquy Transcript and
Extension of Time to File Final Briefing‖ on February
14, 2018, which was denied on February 15, 2018.26
(Doc. Nos. 546, 547.)
*13 On March 5, 2018, more than ninety days after
the conclusion of the evidentiary hearing, Georgiou
filed his proposed Findings of Fact and Conclusions of
Law, and a Supplemental Brief (collectively
―Georgiou‘s Findings of Fact and Conclusions of Law
Submission‖), and the government filed its Proposed
Findings of Fact and Conclusions of Law. (See Doc.
Nos. 556, 557.)
B. LAYOUT OF THE MEMORANDUM OPINION
This Memorandum Opinion is divided into two parts.
Part I addresses the claims, in which, the record as a
whole conclusively establishes that Georgiou is not
entitled to any relief, and no evidentiary hearing was
_______________(cont'd)
since proceeding pro se. Not only did the vast majority of
the motions and other submissions include effective legal
argument, but they also adequately applied legal argument
to the facts of the case. Moreover, Georgiou‘s questioning of
the nineteen witnesses during the evidentiary hearing was
legally sound and comprehensive of the important issues at
hand.
For some reason, unknown to the Court, Georgiou has
absolutely no interest in having Federal Defender Freeman
represent him in a full capacity. Even as late as February
14, 2018, when the final briefing was due on February 20,
2018, Georgiou acknowledged Federal Defender Freeman
as his stand-by counsel, but appeared completely uninterested in her representation, instead, asking for the
appointment of new counsel. (Doc. No. 546.)
26

A25

required. Specifically, Part I addresses the following
claims:
1. Count Nine, charging wire fraud, should be
―dismissed
for
constructive
amendment-fatal
variance‖ because the wire supposedly was not in
furtherance of the fraud;
2. this Court erred in instructing the jury on
securities fraud;
3. the government engaged in misconduct in its
closing argument to the jury;
4. the government suborned perjury when Waltzer
testified that he recorded all calls with Georgiou
when supposedly there were unrecorded calls
toward the end of the undercover operation when
Georgiou and the government were engaged in the
―test‖ trade;
5. the government engaged in misconduct in failing
to disclose evidence that Waltzer supposedly failed
to record calls of a defendant in a different
investigation, James Hall, against whom Waltzer
also cooperated (and following the investigation,
Hall pleaded guilty); and
6. based on a change to Brady law, Georgiou
believes that this Court should revisit the Brady
claims (relating to Waltzer‘s mental health and drug
use) previously litigated and rejected in this Court
and the Court of Appeals, despite a finding in both
courts that the information not disclosed by the
government was not material.
Additionally, Part I addresses the following ineffective
assistance of counsel claims:
1. Counsel were ineffective for failing to object to
SEC Accountant Daniel Koster (―Koster‖) testifying
as a lay witness;
2. Counsel were ineffective for failing to properly
cross-examine Koster on his flawed analysis;
3. Counsel were ineffective for failing to object to
summary charts created by Koster being admitted
as evidence pursuant to Federal Rule of Evidence
A26

1006;
4. Counsel were ineffective for failing to require that
Government Exhibits 301-304 be admitted into
evidence and reviewed by a jury;
5. Counsel were ineffective for failing to ―uncover
the AUSA Secret Communication Arrangement with
Waltzer, and move for their Disqualification[;]‖
6. Counsel were ineffective for failing to discover
information about Waltzer‘s mental state;
7. Counsel were ineffective for failing to impeach
Waltzer for his perjury in connection with his email
with Georgiou;
8. Counsel were ineffective for failing to obtain
―critical evidence of Waltzer manipulating recordings in Hall and other cases[;]‖
9. Counsel were ineffective for failing to pursue a
multiple conspiracies jury instruction based on an
alleged fatal variance in the Indictment;
10. Counsel were ineffective in failing to pursue
again during trial (having raised the claim pretrial)
a motion to dismiss Count One on the ground that
there was a ―fatal variance between pleading and
proof[;]‖
11. Counsel were ineffective for ―failing to raise
jurisdictional-extraterritoriality, and irrevocable
liability issues, pretrial;‖ and
*14 12. Counsel were ineffective for failing to object to
a forfeiture money judgment.
Part II encompasses my ―Findings of Fact and
Conclusions of Law,‖ which addresses those issues
specifically designated as being addressed at the
evidentiary hearing. Those issues are the following:
1. Waltzer‘s contacts with the Government before
June 2007, including the U.S. Attorney‘s Office
involvement;
2. Waltzer‘s communications with the Government
attorneys during the investigation of Georgiou and
other defendants;
A27

3. Counsel were ineffective for failing to engage a
securities expert on behalf of the defense for trial;
and
4. Counsel were ineffective for failing to argue that
Waltzer‘s communications with the AUSAs were
improper.
Finally, Georgiou‘s claims are multidimensional and
overlapping. Additionally, his writing is dense and
needs to be untangled in many cases. The Court has
made every effort to view all of Georgiou‘s claims
broadly in light of his pro se status. See Mala v. Crown
Bay Marina, Inc., 704 F.3d 239, 244-46 (3d Cir. 2013)
(discussing the obligation of a court to liberally
construe pro se pleadings and other submissions,
particularly focusing on imprisoned pro se litigants).
Also, the Court has made every effort to address each
issue raised in the hundreds of pages of briefing. To
the extent that any issue has not been specifically
addressed in our Memorandum Opinion, we have
considered it, and deny it, finding that it does not
warrant discussion.
II. LEGAL STANDARD
Under 28 U.S.C. § 2255(a), a federal prisoner may file
a motion requesting that the sentencing court vacate,
set aside, or correct his sentence on the basis ―that the
sentence was imposed in violation of the Constitution
or laws of the United States, or that the court was
without jurisdiction to impose such sentence, or that
the sentence was in excess of the maximum
authorized by law, or is otherwise subject to collateral
attack.‖ 28 U.S.C. § 2255(a). If a party is entitled to
relief under § 2255(a), ―the court shall vacate and set
the judgment aside and shall discharge the prisoner or
resentence him or grant a new trial or correct the
sentence as may appear appropriate.‖ Id. § 2255(b).
―In considering a motion to vacate a defendant‘s
sentence, ‗the court must accept the truth of the
movant‘s factual allegations unless they are clearly
frivolous on the basis of the existing record.‘ ‖ United
States v. Booth, 432 F.3d 542, 545 (3d Cir. 2005)
(quoting Gov‘t of the Virgin Islands v. Forte, 865 F.2d
59, 62 (3d Cir. 1989)). ―The district court is required to
hold an evidentiary hearing unless the motion and
A28

files and records of the case show conclusively that the
movant is not entitled to relief.‖ Id. (citation omitted);
see also § 2255(b). ―The obligation to liberally construe
a pro se litigant‘s pleadings is well-established.‖ Higgs
v. Att‘y Gen. of the U.S., 655 F.3d 333, 339 (3d Cir.
2011) (citations omitted).
A. PREVIOUSLY
DEFAULT

LITIGATED/PROCEDURAL

1. Previously Litigated
―Once a legal argument has been litigated and decided
adversely to a criminal defendant at his trial and on
direct appeal, it is within the discretion of the district
court to decline to reconsider those arguments if
raised again in collateral proceedings under 28 U.S.C.
[§] 2255.‖ United States v. Orejuela, 639 F.2d 1055,
1057 (3d Cir. 1981) (citing cases). ―Section 2255 generally may not be employed to relitigate questions which
were raised and considered on direct appeal.‖ United
States v. DeRewal, 10 F.3d 100, 105 n.4 (3d Cir. 1993)
(citation omitted); see also United States v. Palumbo,
608 F.2d 529, 533 (3d Cir. 1979). ―[R]elitigation may
be allowed for ‗newly discovered evidence that could
not reasonably have been presented at the original
trial, a change in applicable law, incompetent prior
representation by counsel, or other circumstances
indicating that an accused did not receive full and fair
consideration of his federal constitutional and
statutory claims.‘‖ United States v. Scott, 664 F. App‘x
232, 237 (3d Cir. 2016) (quoting Palumbo, 608 F.2d at
533).
2. Procedural Default
*15 ―Because collateral review under § 2255 is not a
substitute for direct review, a movant ordinarily may
only raise claims in a § 2255 motion that he raised on
direct review.‖ Hodge v. United States, 554 F.3d 372,
378-79 (3d Cir. 2009) (citing Bousley v. United States,
523 U.S. 614, 621 (1998)). ―Put differently, a movant
has procedurally defaulted all claims that he
neglected to raise on direct appeal.‖ Id. at 379 (citing
Bousley, 523 U.S. at 621). ―But courts will exempt a
movant from that rule if he can prove either that he is
actually innocent of the crime for which he was
A29

convicted, or that there is a valid cause for the default,
as well as prejudice resulting from the default.‖ Id.
(citing Bousley, 523 U.S. at 622).
a. Cause and Prejudice
To demonstrate cause for procedural default, a
petitioner ―must show that some objective factor
external to the defense impeded counsel‘s efforts to
raise the claim.‖ United States v. Pelullo, 399 F.3d
197, 223 (3d Cir. 2005), as amended (Mar. 8, 2005)
(quoting McCleskey v. Zant, 499 U.S. 467, 493 (1991))
(internal quotation marks omitted). ―Examples of
external impediments ... include interference by
officials, a showing that the factual or legal basis for a
claim was not reasonably available to counsel, and
ineffective assistance of counsel.‖ Id. (quoting Wise v.
Fulcomer, 958 F.2d 30, 34 n.9 (3d Cir. 1992)) (internal
quotation marks omitted); see also Hodge, 554 F.3d at
379 (―Ineffective assistance of counsel that rises to the
level of a Sixth Amendment violation constitutes
cause for a procedural default.‖). Notably, if a
petitioner fails to establish the requisite cause
excusing procedural default, it is unnecessary to
determine whether he or she has shown actual
prejudice. Pelullo, 399 F.3d at 223-24; see also Smith
v. Murray, 477 U.S. 527, 533 (1986).
To establish prejudice, a petitioner must not merely
show that there were errors that created a possibility
of prejudice, but that the errors ―worked to his actual
and substantial disadvantage, infecting his entire trial
with error of constitutional dimensions.‖ Holland v.
Horn, 519 F.3d 107, 112 (3d Cir. 2008) (quoting
United States v. Frady, 456 U.S. 152, 170 (1982)).
b. Actual Innocence27
____________________
Actual innocence ―serves as a gateway through which a
petitioner may pass whether the impediment is a procedural bar ... or ... expiration of the statute of limitations.‖
McQuiggin v. Perkins, 569 U.S. 383, 386 (2013). ―The
Supreme Court has not yet recognized the existence of a
freestanding claim of actual innocence.‖ Wright v. Superintendent Somserset SCI, 601 F. App‘x 115, 119 (3d Cir.
2015) (citing McQuiggin, 569 U.S. at 386). Georgiou
attempts to raise a freestanding claim of actual innocence.
27

A30

*16 ―To establish actual innocence, a habeas
petitioner must persuade[ ] the district court that, in
light of the new evidence, no juror, acting reasonably,
would have voted to find him guilty beyond a
reasonable doubt.‖ Sweger v. Chesney, 294 F.3d 506,
522 (3d Cir. 2002) (alteration in original) (citation
omitted); see also Schlup v. Delo, 513 U.S. 298, 324-26
(1995) (stating that a ―quintessential miscarriage of
justice‖ claim is one that a petitioner is entirely
innocent of the crime). ―Actual innocence means
‗factual innocence, not mere legal insufficiency.‘ ‖
Sweger, 294 F.3d at 523 (quoting Bousley, 523 U.S. at
623). ―The Supreme Court has required a petitioner ‗to
support his allegations of constitutional error with
new reliable evidence – whether it be exculpatory
scientific evidence, trustworthy eyewitness accounts,
or critical physical evidence – that was not presented
at trial.‘ ‖ Id. (quoting Schlup, 513 U.S. at 324). ―
‗Because such evidence is obviously unavailable in the
vast majority of cases, claims of actual innocence are
rarely successful.‘ ‖ Id. (quoting Schlup, 513 U.S. at
324); see also Sistrunk, 674 F.3d at 192 (―Schlup sets
a supremely high bar.‖); Werts v. Vaughn, 228 F.3d
178, 193 (3d Cir. 2000) (noting that the actual
innocence exception ―will apply only in extraordinary
cases‖).
―New reliable evidence is almost always required to
establish actual innocence.‖ Id. (footnote omitted).
―‗We have held,‘ however, ‗that, in certain circumstances, the lack of new evidence is not necessarily
_______________(cont'd)
Here, assuming arguendo that Georgiou could make a
freestanding claim of actual innocence, his claim is without
merit. Considering Georgiou‘s arguments regarding how
the newly produced records impacted his trial, we conclude
that he has not presented sufficient persuasive evidence of
actual innocence because his arguments either have no
bearing on his factual innocence or he conclusorily denies
other facts that the overwhelming evidence brought out at
trial unequivocally established. Adding Georgiou‘s offered
evidence into the mix of all of the evidence would still
permit a reasonable juror to vote to convict. Thus, in light
of all of the evidence, Georgiou has not shown that the new
evidence is ―so probative of innocence that no reasonable
juror would have convicted [him.]‖ Sistrunk v. Rozum, 674
F.3d 181, 191 (3d Cir. 2012) (citations omitted).

A31

fatal to an argument that a petitioner is actually
innocent.‘ ‖ United States v. Davies, 394 F.3d 182, 191
(3d Cir. 2005) (quoting Cristin v. Brennan, 281 F.3d
404, 420 (3d Cir. 2002)). For example, actual
innocence may be demonstrated ―by pointing to postconviction decisions holding that a substantive
criminal statute does not reach [a petitioner‘s]
conduct.‖ Id. (internal quotation marks and quoted
case omitted).
III. PART I –
UNNECESSARY

EVIDENTIARY

HEARING

A. SECTION 1 – VARIOUS CLAIMS
1. Count Nine, Charging Wire Fraud, Should Not
Be Dismissed For Constructive AmendmentFatal Variance
Georgiou states that ―Count Nine charged wire fraud
against ‗Accuvest ... a Bahamian brokerage firm‘,
alleging that for the purpose of executing the scheme
... a $5,000 wire transfer ... to a Philadelphia bank
account as payment for manipulating trading in
Northern Ethanol stock was completed.‖ (Pet‘r‘s Br.
17.) He argues that:
Count Nine must be dismissed for constructive
amendment–fatal variance. There was no nexus
between the government‘s alleged $5,000 bribe and
any wire fraud against Accuvest. Indeed, the
government‘s argument is illogical. Northern
Ethanol shares were deposited at Accuvest. The four
Northern Ethanol trades conducted at Accuvest
generated $110,000 of proceeds. The alleged purpose
of the bribery was to manipulate the shares
upwards, to create liquidity. If anything, Accuvest
would have benefited by selling shares and reducing
the margin debt. There is a prejudicial variance
between the Indictment and proof.
(Id.) The government argues that this claim does not
entitle Georgiou to any relief as it is waived and
without merit. (Gov‘t‘s Resp. 7.)
a. Previously Litigated/Procedural Default
Georgiou raises this claim for the first time in his
A32

§ 2255 Motion. He does not advance any specific
argument pertaining to the ―cause and prejudice‖
exception to the procedural default rule. Georgiou
could have raised this argument on direct appeal, but
did not. To the extent that he makes a universal
argument that the procedural default rule does not
apply because his prior counsel were ineffective, this
argument fails. As discussed below, we find Georgiou‘s
constructive amendment-fatal variance argument
groundless; therefore, we, likewise, deny his claim of
ineffective assistance, as counsel cannot be ineffective
for failing to raise a meritless claim. See Strickland v.
Washington, 466 U.S. 668, 691 (1984) (finding that
failure to pursue ―fruitless‖ claims ―may not later be
challenged as unreasonable‖).
*17 Also, Georgiou fails to satisfy the ―actual
innocence‖ exception to the procedural default rule
because he has not provided new reliable evidence of
his actual innocence. Even with Georgiou‘s presentday arguments, and the newly produced documents
upon which he currently relies, there is no way that
we could conclude that it is more likely than not that
no reasonable juror would have convicted him in light
of the new evidence. See Bousley, 523 U.S. at 623.
Consequently, Georgiou‘s claim that Count Nine must
be dismissed for constructive amendment-fatal
variance, which could have been raised on direct
appeal, but was not, is procedurally defaulted.
b. Merits
In the alternative, even if Georgiou‘s claim is not
procedurally barred, his claim is meritless. Georgiou
makes a very general and sweeping claim, but does
not present a thorough and well-reasoned analysis of
his argument in conjunction with the evidence
convincingly used against him at trial. Significantly,
―vague and conclusory allegations contained in a
§ 2255 petition may be disposed of without further
investigation by the District Court.‖ United States v.
Thomas, 221 F.3d 430, 437 (3d Cir. 2000) (citing
United States v. Dawson, 857 F.2d 923, 928 (3d Cir.
1988)). After reviewing Georgiou‘s vague and
conclusory claim, we conclude that he is not entitled to
habeas relief.

A33

2. Jury Instructions For Securities Fraud – No
Constructive Amendment
Georgiou, who was indicted under Section 10(b) of the
Exchange Act, argues that the government
―constructively amended‖ the indictment to charge
Section 9(a) of the Exchange Act, and this Court
improperly instructed the jury on Section 9(a). (Pet‘r‘s
Br. 18-20.) ―An indictment is constructively amended
when evidence, arguments, or the district court‘s jury
instructions effectively amend the indictment by
broadening the possible bases for conviction from that
which appeared in the indictment.‖ United States v.
McKee, 506 F.3d 225, 229 (3d Cir. 2007) (quotation,
internal quotation marks, and alteration omitted); see
also United States v. Syme, 276 F.3d 131, 148 (3d Cir.
2002) (stating that a constructive amendment ―occurs
where a defendant is deprived of his ‗substantial right
to be tried only on charges presented in an indictment
returned by a grand jury‘ ‖).
The government did not argue that Georgiou was
guilty of violating Section 9(a) and the jury was not
asked to decide whether Georgiou violated Section
9(a). Section 9(a) prohibits individuals from effecting
―a series of transactions in any security registered on a
national securities exchange ... creating actual or
apparent active trading in such security, or raising or
depressing the price of such security, for the purpose
of inducing the purchase or sale of such security by
others.‖ 15 U.S.C. § 78i(a)(2) (emphasis added).
Georgiou‘s case did not involve stocks that traded on a
national securities exchange, and the government did
not charge him with this violation.
Section 10(b) makes it unlawful:
[t]o use or employ, in connection with the purchase
or sale of any security registered on a national
securities exchange or any security not so registered
... any manipulative or deceptive device or
contrivance in contravention of such rules and
regulations as the Commission may prescribe as
necessary or appropriate in the public interest or for
the protection of investors.
Georgiou, 777 F.3d at 133 (citing 15 U.S.C. § 78j(b))
A34

(alteration in original). In order to enforce this
statute, the SEC promulgated Rule 10b-5, which
makes it unlawful for any person ―[t]o employ any
device, scheme or artifice to defraud[;] [t]o make any
untrue statement of a material fact or to omit to state
a material fact necessary in order to make the
statements made ... not misleading, or[;] [t]o engage in
any act, practice, or course of business which operates
or would operate as a fraud or deceit upon any
person.‖ 17 C.F.R. § 240.10b-5. To state a claim under
Section 10(b) of the Act and Rule 10b-5, a plaintiff
must allege: (1) a material misrepresentation or
omission; (2) scienter; (3) a connection with the
purchase or sale of a security; (4) reliance, or transaction causation in fraud-on-the-market cases;
(5) economic loss; and (6) loss causation, or a causal
connection between the material misrepresentation or
omission and the loss. See Dura Pharm., Inc. v.
Broudo, 544 U.S. 336, 341-42 (2005).
*18 Although Section 10(b) outlaws a ―manipulative or
deceptive device or contrivance,‖ it does not define
those terms. See GFL Advantage Fund, Ltd. v.
Colkitt, 272 F.3d 189, 203-04 (3d Cir. 2001).
Examining the term ―manipulation‖ in relation to
Section 10(b), the Supreme Court stated that ―
‗[m]anipulation‘ is ‗virtually a term of art when used
in connection with securities markets.‘ ‖ Santa Fe
Indus., Inc. v. Green, 430 U.S. 462, 476 (1977)
(quoting Ernst & Ernst v. Hochfelder, 425 U.S. 185,
199 (1976)).28 In Santa Fe Industries, which is a
____________________
28

In Ernst, the Supreme Court explained:

―Wash sales‖ are transactions involving no change in
beneficial ownership. ―Matched‖ orders are orders for the
purchase/sale of a security that are entered with the
knowledge that orders of substantially the same size, at
substantially the same time and price, have been or will
be entered by the same or different persons for the
sale/purchase of such security. Section 9(a) of the 1934
Act, 15 U.S.C. § 78i(a)(1), proscribes wash sales and
matched orders when effectuated ―(f)or the purpose of
creating a false or misleading appearance of active
trading in any security registered on a national securities
exchange, or ... with respect to the market for any such
security.‖

A35

Section 10(b) case, the Supreme Court cited to Section
9(a) in broadly explaining that market manipulation
―refers generally to practices, such as wash sales,
matched orders, or rigged prices, that are intended to
mislead investors by artificially affecting market
activity.‖ Id. (citing 15 U.S.C. § 78i (prohibiting
specific manipulative practices); Ernst & Ernst, 425
U.S. at 195, 199 n.21, 205)) (citations omitted).
Explicitly relying upon the Supreme Court‘s ruling in
Santa Fe Industries, the Third Circuit defined
―manipulation‖ under Rule 10(b) as follows: ―[t]he
term ‗manipulation‘ ‗refers generally to practices, such
as wash sales, matched orders, or rigged prices, that
are intended to mislead investors by artificially
affecting market activity.‘ ‖ Rabin v. NASDAQ OMX
PHLX LLC, 712 F. App‘x 188, 193 n.7 (3d Cir. 2017)
(quoting Santa Fe Indus., 430 U.S. at 476 (citing
Ernst & Ernst, 425 U.S. at 199 (stating that
―manipulation ... connotes intentional or willful
conduct designed to deceive or defraud investors by
controlling or artificially affecting the price of
securities‖))).
Along the same lines as Santa Fe Industries, I
instructed the jury regarding Section 10(b) as follows:
The SEC has identified some, but not all types of
transactions that constitute fraud under these
regulations. These include fictitious transactions
effected for the purpose of creating a false or
misleading appearance with respect to the market
for any security.
One such transaction is a wash sale which involves
no change of beneficial ownership of the stock. In
other words, the same party is the buyer and the
seller of the stock.
Another prohibited transaction is a match[ed] trade,
which is an order to buy or sell securities that is
entered with knowledge that a matching order of
substantially the same size at substantially the
same time and substantially at the same price on
_______________(cont'd)
Ernst, 425 U.S. at 205 n.25 (alteration in original)
(citations omitted).

A36

the opposite side of the transaction has been or will
be entered by or for the same or different parties.
A third prohibited transaction is marking the close
which is a form of market manipulation that
involve[s] attempting to influence the closing price
of a publicly trade[d] share by executing purchase or
sale orders at or near the close of normal trading
hours.
Such activity can artificially inflate or depress the
closing price for that security and can affect the
price of the market on close orders, which are orders
submitted to purchase shares at or near as possible
to the closing price.
*19 These are examples under the SEC regulations
of transactions that constitute fraud when effected
for the purpose of creating a false or misleading
appearance of act of trading in any listed security,
or a false or misleading appearance with respect to
the market for any such transactions.
(Tr. 2/12/2010, 26-27.) Pursuant to the parties‘ joint
request, I further instructed:
In order to find the defendant guilty of securities
fraud, you must find that the government has
proven beyond a reasonable doubt all of the
elements of the securities fraud as I am about to
instruct you, including that the defendant acted
willfully, knowingly and with the intent to defraud.
(Id. at 27.)
Georgiou‘s argument centers on the jury instructions,
which included, at the government‘s request,
clarifying definitional language borrowed from Section
9(a) to further explain to the jury the types of
manipulative conduct that are widely understood as
―manipulative‖ as prohibited under Section 10(b) for
which Georgiou was indicted and found guilty. In a
nutshell, Georgiou is arguing that the jury
instructions regarding manipulation under Section
10(b)
improperly
encompassed
examples
of
manipulative market activity that included practices
such as ―wash sales‖ and ―matched orders,‖ and
provided the definitions of those terms contained in
A37

Section 9(a). Specifically, Georgiou argues that Section
9(a) is inapplicable to his case since he was not
charged under Section 9(a), and none of the companies
in his case involved ―listed securities‖ or any ―national
securities exchange.‖ (Pet‘r‘s Br. 19.) He also argues
that the cumulative prejudice of the jury instructions
cannot be overstated because ―[e]very stage of the trial
saw the jury bombarded with claims that ‗wash sales‘,
‗match trades‘, and ‗marking the close‘, were illegal.‖
(Id.) The government argues that Georgiou‘s claim is
not cognizable because he has not alleged a
constitutional violation, and the claim is procedurally
defaulted. (Gov‘t‘s Resp. 63-64.) Additionally, it
asserts that Georgiou‘s claim is without merit, and he
was not prejudiced because he would have been
convicted with or without the clarifying jury
instructions. (Id.)
a. Previously Litigated/Procedural Default
First, Georgiou‘s claim is procedurally defaulted.
Georgiou raised a similar claim in his Supplemental
and Amended Motion for a New Trial, which this
Court rejected.29 (See Doc. No. 211 at 33-34.) Georgiou
____________________
29

The September 29, 2010 Memorandum Opinion states:

Georgiou also seeks a new trial as a result of the Court
defining certain terms in its charge to the jury, including
―wash sale,‖ ―match[ed] trade‖ and ―marking the close.‖
As stated in United States v. Rennert:
The Court finds that any objections with respect to the
instructions which dealt with market manipulation terms
and practices are wholly without merit. The Court, in
these instructions, merely described certain market
practices which have been found to be manipulative.
These definitions were necessary because the terms and
practices are ―terms of art‖ or only readily understandable
if you are actually involved in the securities industry.
Thus, the Court instructed the jurors as to these terms so
that they could more properly and fairly consider the
case. No. 96-51, 1997 WL 597854, at *22 (E.D. Pa. Sept.
17, 1997).
Numerous cases define the terms ―wash sale,‖ ―matched
trade‖ and ―marking the close‖ as manipulative or
deceptive practices. See, e.g., SEC v. Wilson, No. 04-1331,
2009 WL 2381954, at *1 (D. Conn. July 31, 2009); SEC v.

A38

did not raise the jury instructions issue before the
Third Circuit on the merits. He does not allege, and
the Court does not discern, any cause for his failure to
present his claim to the Third Circuit. He appears to
generally raise ineffective assistance of counsel, which
may constitute cause for procedural default; however,
as discussed below, we cannot fault counsel for failing
to litigate a claim that is meritless. See Strickland,
466 U.S. at 691. In the absence of cause, the Court
need not address the issue of prejudice. However, we
note that Georgiou also fails to prove prejudice
because it is clear that he has not demonstrated
prejudice, and cannot, because he has not shown ―that
[these identified] errors at his trial ... worked to his
actual and substantial disadvantage, infecting his
entire trial with error of constitutional dimensions.‖
Frady, 456 U.S. at 170 (emphasis omitted).
*20 In turn, the actual innocence exception to the
procedural default doctrine is inapplicable because
Georgiou has not provided new reliable evidence of his
actual innocence. Accordingly, the Court will,
alternatively, deny Georgiou‘s claim entitled
―Prejudicial Jury Instructions for Securities Fraud –
Constructive Amendment‖ as procedurally barred.
b. Merits
Even assuming that Georgiou‘s claim is properly
raised pursuant to § 2255, it is completely without
merit. My jury instructions were proper, and there
was no constructive amendment of the indictment to
include Section 9(a). The jury was properly instructed
regarding manipulation under Section 10(b) and was
given appropriate examples according to Santa Fe
_______________(cont'd)
Kimmes, 799 F. Supp. 852, 859 (N.D. Ill. 1992). The goal
of jury instructions is to aid the jury in its understanding
of the applicable law, which includes both the language of
the relevant statute and the case law which explains it.
Moreover, at Georgiou‘s request, the parties jointly
submitted additional language regarding the challenged
instruction in order to clarify the mental state required
for conviction. Therefore, we conclude that no error was
committed as a result of the Court defining the relevant
terms in its jury instructions.
(Doc. No. 211 at 33-34.)

A39

Industries and its progeny. Thus, it was wholly
appropriate to instruct the jury that examples of
manipulative market activity included practices such
as ―wash sales‖ and ―matched orders,‖ and to provide
the definitions of those terms contained in Section
9(a). My use of the examples of ―wash sales‖ and
―matched trades,‖ and their definitions, in the jury
instructions was intended to assist the jury after a
very long and complicated securities fraud trial. See
United States v. Petersen, 622 F.3d 196, 203 (3d Cir.
2010) (―[A] district court has broad discretion in
fashioning a jury charge as long as it communicates
‗the substance of the law‘ so the jury is not misled or
confused.‖) (citation omitted). Also, I specifically
instructed the jury that it was required to determine
whether Georgiou acted willfully, knowingly and with
the intent to defraud, as required by Section Rule
10(b). (Tr. 2/12/2010, 27.) The jury instructions
adequately communicated the substance of Section
10(b) and neither misled nor confused the jury.
Georgiou was not prejudiced in any way by my proper
jury instructions, and he has not made any showing
otherwise. Additionally, the jury instructions were not
an avenue for the government to amend the
indictment using Section 9(a). The government
indicted Georgiou on securities fraud in violation of
Section 10(b), not Section 9(a), and the indictment was
not amended during trial to broaden the possible
bases for conviction from Section 10(b) to Section 9(a).
As it pertained to securities fraud, the trial, including
the jury instructions, was solely conducted pursuant
to Section 10(b), and Section 9(a) played no role in the
trial whatsoever. There was no constructive
amendment. As a result, Georgiou‘s claim entitled
―Prejudicial Jury Instructions for Securities Fraud –
Constructive Amendment‖ is denied.
3. The Government Did Not Engage In
Misconduct In Its Closing Arguments To The
Jury
Georgiou argues that the government improperly
vouched for government witnesses based on personal
knowledge and made a series of prejudicial comments
in closing. (Pet‘r‘s Br. 42.) Regarding these claims,
Georgiou includes the following excerpts summarizing
A40

the allegedly prejudicial comments from
government‘s closing argument to the jury:

the

―If the FBI didn‘t stop him when it did, he could
have stolen another 200 million from these victims.
This is where he was headed‖ (at 94) ... ―defendant
tried to pull the ultimate con on you, ladies and
gentlemen of the jury. He sat on that witness stand
and he tried to tell you a fairy tale not even a child
could believe‖ (95) ... an ―incredible story‖ (95) ... a
―fictional tale of chasing some phantom IRS
documents from Kevin Waltzer‖ ... ―this fairy tale‖ ...
―he made up a story‖ (95) ... Listen to ―what the
defendant says about this because it shows what an
incredible lie he is telling and just how guilty he is‖
... its ―a fancifultale‖ (102) ... ―when he gets on the
stand he tells you something that is incredible that
you can not believe‖ ... (Gov. Ex. 420) is an
―admission of the entire fraud‖ (103) ... ―with your
own life skills you can tell as you saw him [Kevin
Waltzer] on the stand and you judged his credibility
and you look at it with all of the other evidence in
the case that corroborates everything that Kevin
Waltzer said ... you know (Kevin Waltzer) is telling
you the truth, and nobody from the government is
telling you to take Kevin Waltzer‘s word for it‖ (105)
... ―Richard Brezzi who is basically a front for Vince
Derosa‖ (120) ... as to Neutron Enterprises, ―which
‗we‘ know is junk‖ (128) ... April 2008 is when
Georgiou‘s ―lies kind of enter the stratosphere‖ (129)
... ―where is the (Kevin Waltzer) fraud?‖ (130) ... ―a
fictitious universe‖ (131) ... ―not hearing the
defendant trying to get any IRS documents from
Kevin Waltzer‖ (131) ... Georgiou ―didn‘t tell the FBI
he was conducting an investigation upon arrest‖
(131) ... Georgiou, ―knows what he is doing is
criminal‖ ... he claims the $5,000 ―is for something
else, that is the lie‖ (136) ... all Georgiou ―has is
some phantom phone call that Kevin Waltzer that
either didn‘t record or wasn‘t recorded‖ (136) ... ―it is
a seven minute call and if you believe the defendant,
that Kevin Waltzer picked up the phone and the
defendant said everything we‘ve just said and done
for the last four years isn‘t true and we are changing
everything in one seven minute call‖ (136) ... ―it is
absurd‖ (136) ... he ―cons Barrotti into this loan‖
A41

(137) ... ―Georgiou was doing all the trading in that
(Caledonia) account‖ (139) ... buying ―junk stocks on
margin‖ (139) ... ―this case was over after the first
witness (FBI Agent ―Charlie‖)‖ (201 ) ...‖ he is not
presumed innocent once you have heard this
evidence‖ (201) ... defense counsel (Michael Pasana)
―was able to ask (Kevin Waltzer) any question that
he wanted‖ (202) ... you were ―able to watch (Kevin
Waltzer), was he telling you the truth?‖ (202) ... ―did
he (Kevin Waltzer) seem like he was the one telling
the truth‖ ... (Kevin Waltzer) had, ―no idea about
IRS documents‖ (202) ... ―this whole IRS thing is
ridiculous‖ ... ―you have seen everything that we had
in this case was turned over to the defense‖ (203) ...
―they have no burden ... but they decided to put on a
case‖ (203) ... ―if there was something different in
this case, you would have saw it‖ (203) .. ―and all
you saw was perhaps the biggest lie I submit one
could see from the witness stand in the testimony of
that man (Georgiou)‖ (203) ... ―those [SECJ charts in
evidence are proof‖ (203) ... ―undisputed proof (203)
... ―the undisputed proof is that Daniel Koster from
the SEC went in and spent months tracking all of
these trades‖ .... ―those charts are evidence of this
crime‖ (204) ... ―wires went to Tom Bock. I suggest
the evidence, Tom Bock was laundering money for
him‖ (205) ... Georgiou ―was profiting plenty, $3
million and that was only a small part of what we
could actually recover from Canada‖ (205) ... ―this
idea that (Georgiou) is an intermediary I submit is
nonsense‖ (205) ... ―you saw Mr. Dunkley ... he
ruined the man ... he ruined the man‘s life‖ (205) ...
―Georgiou will tell lies when it is convenient and he
lied to you over, and over, and over‖ (207) ... ―the
person who profited most according to the records
that we see is Vince Derosa‖ ... ―that (one sided
conversation where Georgiou is speaking to Derosa)
is a ‗confession‘, and (Georgiou) made it‖ (209) ...
―this is ―Alice in Wonderland‖ ... ―not like Law and
Order ... we (the lawyers) would be better looking‖
(210) ... ―don‘t see that kind of fiction in a
courtroom‖ (210) ... ―it was a Ponzi scheme in a way‖
... Georgiou calling it ―artificial ... that is a second
‗confession‘ ‖ ... there are ―two ‗confessions‘ in this
case‖ .. ―artificial does not mean ‗unstable‘, that is a
lie‖ (212) ... ―who talks about lying on the stand
A42

other than somebody who is lying on the stand‖
(213) ... ―there is no evidence in this case that
supports that [IRS chase], there is one hint, July
22nd ‗I would like those IRS documents‘, none of
this other stuff is about that‖ ... ―Georgiou‘s
investigation [of Waltzer] is laughable‖ (214) ... ―so
ridiculous‖ ... ―so ridiculous it insults your
intelllgence‖ (215) ... Georgiou‘s son dying of cancer
was ―used inappropriately ... to get ‗our‘ sympathy‖
... ―Charlie is not crazy‖ (216) ... Georgiou‘s ―private
investigations ... ‗we‘ have no proof of that‖ ... ―on
behalf of the United States‖ .... (219).
*21 (Id. at 42-43.)
Georgiou claims that AUSA Cohen‘s comments were
especially toxic since they were made during the
rebuttal of the government‘s closing argument, so
there was no opportunity for the defense to cure the
statements and the alleged harm was not cured
leaving an indelible impression on the jury. (Id. at 43.)
Georgiou also argues that ―[t]he AUSAs improperly
vouched for Waltzer, Charlie, and the SEC as the
truth tellers, invoking loyalty ‗on behalf of the United
States‘, while Georgiou [the foreigner] was the liar,
who ‗inappropriately‘ tried to get ‗OUR sympathy‘,
using his son‘s terminal brain cancer.‖30 (Id.) He
states that:
AUSA Cohen was disingenuous, concealing from the
jury his first hand involvement in the events he was
interpreting. He decreed the SEC‘s analysis
‗undisputed‘, with no point to the trial after Charlie
– who was ‗not crazy‘ – testified. If there was any
remaining, reasonable doubt in the mind of the
jurors, it should be erased because Georgiou had not
made just one ‗confession,‘ but ‗two confessions.‘
(Id.)
The government argues that Georgiou cannot
establish a constitutional violation and he procedurally defaulted on the claims because he did not
____________________
AUSA Lappen gave the government‘s closing argument,
and AUSA Cohen gave the government‘s rebuttal. See Tr.
3/29/2010.
30

A43

pursue them on appeal and cannot establish any cause
for failing to do so. (Gov‘t‘s Resp. 85.) It asserts that
the government did not engage in misconduct during
closing, and Georgiou was not prejudiced. (Id. at 86)
(citing to Gov‘t‘s Resp. to Def.‘s Suppl. Am. Mot. for a
New Trial Pursuant to Rule 33 (Doc. No. 203) at 2740). According to the government, ―[it] properly
commented on the evidence and the credibility of its
witnesses based on the trial record and it did not rely
on, or cite to, any information that was outside the
record.‖ (Id.) Arguing that Georgiou‘s complaints are
baseless, the government, alternatively, asserts that,
even if Georgiou identified improper comments by the
government that the Court should have excluded, he
has not shown that he was prejudiced; that is, that the
absence of those comments could not have made a
difference in the outcome of trial. (Id.)
a. Previously Litigated/Procedural Default
First, Georgiou‘s claim is procedurally defaulted.
Georgiou raised a similar claim in his Supplemental
and Amended Motion for a New Trial, which this
Court rejected.31 (Doc. No. 211 at 34-37.) Georgiou did
____________________
The claim raised post-trial involved ―improper arguments‖ by the government during its closing argument and
rebuttal. (Doc. No. 211 at 34.) The claim included, inter
alia, that the prosecutor improperly interjected his firsthand knowledge of the arrest into the case, which Georgiou
alludes to in his current argument. (Id.) I denied Georgiou‘s
post-trial motion concluding as follows:
31

Numerous other recordings presented by the Government, in addition to voluminous emails and financial
records, overwhelmingly demonstrated that Georgiou had
committed the crimes charged. The Government‘s
comments regarding Georgiou‘s testimony, while
passionate, were not based on anything outside of the
record. Further, the Court instructed the jury about its
role in resolving credibility issues and about remarks by
the attorneys. Finally, Georgiou was represented by
experienced federal criminal defense attorneys who did
not object to the Government‘s comments on any basis
other than burden shifting. This fact further
demonstrates that the plain error standard has not been
met. See, e.g., United States v. Bethancourt, 65 F.3d
1074, 1080 (3d Cir. 1995) (finding no reversible error
where defendant was represented by counsel who

A44

not raise the issue of prosecutorial misconduct during
closing arguments and rebuttal before the Third
Circuit. He argues that the ―cause‖ for failing to raise
this claim on appeal was the government‘s suppression of its ―firsthand involvement in the undercover
operation.‖ (Pet‘r‘s Br. at 43.) We reject Georgiou‘s
argument because it is unclear how the government‘s
contacts with Waltzer, even assuming for purposes of
this argument only that they were improperly hidden
from him, establish ―cause.‖
*22 To show ―cause‖ adequate to overcome procedural
default, a defendant must establish that an ―objective
factor external to the defense‖ prevented him from
advancing the claim at a procedurally appropriate
time. See Pelullo, 399 F.3d at 223. The government‘s
closing argument and rebuttal were issues that were
contemporaneously addressed when they were made
to the jury and during post-trial. Despite Georgiou‘s
argument that the government‘s alleged firsthand
involvement in the undercover operation establishes
―cause,‖ a review of the government‘s conduct and
statements during its closing and rebuttal, in
conjunction with Georgiou‘s instant argument, simply
does not demonstrate that neither the legal nor
factual basis for his claim was not reasonably
available to him until recently.
He appears to generally argue that prior counsel were
constitutionally ineffective for not raising these issues,
and that their constitutional deficiency is grounds for
excusing his procedural default; however, we disagree.
Since we find Georgiou‘s claim to be groundless, we
conclude that his counsel cannot be ineffective for
failing to raise a meritless claim. See Strickland, 466
U.S. at 691. There is no justification for Georgiou‘s
failure to raise his current prosecutorial misconduct
claim on appeal. Accordingly, he has not established
_______________(cont'd)
―impressed‖ the court as being ―articulate and
experienced‖ but failed to object during the prosecution‘s
rebuttal). Therefore, we find that the challenged
statements, when viewed in light of the entire record, did
not undermine the fundamental fairness of the trial or
contribute to a miscarriage of justice.
(Id. at 36-37.)

A45

cause for his procedural default.
In the absence of cause, we need not discuss the issue
of prejudice. Nevertheless, Georgiou cannot establish
that he was prejudiced by the alleged prosecutorial
misconduct. Based on the trial record and all of the
overwhelming evidence against him, Georgiou has not
demonstrated prejudice because he has not shown
that the alleged misconduct at his trial worked to his
actual and substantial disadvantage, infecting his
entire trial with error of constitutional dimensions.
See Frady, 456 U.S. at 170.
Georgiou has not shown the requisite cause and
prejudice to excuse his default, nor has he shown that
he is actually innocent. We, therefore, conclude that
Georgiou has defaulted on this claim, and it is
procedurally barred. Thus, Georgiou‘s prosecutorial
misconduct claim is denied.
b. Merits
Even assuming that Georgiou‘s claim is properly
raised pursuant to § 2255, it is completely without
merit. ―A petitioner may qualify for federal habeas
relief if acts of prosecutorial misconduct ‗so infect[ed]
the trial with unfairness as to make the resulting
conviction a denial of due process.‘ ‖ Howard v. Horn,
56 F. Supp. 3d 709, 726 (E.D. Pa. 2014) (quoting Greer
v. Miller, 483 U.S. 756, 765 (1987)). ―To constitute a
due process violation, ‗the prosecutorial misconduct
must be of sufficient significance to result in the
denial of the defendant‘s right to a trial.‘ ‖ Id. (quoting
United States v. Bagley, 473 U.S. 667, 676 (1985)). ―It
is not enough to prove that the prosecutor‘s remarks
were ‗undesirable or inappropriate,‘ or even
‗universally condemned‘ – the petitioner must show
that he was denied a fair trial.‖ Id. (internal citations
omitted); see also Werts, 228 F.3d at 197-98 (stating
that for due process to have been offended, the
prosecutorial misconduct must be of sufficient
significance to result in the denial of the defendant‘s
right to a fair trial).
―To evaluate whether a prosecutor‘s misconduct rose
to the level of a constitutional violation, a court must
examine the prosecutor‘s conduct in the context of the
A46

whole trial.‖ Id. (citing Greer, 483 U.S. at 765-66; Reid
v. Beard, 420 F. App‘x 156, 159 (3d Cir. 2011) (―A
reviewing court must ‗examine the prosecutor‘s
offensive actions ... [by] assessing the severity of the
conduct, the effect of the curative instructions, and the
quantum of evidence against the defendant.‘ ‖)).
―Overall, the misconduct must be sufficiently
prejudicial in the context of the entire trial as to
violate a petitioner‘s due process rights.‖ Id. (citation
omitted).
*23 After examining Georgiou‘s argument, the
remarks at issue, the quantum of evidence against
Georgiou, and the effect of curative instructions, we
find that Georgiou‘s prosecutorial misconduct claim
fails. Considering the disputed statements within the
context of the case, we find no constitutional violation.
The record shows that the statements at issue were
either supported by other statements in the record or
acceptable arguments based on the trial testimony
and the defense‘s arguments. The prosecutors‘ closing
argument and rebuttal were not improper, but were
properly based upon the record and appropriately
referenced gaps in Georgiou‘s theory of events in light
of the evidence that had been offered, or had not been
offered, at trial.
Regarding Georgiou‘s claim that the prosecutor
improperly vouched for government witnesses, we
note that ―[v]ouching is a type of prosecutorial
misconduct.‖ Lam v. Kelchner, 304 F.3d 256, 271 (3d
Cir. 2002). ―It constitutes an assurance by the
prosecuting attorney of the credibility of a government
witness through personal knowledge or by other
information outside of the testimony before the jury.‖
Id. (citations omitted). ―In order to find vouching, two
criteria must be met: (1) the prosecution must assure
the jury that the testimony of a Government witness
is credible, and (2) this assurance must be based on
either the prosecutor‘s personal knowledge or other
information that is not before the jury.‖ Id. (citation
omitted).
―On habeas review, however, prosecutorial misconduct
such as vouching does not rise to the level of a federal
due process violation unless it affects fundamental
fairness of the trial.‖ Id. (citation omitted). ―Thus,
A47

habeas relief is not available simply because the
prosecutor‘s remarks were undesirable or even
universally condemned.‖ Id. ―The relevant question for
a habeas court is whether those remarks ‗so infected
the trial with unfairness as to make the resulting
conviction a denial of due process.‘ ‖ Id. at 271-72
(quoting Darden v. Wainwright, 477 U.S. 168, 180-81
(1986)).
In this case, the concerns underlying the vouching
prohibition were not implicated by the prosecutors‘
closing argument or rebuttal. Although the
government stated that its witnesses were credible, it
did not do so based on information outside of the
record. ―[A] prosecutor is entitled to considerable
latitude in summation to argue the evidence and any
reasonable inferences that can be drawn from that
evidence.‖ United States v. Green, 25 F.3d 206, 210
(3d Cir. 1994) (citation omitted). In examining the
prosecutor‘s remarks as a whole, we conclude that
they represented a permissible argument based on
reasonable inferences which the jury could draw from
the evidence at trial. See United States v. Walker, 155
F.3d 180, 187 (3d Cir. 1998) (stating ―where a
prosecutor argues that a witness is being truthful
based on the testimony given at trial, and does not
assure the jury that the credibility of the witness
based on his own personal knowledge, the prosecutor
is engaging in proper argument and is not vouching‖).
Likewise, the jury could not glean anything about the
prosecutors‘ personal knowledge of Georgiou‘s
investigation or arrest. The prosecutors never implied
that the jury should disregard the evidence in favor of
the government‘s undisclosed knowledge or judgment.
Georgiou‘s claim also fails to the extent that he is
arguing that the prosecutors‘ statements not only
individually infringed on his rights, but they also had
a cumulative effect on the trial that violated due
process. ― ‗The cumulative effect of prosecutorial
misconduct ... can rise to the level of a constitutional
violation even if the individual instances of
misconduct, standing alone, do not.‘ ‖ Howard, 56 F.
Supp. 3d at 730 (quoting LaBrake v. Stowitzky, No.
07-0212, 2009 WL 2854747, at *9 (E.D. Pa. Sept. 3,
2009)) (alteration in original). In our case, the
A48

statements at issue were neither individually
improper nor prejudicial. Georgiou fails to establish
that the cumulative effect of the prosecutors‘
statements infected the trial to such a degree that his
due process rights were violated.
*24 Although we find that no comment by the
prosecution in their closing argument or rebuttal
rendered the trial unfair, we do acknowledge that any
potential prejudice that may have resulted from any of
the remarks at issue was immediately alleviated by
my jury instructions. I properly instructed the jury
that ―statements and arguments of lawyers for the
parties are not evidence,‖ and that ―[a]s the only
judges of the credibility and facts in this case you, the
jurors, are responsible to give the testimony of every
witness and all of the other evidence whatever
credibility and weight that you think they are entitled
to.‖ Tr. 2/12/10, p. 11, 50. ―[I]t is well established that
jurors are presumed to follow their instructions.‖ Gov‘t
of the Virgin Islands v. Mills, 821 F.3d 448, 463 (3d
Cir. 2016) (citation omitted).
Even though we have not found any misconduct, it is
also important to note that ―[m]isconduct does not
deprive the defendant of a fair trial ‗[w]hen the
evidence [against the defendant] is strong, and the
curative instructions adequate.‘ ‖ Ragan v. Sec‘y, Pa.
Dep‘t of Corr., 687 F. App‘x 177, 183 (3d Cir. 2017)
(quoting United States v. Morena, 547 F.3d 191, 196
(3d Cir. 2008)). Here, as the Third Circuit quantified,
the evidence of Georgiou‘s guilt was overwhelming,
Georgiou, 742 F. Supp. 2d at 636-37, and the pertinent
jury instructions were more than adequate.
When viewed in the context of the entire trial,
including my jury instructions, and the overwhelming
evidence presented, Georgiou cannot show that the
prosecutors‘ closing argument or rebuttal so infected
the trial with prejudice as to violate due process. See
Moore v. Morton, 255 F.3d 95, 107 (3d Cir. 2001)
(stating that ―Supreme Court precedent counsels that
the reviewing court must examine the prosecutor‘s
offensive actions in context and in light of the entire
trial, assessing the severity of the conduct, the effect
of the curative instructions, and the quantum of
evidence against the defendant‖). The prosecutors‘
A49

statements did not result in a fundamentally unfair
trial. Accordingly, we will deny habeas relief on
Georgiou‘s claim that the prosecution engaged in
prosecutorial misconduct in its closing.
4. The Government Did Not Suborn Perjury
Georgiou claims that the government suborned
perjury in eliciting testimony from Waltzer about
whether he possessed a recording device during a
three-day period when the test trade was conducted.
(Pet‘r‘s Br. 45.) He claims that he made exculpatory
calls to Waltzer during this time period that were not
recorded, and that Waltzer lied about whether he had
a recording device. (Id.) He asserts that ―the absence
of government recordings, leading up to and including
the day of the test trade, supported that Waltzer
deliberately failed to record exculpatory events which
would have altered the narrative.‖ (Id.) According to
Georgiou, the position that Waltzer possessed a
recording device at all times was unequivocal;
however, it was all a lie, and ―the government knew
that Waltzer did not possess the recording device at
key moments, but suborned perjury which deceived
the Court and the jury, poisoning the proceedings
against Georgiou.‖ (Id. at 47.)
The government argues that ―Georgiou cannot come
close to showing, based on his own fantastical view of
the evidence, that the government suborned perjury or
engaged in any misconduct in connection with this
testimony.‖ (Gov‘t‘s Resp. 88.) The government points
out that Georgiou‘s ―claim is based on the communications that occurred toward the end of the undercover operation (from August 30 through September 4,
2008) – which was after Georgiou had committed to
the massive stock fraud deal with Charlie.‖ (Id.) It
also states that ―[o]n September 17, 2008, Georgiou
met with Charlie in a Philadelphia hotel and again
confirmed the details of the Northern Ethanol stock
manipulation deal‖ and ―said that he would have the
company issue press releases to justify the buying
activity.‖ (Id. at 88 n.33) (citing Tr. 1/25/10, 142; Gov‘t
Exs. 442T, 443T). Thus, the government argues that
―Georgiou made clear his intent to go forward with the
stock fraud deal both before and after the three-day
period during which Georgiou claims he spoke briefly
A50

with Waltzer and altered the meaning of all the
recorded conversations.‖ (Id.)
*25 The government also states:
First, the government recognizes that there may
have been a few, brief unrecorded phone calls
between Georgiou and Waltzer from August 30
through September 4. At trial, in cross-examining
FBI Agent [David] Joanson [―FBI Agent Joanson‖],
counsel pointed to the following unrecorded calls: a
one-minute call, two two-minute calls, and a sevenminute call. Tr. 2/2/10, 198-201. These unrecorded
calls do not suggest, much less prove, that Waltzer
lied, and they do not change the plain meaning of all
the recordings of Georgiou engaging in blatant
fraud.
(Id. at 90.) The government goes on to state:
The record also establishes possible explanations for
the small number of missing recordings. Waltzer
testified that he thought he recorded all calls with
Georgiou, but he also testified that he may have
inadvertently failed to record some calls, he may
have had battery problems, there may have been
some calls that were dropped, and that some calls
could have gone to voicemail. Tr. 1/26/10, 218-21; Tr.
1/29/10, 44, 48-50. Agent Joanson also testified that
there can be equipment failures. Tr. 2/2/10, 245-46.
It is also true that FBI records, which Georgiou
possessed at the time of trial, suggest that as part of
the process of retrieving recording devices from
Waltzer and replacing them with new ones, Waltzer
may not have had the device at that time, which
Waltzer did not recall at trial. There were many
possible explanations for why a call listed on a telephone record does not match a recording. There is
no basis to conclude that Waltzer or the government
lied – particularly when considered in the context of
all the evidence presented at trial.
(Id. at 90-91.) Also, the government asserts that
Georgiou cannot show that he was prejudiced because
the possibility that Waltzer did not have a recording
device during the short period in question, and that
Waltzer did not recall that fact at trial, is entirely
A51

insignificant considering the government‘s evidence
and Georgiou‘s defense. (Id. at 91.) According to the
government, it did not suborn perjury, and Georgiou
cannot show that he was prejudiced. (Id. at 92.)
a. Previously Litigated/Procedural Default
Georgiou‘s claim is procedurally defaulted. It appears
that Georgiou had access to all reports relating to his
case regarding Waltzer‘s possession of a recording
device prior to trial, but did not raise this claim on
direct appeal. At the evidentiary hearing, Georgiou‘s
trial counsel, Michael S. Pasano (―Pasano‖), testified
that he was aware of the reports that he could have
used to argue that Waltzer did not possess the recording device during the time that Georgiou was
discussing the test trade, but, instead, chose to make a
consistent argument to the jury that Waltzer was
selectively recording and trying to manipulate the
evidence against Georgiou. Tr. 9/19/17, 31, 135-36.
Specifically, Pasano stated, ―It‘s better if [Waltzer] has
equipment and he‘s not recording than if he doesn‘t
have equipment.‖ Id. at 31, 135-36.
Thus, this claim is procedurally defaulted because it is
raised for the first time in this habeas proceeding, and
Georgiou has not established that an exception to the
procedural default rule applies. To the extent that he
argues that he has shown cause through ineffective
assistance of counsel, we find that defense counsel‘s
failure to raise this claim during the trial or on direct
appeal did not amount to constitutionally ineffective
assistance. It was a strategically reasonable decision
by Pasano not to raise the issue at trial. See
Strickland, 466 U.S. at 689 (providing strategic
decisions by counsel are ―virtually unchallengeable‖
and generally do not provide a basis for postconviction relief on the grounds of ineffective
assistance of counsel). Additionally, the claim is
meritless. See id. at 691 (finding that failure to pursue
―fruitless‖ claims ―may not later be challenged as
unreasonable‖). Although the absence of cause
obviates our need to address the issue of prejudice, we
note that Georgiou cannot demonstrate prejudice
sufficient to excuse his default because the integrity of
the entire trial has not been infected by Georgiou‘s
claim.
A52

*26 Regarding the actual innocence exception to
procedural default, Georgiou has stated, but has not
shown, that he is actually innocent, and certainly has
failed to provide evidence of his innocence sufficient to
show that no reasonable jury would have convicted
him under the circumstances. Therefore, Georgiou‘s
claim is procedurally barred.
b. Merits
Although this claim is procedurally defaulted, we find
that it is also without merit. ―A witness commits
perjury if he or she ‗gives false testimony concerning a
material matter with the willful intent to provide false
testimony, rather than as a result of confusion,
mistake, or faulty memory.‘‖ United States v.
Hoffecker, 530 F.3d 137, 183 (3d Cir. 2008) (quoting
United States v. Dunnigan, 507 U.S. 87, 94 (1993)).
―To establish a due process violation, [petitioner] must
show that: (1) [the witness] committed perjury; (2) the
Government knew or should have known of [the]
perjury; (3) [the] testimony went uncorrected; and (4)
there is a reasonable likelihood that the false
testimony could have affected the verdict.‖ Id. (citing
Lambert v. Blackwell, 387 F.3d 210, 242 (3d Cir.
2004)).
Georgiou‘s entire argument is based upon the premise
that Waltzer did not have the recording device during
the test trade time period. However, it has never been
proven that Waltzer, in fact, did not possess the
recording device during the relevant time period.
Although the evidentiary hearing was conducted
regarding a narrow set of issues that did not include
the instant issue, Georgiou used it as an opportunity
to question several witnesses about Waltzer‘s
possession of the recording device during the relevant
time period. He also used it as an opportunity to
present FBI records regarding unrecorded calls and
possession of the recording device to various pertinent
witnesses.
While Waltzer was on the stand, Georgiou extensively
questioned him about the instant issue, and never
obtained testimony from him establishing that he did
not, in fact, possess the recording device. Tr. 9/25/17,
204-09. Georgiou also never elicited that Waltzer
A53

knew that he did not possess the recording device
during the relevant time period or that Waltzer had
lied under oath during trial by stating that that he did
possess it. See id.
During trial, as the government points out, Waltzer
testified that he thought he had recorded all calls with
Georgiou, but he also testified that he may have
inadvertently failed to record some calls, he may have
had battery problems, there may have been some calls
that were dropped, and that some calls could have
gone to voicemail. (Gov‘t‘s Resp. 90) (citing Tr. 1/26/10,
218-21; Tr. 1/29/10, 44, 48-50). At the evidentiary
hearing, Waltzer stated that he thought that he
possessed the recording device during the test trade
time period, but he could not say so for a fact. Tr.
9/25/17, 204-05. He also testified that he could not
recall if he was without the recording device during
the test trade days. Id. at 206. He further stated that
he had the recording device for the vast majority of
the time that he acted undercover. Id. at 207.
Additionally, he said that ―[t]here were times where
hey, there‘s an equipment malfunction, stand down for
five days, don‘t make a – you know, don‘t call anybody,
go on vac – do whatever, you know. But almost always
– I don‘t want to say always because you might find
one instance where I didn‘t.‖ Id. Thus, it is impossible
to know from the record whether Waltzer actually
committed perjury under the standard requiring that
he gives false testimony concerning a material matter
with the willful intent to provide false testimony,
rather than as a result of confusion, mistake, or faulty
memory. See Hoffecker, 530 F.3d at 183.
*27 At the evidentiary hearing, Georgiou specifically
asked AUSA Lappen and AUSA Cohen about the
instant issue, and both men clearly testified that they
did not know if Waltzer possessed the recording device
during the relevant time period. Tr. 9/18/17, 230-34,
246-50; Tr. 9/26/17, 105-11. Additionally, Georgiou
also questioned FBI Agent David Joanson (―FBI Agent
Joanson‖) and FBI Agent Corey Riley (―FBI Agent
Riley‖) about this issue, and their testimony resulted
in the conclusion that Waltzer may or may not have
possessed the recording device during the test trade

A54

time period.32 Tr. 9/19/17, 192-93, 198-99, 206-08; Tr.
11/15/17, 248-54.
Notably, there was no factual evidence adduced at the
evidentiary hearing or in the record establishing that
Waltzer did not possess the recording device during
the test trade time period. We acknowledge the
difficult task that Georgiou has in order to show that
Waltzer did not, in fact, possess the recording device
during the relevant time period; however, such a
showing is pivotal because it forms the premise of his
claim. Without establishing that Waltzer did not
possess the recording device during the test trade time
period, Georgiou cannot make the requisite showing
that Waltzer committed perjury.
Also, as previously stated, both AUSA Lappen and
AUSA Cohen clearly testified during the evidentiary
hearing that neither had knowledge during trial that
Waltzer did not possess the recording device during
the pertinent time period. Tr. 9/18/17, 230-34, 246-50;
Tr. 9/26/17, 105-11. Neither AUSA allowed Waltzer to
commit perjury by lying on the stand stating that he
did, in fact, possess the recording device when he did
not. Georgiou has made no showing whatsoever that
either AUSA Lappen or AUSA Cohen knew or should
have known of the alleged perjury by Waltzer, which,
again, Georgiou has not even established. Thus, there
is no doubt that neither AUSA Lappen nor AUSA
Cohen acted improperly or committed prosecutorial
misconduct.
Finally, we note that there is no reasonable likelihood
that the alleged false testimony by Waltzer regarding
possession of the recording device during the test
trade period could have affected the verdict. We agree
with the government‘s argument that the issue is
insignificant considering the government‘s evidence
and Georgiou‘s defense. (See Gov‘t‘s Resp. 91.) First,
and significantly, the government‘s evidence of
Georgiou‘s guilt, including the test trade, was
____________________
FBI Agent Riley testified that, from the records, it
appeared that Waltzer did not possess the recording device,
but he could not say with certainty. Tr. 9/19/17, 198-99.
32

A55

multifaceted and overwhelming. Second, the defense
engaged in a sound trial strategy arguing that
Waltzer was a master manipulator who tried to dupe
Georgiou and selectively record Georgiou only when
the recording could incriminate him. Tr. 1/29/10, 38-41
(cross-examining Waltzer on failure to record calls and
manipulating evidence); Tr. 2/2/10, 196 (crossexamining FBI Agent Joanson about Waltzer‘s
failures to record Georgiou at different times). The
defense‘s argument was bolstered by the fact that
there was no dispute that Waltzer had control over
whether he would record a call since he possessed the
device and needed to turn it on when he received or
made a call.
Although Georgiou argues that the narrative of the
trial would have been altered, his argument is neither
supported by the record nor the evidence presented at
trial. Even if Georgiou was able to successfully show
that Waltzer did not possess the recording device
during the test trade time period, which he has not
been able to do, and Waltzer perjured himself, there is
not a reasonable likelihood that the alleged false
testimony could have affected the verdict. See
Hoffecker, 530 F.3d at 183. The verdict in this case
was fully supported by the overwhelming evidence
presented at trial.
*28 Accordingly, we will deny habeas relief on
Georgiou‘s claim that the government suborned
perjury in eliciting testimony from Waltzer about
whether he possessed a recording device during a
three-day period when the test trade was conducted.
5. The Government Did Not Engage In
Misconduct Regarding The James Hall Records
Georgiou claims that the government violated Brady
v. Maryland, 373 U.S. 83 (1963), by failing to produce
evidence that Waltzer did not record telephone calls of
James Hall (―Hall‖), one of the approximately twentyfive charged defendants against whom Waltzer
cooperated.33 (Pet‘r‘s Br. 48-49.) Basing his claims on
____________________
―Under Brady, the prosecution bears an affirmative duty
‗to learn of any favorable evidence known to the others
acting on the government‘s behalf in the case, including the
33

A56

Hall‘s sentencing memorandum and attached telephone records (―Hall Records‖), Georgiou argues that
the telephone records show that some calls were not
recorded; therefore, Waltzer ―had the time and
opportunity to manipulate others ‗off record,‘ ‖ which
could have been used to impeach Waltzer.34 (Id. at 48)
(citing Ex. 7 at 7-8). He states that ―[t]he government
ridiculed Georgiou at trial (and has ever since), yet,
had in its possession, undisclosed, parallel allegations
and evidence which demonstrated a pattern of
Waltzer‘s undercover deceptions, corroborating
Georgiou‘s claims.‖ (Id.) He further argues that ―Hall‘s
phone records show that Waltzer failed to record
dozens of calls, the suppression of which foreclosed
impeaching him for his rogue conduct.‖35 (Id.) Instead,
_______________(cont'd)
police,‘ and to provide it to the defense.‖ Gibson v. Sec‘y,
Pa. Dep‘t of Corr., 718 F. App‘x 126, 130 (3d Cir. 2017)
(quoting Kyles v. Whitley, 514 U.S. 419, 437 (1995)). A
subset of Brady material includes disclosure of ―materials
that go to the question of guilt or innocence as well as
materials that might affect the jury‘s judgment of the
credibility of a crucial prosecution witness.‖ United States
v. Friedman, 658 F.3d 342, 357 (3d Cir. 2011); see Giglio v.
United States, 405 U.S. 150, 154 (1972). In order to prove a
Giglio violation, a defendant must show the same three
prongs required under the test for a Brady violation. See
United States v. Risha, 445 F.3d 298, 303 (3d Cir. 2006)
(applying the three-part Brady test regarding withheld
impeachment
evidence).
Thus,
throughout
this
Memorandum Opinion, our analysis under Brady
subsumes any of Georgiou‘s claims pertaining to Giglio
material.
Georgiou claims that the government also failed to
disclose the call logs in other cases. (Pet‘r‘s Br. 48) (citing
Ex. 9). According to Georgiou, these call logs would have
identified gaps in time where no recordings were made;
thereby, supporting his defense that, contrary to Waltzer‘s
testimony, Waltzer was not recording or did not possess the
recording device. (Id.) I have reviewed all of the records
that Georgiou has submitted regarding this claim, and I
refer to all of the records as the ―Hall Records.‖
34

Georgiou states that ―[he] believes Ms. Flannery [Hall‘s
attorney] conflated, in part, times Waltzer did not have a
recording device, or did not record, with times he was and
was not wearing a wire at in person meetings. The critical
proof, however, are Hall‘s phone logs, which are not
35

A57

Georgiou argues that ―Waltzer was able to lie with
impunity that he had the recording device at all times,
and made all recordings.‖36 (Id.) (citing Tr. 1/29/10, p.
35-158).
a. Previously Litigated/Procedural Default
*29 The government argues that this claim is
previously litigated because Georgiou raised it on
appeal as part of the numerous Brady claims, which
were all rejected. (Gov‘t‘s Resp. 93-94.) It states that
―[a]lthough the Court did not specifically address this
argument; the Court of Appeals rejected all of
Georgiou‘s Brady claims.‖ (Id. at 94.) It also asserts
that, if the claim is not considered previously litigated,
Georgiou procedurally defaulted by failing to raise it
as a separate issue on appeal and cannot establish
cause for having failed to do so. (Id.) Examination of
Georgiou‘s appellate brief reveals that he briefly
raises the present claim in relation to his argument
that the suppression of mental health information was
part of a pattern of discovery misconduct related to
Waltzer. The instant claim is couched within subpart
E of Point 1, which accuses the government of
suppressing evidence concerning Waltzer‘s history of
mental illness and substance abuse. (Brief of
Defendant-Appellant Georgiou, Case No. 10-4774, p.
37 (3d Cir. 11/5/13)). In relation to his appeal, the
Third Circuit stated that ―Georgiou ... argues that the
District Court erred in denying his motion for a new
trial based on purported Brady and Jencks Act
violations.... We find no error.‖ Georgiou, 777 F.3d at
130.
The Third Circuit thoroughly addressed the
suppression claims regarding Waltzer‘s mental health
and substance abuse, but did not address Georgiou‘s
instant claim. However, we find that its denial of
Georgiou‘s Brady and Jencks Act claims peripherally

_______________(cont'd)
affected, evincing that Waltzer failed to record dozens of
calls, exactly as claimed in Georgiou‘s case.‖ (Pet‘r‘s Br. 49.)
Regarding this claim, Georgiou asserts that trial counsel
were ineffective, which is addressed in Section 2. (See
Pet‘r‘s Br. 65.)
36

A58

included the instant claim.37 Consequently, we would,
ordinarily, not reach the merits of this claim. See
DeRewal, 10 F.3d at 105 n.4 (stating that a § 2255
motion generally may not be employed to relitigate
questions which were raised and considered on
appeal). However, given our unique circumstances,
and in the interest of thoroughness, we will address it.
See Orejuela, 639 F.2d at 1057 (―Once a legal
argument has been litigated and decided adversely to
a criminal defendant at his trial and on direct appeal,
it is within the discretion of the district court to
decline to reconsider those arguments if raised again
in collateral proceedings under 28 U.S.C. § 2255.‖).
b. Merits
―To prove a Brady violation, a defendant must show
the evidence at issue meets three critical elements.‖
Dennis v. Sec‘y, Pa. Dep‘t of Corr., 834 F.3d 263, 284
(3d Cir. 2016) (en banc). ―First, the evidence ‗must be
favorable to the accused, either because it is
exculpatory, or because it is impeaching.‘ ‖ Id. (quoting
Strickler v. Greene, 527 U.S. 263, 280; United States
v. Bagley, 473 U.S. 667, 676 (1985) (―Impeachment
evidence ..., as well as exculpatory evidence, falls
within the Brady rule.‖)). ―Second, it ‗must have been
suppressed by the State, either willfully or
inadvertently.‘ ‖ Id. at 284-85 (quoting Strickler, 527
U.S. at 282). ―Third, the evidence must have been
material such that prejudice resulted from its
suppression.‖ Id. at 285 (citations omitted).
―The ‗touchstone of materiality is a ‗reasonable
probability‘ of a different result.‘ ‖ Id. (quoting Kyles,
514 U.S. at 434); see also Turner v. United States, 137
S. Ct. 1885, 1893 (2017) (―[E]vidence is ‗material‘
within the meaning of Brady when there is a
reasonable probability that, had the evidence been
disclosed, the result of the proceeding would have
been different.‖). ―Materiality does not require
demonstration by a preponderance that disclosure of
the suppressed evidence would have resulted
ultimately in the defendant‘s acquittal ... [Rather], [a]
____________________
To the extent that it is found that Georgiou‘s claim was
not previously raised on direct appeal, we note that his
claim would be procedurally defaulted.
37

A59

‗reasonable probability‘ of a different result is ...
shown when the government‘s evidentiary suppression undermines confidence in the outcome of the
trial.‖ Id. (alterations in original) (citation omitted).
―The materiality of withheld evidence must be
considered collectively, not item by item.‖ Id. at 312
(citing Kyles, 514 U.S. at 436).
―Material evidence can include evidence that may be
used to impeach a witness.‖ Friedman, 658 F.3d at
358 (citation omitted). ―[I]nadmissible evidence may
be material if it could have led to the discovery of
admissible evidence.‖ Johnson v. Folino, 705 F.3d 117,
130 (3d Cir. 2013). Brady requires disclosure of
information actually known to the prosecution and ―all
information in the possession of the prosecutor‘s office,
the police, and others acting on behalf of the
prosecution.‖ Wilson v. Beard, 589 F.3d 651, 659 (3d
Cir. 2009).
*30 During the evidentiary hearing, AUSA Lappen
testified that Georgiou‘s attorneys were aware of the
arguments that another defendant against whom
Waltzer was cooperating, James Hall, was making
about Waltzer‘s alleged failure to record exculpatory
calls. Tr. 9/26/17, 99-103. AUSA Lappen unequivocally
stated that he knows that Hall‘s attorney, Anne
Flannery, provided that information to Georgiou‘s
attorney, Catherine Recker (―Recker‖). Id. at 100-01.
He also stated that ―I just – I have a – recollection – I
have a vague recollection, which is why I asked Ms.
Recker. You guys knew all about this whole stuff. I
remember that they knew about it.‖ Id. at 102. The
following exchange between Georgiou and AUSA
Lappen sheds light on the issue:
Q In this proceeding, there was evidence produced,
actual phone records of dozens and dozens of calls
between Waltzer and targets where there were no
government recordings, correct?
A I don‘t recall that specifically. I know that Ann
Flannery made those allegations, particularly when
she was first starting to try to defend the case, but
that ... went nowhere for her. Her client admitted to
his guilt, number one, and number two, those phone
records, many of them, as I recall, were like oneA60

minute calls many of them, and there were times,
again, that there were – they could have been
hangups and Waltzer may not have recorded a
phone call. There was nothing in there that we
thought was in any way, shape, or form exculpatory
as to you, it wasn‘t your case, and I know that your
lawyer was well-aware of this information.
Id. at 99-100. Although Recker was scheduled to
testify at the evidentiary hearing, Georgiou decided
not to call her as a witness. Tr. 9/25/17, 265-66.
Without any testimony or evidence to the contrary,
AUSA Lappen‘s testimony that Georgiou‘s defense
counsel, Recker, was aware of the Hall Records is
uncontested.
In light of AUSA Lappen‘s uncontested testimony that
Georgiou‘s defense counsel was well aware of the Hall
Records, Georgiou cannot establish that the
government suppressed them. See Dennis, 834 F.3d at
292 (―Only when the government is aware that the
defense counsel already has the material in its
possession should it be held to not have ‗suppressed‘ it
in not turning it over to the defense.‖). Consequently,
there has been no violation under Brady or Giglio, and
Georgiou‘s claim fails.
We need not reach the issue of whether the alleged
suppression was material; however, we find that it
would not have been material. It is speculative, at
best, that any potentially unrecorded calls in the Hall
Records are proof of deliberate efforts by Waltzer to
fail to record exculpatory calls. The government
argues that ―contrary to Georgiou‘s theory, here, there
was no evidence in the Hall case or any of the other
dozens of investigations, in which Waltzer
participated, that Waltzer was ever manipulating
these calls in any fashion, much less trying to frame
an innocent man.‖ (Gov‘t‘s Resp. 95-96.) It goes on to
point out that Hall and every other charged defendant
in those investigations involving Waltzer, other than
Georgiou, pleaded guilty.38 (Id. at 96.) It further
____________________
The government argues that the more that Georgiou
would have tried to explore the recording process involving
other cases, the more he would have risked the jury
learning about numerous other cases where Waltzer
38

A61

clearly states that ―[it] did not possess a shred of
evidence that Waltzer ever was trying to manipulate
the recordings or manufacture a case against an
innocent person.‖ (Id.)
*31 Regarding Waltzer‘s recording activity, the
government states:
Waltzer testified that he did his best to record all
calls with targets, including Georgiou, but that since
he made over 1,000 recordings, he was not perfect.
In particular, as discussed above, he explained that
he could not always turn on the recorder for
incoming calls, so that such calls could result in the
caller hanging up, or were brief, or would go to
voicemail. Waltzer would then call back targets and
record them. Waltzer also explained that with all
the calls he made and received, he may have made
mistakes.
Additionally,
Waltzer
could
not
manipulate any recordings once they were made
since he was only able to turn the device on and off.
Tr. 1/26/10, 220-22; Tr. 1/29/10, 44, 50. Waltzer also
testified that there were some periods of time, and
he could not recall when they were, that agents
instructed him to ―go dark‖ and not accept calls. Tr.
1/29/10, 35-36. Evidence of unrecorded calls, most of
which are a minute or two in length (Georgiou Br.
Exh. 8), was not impeaching and was entirely
consistent with the testimony concerning the
recording process. In particular, unrecorded calls
could be hang ups, brief calls, voicemails, or
mistakes (when Waltzer could not pick up or was
not able to record).
(Id. at 95) (footnote omitted).
Georgiou assumes that the recordings and phone
records from the Hall case are ―critical impeachment
evidence;‖ however, they do not rise to that level. They
do not, as Georgiou argues, prove that Waltzer had
manufactured a false narrative by failing to record
_______________(cont'd)
recorded incriminating conversations against defendants
who eventually pleaded guilty. (Gov‘t‘s Resp. 96 n.37.) This,
the government asserts, would not have aided Georgiou in
his defense that he was an innocent man who was chasing
Waltzer due to an IRS problem. (Id.)

A62

exculpatory events. Significantly, there does not
appear to be any evidence in the Hall case, or the
others, that Waltzer was actually manipulating the
calls to manufacture a case against innocent people.
Georgiou‘s assertion that the Hall Records would
plainly impeach Waltzer‘s testimony that he possessed
the recording device at all times is uncertain, and the
importance placed by Georgiou of possibly impeaching
Waltzer on this specific point is not as significant as
Georgiou argues.
Whether there were times that Waltzer did not have
the device is not critical because Waltzer had the
ability to turn the device on and off. 39 Thus, if Waltzer
wanted to manipulate evidence by engaging in an
exculpatory conversation with a target and not record
it, he could have done so, as Georgiou‘s counsel
recognized and tried to exploit at trial by presenting a
consistent theme to the jury, using relevant chain of
custody reports, that Waltzer was a master
manipulator who simply chose not to record
Georgiou‘s exculpatory calls. See Tr. 9/19/17, 31, 13536 (Pasano testifies that he chose to make a consistent
argument to the jury that Waltzer was selectively
recording and trying to manipulate the evidence
against Georgiou stating that ―[i]t‘s better if [Waltzer]
has equipment and he‘s not recording than if he
doesn‘t have equipment‖).
*32 Also, the fact that Waltzer may not have
possessed the recording device at all times is not
pivotal in the grand scheme due to defense counsel‘s
consistent attack on Waltzer as being a master
manipulator who chose not to record Georgiou‘s
exculpatory calls. Notably, Waltzer‘s credibility was
already undermined by the fact that his role as a
mastermind of a large class action fraud was
addressed at trial. Thus, even if defense counsel had
been able to impeach Waltzer with the Hall Records,
the marginal effect in diminishing Waltzer‘s perceived
credibility would have been insignificant. See, e.g.,
____________________
Waltzer was only able to turn the recording device on
and off; therefore, he was unable to manipulate any
recordings once they were made. Tr. 1/26/10, 220-22; Tr.
2/2/10, 99-102.
39

A63

Landano v. Rafferty, 856 F.2d 569, 574 (3d Cir. 1988)
(considering impeachment evidence immaterial under
Brady where the ―marginal effect in diminishing [the
witness‘s] perceived credibility would have been
negligible‖).
When placed in proper context within the trial and
Waltzer‘s testimony, there is no doubt that the Hall
Records are not material under Brady; that is, the
records would not place the whole case in such a
different light as to undermine confidence in the
verdict. See Kyles, 514 U.S. at 434-35 (―The question
is not whether the defendant would more likely than
not have received a different verdict with the
evidence, but whether in its absence he received a fair
trial, understood as a trial resulting in a verdict
worthy of confidence.‖). Even with the absence of the
Hall Records, Georgiou received a fair trial. The jury‘s
guilty verdict is worthy of confidence.
Evaluating the cumulative effect of the Hall Records
in cross-examining Waltzer, we conclude that
Georgiou has not established materiality. When
viewed collectively in the context of the entire record,
we find that Georgiou does not establish a reasonable
probability that the result of the trial would have been
different had he utilized the Hall Records. The alleged
nondisclosure of these records did not result in an
unfair trial and does not put the case in such a
different light as to place Georgiou‘s convictions in
doubt. During trial, the jury was presented with
extensive direct and circumstantial evidence of
Georgiou‘s guilt from multiple and substantiating
sources. Remarkably, one such source was Georgiou‘s
own inadvertent recording where he incriminated
himself. In light of the government‘s strong case, and
viewing the case as a whole, the government‘s alleged
failure to provide the Hall Records to the defense prior
to the trial did not lead to an untrustworthy guilty
verdict.40 Accordingly, Georgiou‘s claim that the
____________________
In connection with the Hall case, Georgiou also claims
that the government violated Brady or Giglio by failing to
produce emails between Waltzer and Hall which would
have shown Waltzer ―puppeteering his underlings‖
regarding Waltzer‘s class action fraud scheme. (Pet‘r‘s Br.
48) (citing Ex. 8-i). He asserts that ―[w]hile Waltzer‘s
40

A64

government violated Brady and Giglio by suppressing
material evidence that Waltzer failed to record calls in
other cases consistent with Georgiou‘s defense is
denied.
6. This Court Will Not Revisit The Brady Claims
Relating to Waltzer’s Mental Health and Drug
Use
a. Previously Litigated/Procedural Default
*33 Relying upon a recent opinion by the Third Circuit
in Dennis, 834 F.3d at 291, Georgiou seeks for this
Court to revisit the Brady claims relating to Waltzer‘s
mental health and drug abuse, which is an argument
that the Third Circuit already considered.41 See
Georgiou, 777 F.3d at 139-41. Regarding Waltzer‘s
_______________(cont'd)
insurance frauds were addressed at trial, none of this
tactile, visibly impeaching evidence, was put to Waltzer on
cross examination.‖ (Id.) The government asserts that this
claim fails under all of the Brady prongs because there is
―nothing here that could have altered the result of the trial
or undermine confidence in the verdict.‖ (Gov‘t‘s Resp. 97.)
Specifically, it argues that it provided substantial evidence
of Waltzer‘s class action fraud scheme to Georgiou, which
included information and documents showing that Waltzer
was the mastermind of the scheme and was routinely
directing his underlings, including Hall. (Id.) Furthermore,
it points out that Waltzer was cross-examined on these
facts at trial by Georgiou‘s attorney. (Id.) (citing Tr.
1/28/10, p. 79-89). After examining Georgiou‘s claim, we
find that he simply cannot show a reasonable probability
that, had the emails at issue been disclosed to the defense,
along with the other Hall Records, the result of the trial
would have been different. See Dennis, 834 F.3d at 285.
We repeatedly rejected Georgiou‘s Brady claims relating
to Waltzer‘s mental health and drug use evidence on the
grounds that the evidence was not favorable to Georgiou or
material. (Doc. No. 218 at 6-12 (Nov. 9, 2010); Doc. No. 240
at 17-19 (Mar. 18, 2011); Doc. No. 266 at 17-43 (Dec. 12,
2011).) In my December 12, 2011 Memorandum Opinion, I
noted that ―this Court observed Waltzer over the course of
three days of testimony and such observations did not
indicate in any way that Waltzer appeared to be under the
influence of controlled substances and/or alcohol. To the
contrary, Waltzer appeared sharp and alert.‖ (Doc. No. 266
at 33 n.23.)
41

A65

mental health, the Third Circuit in Georgiou
definitively ruled that the ―evidence concerning
Waltzer‘s mental health is neither favorable to
[Georgiou] nor material.‖ Id. at 141. As for the issue of
Waltzer‘s drug use, the Third Circuit specifically
found that ―such evidence is not favorable to
[Georgiou] for purposes of our Brady analysis‖ and ―it
cannot be deemed material.‖ Id. at 140.
Contrary to its decision in Georgiou, as well as other
cases from this circuit, the Dennis Court held that a
defendant is not required to exercise due diligence to
obtain Brady material; rather, the government must
produce such material regardless of the defendant‘s
exercise of diligence. See Dennis, 834 F.3d at 291
(stating that ―the concept of ‗due diligence‘ plays no
role in the Brady analysis‖). Georgiou argues that the
Dennis Court‘s ruling that due diligence plays no role
in the Brady analysis benefits him because the Third
Circuit previously found that Georgiou failed to
exercise diligence in seeking to obtain Waltzer‘s bail
report and the minutes from Waltzer‘s arraignment
and guilty plea, which contain evidence of Waltzer‘s
cocaine use and mental health history. See Georgiou,
777 F.3d at 139-41. Dennis, however, provides no
assistance because the Third Circuit rejected
Georgiou‘s claims on other grounds than diligence, i.e.,
favorableness and materiality.42 See id. The Dennis
decision in no way alters the Third Circuit‘s analysis
in Georgiou regarding favorability and materiality.
―Once a legal argument has been litigated and decided
adversely to a criminal defendant at his trial and on
direct appeal, it is within the discretion of the district
court to decline to reconsider those arguments if
raised again in collateral proceedings under 28 U.S.C.
§ 2255.‖ Orejuela, 639 F.2d at 1057 (noting that there
are ―strong policies favoring finality in litigation and
the conservation of scarce judicial resources‖); see also
United States v. Travillion, 759 F.3d 281, 288 (3d Cir.
2014) (stating that, as a general practice, ―issues
____________________
The Third Circuit‘s Brady analysis also includes
Georgiou‘s claim regarding documents from SEC meetings
with Waltzer finding that they are neither favorable nor
material. See Georgiou, 777 F.3d at 141-42.
42

A66

resolved in a prior direct appeal will not be reviewed
again by way of a § 2255 motion‖); DeRewal, 10 F.3d
at 105 n.4 (―Many cases have held that Section 2255
generally ‗may not be employed to relitigate questions
which were raised and considered on direct appeal.‘ ‖).
Due to the Third Circuit‘s conclusive ruling that
neither evidence of Waltzer‘s substance abuse nor his
mental health is favorable or material under the facts
of this action, we do not need to revisit the Brady
claims relating to these issues, even in light of Dennis.
Accordingly, we decline to relitigate the arguments set
forth by Georgiou.
7. Conclusion
*34 None of Georgiou‘s claims provide a basis for
habeas relief. No evidentiary hearing was required on
these claims because the records of the case show
conclusively that Georgiou is not entitled to relief. See
Booth, 432 F.3d at 545; § 2255(b).
B. SECTION 2 – INEFFECTIVE ASSISTANCE OF
COUNSEL CLAIMS
Georgiou argues that his trial counsel rendered
ineffective assistance of counsel.43 Following the
evidentiary hearing, Georgiou voluntarily withdrew
several of his ineffective assistance of counsel claims.
(See Doc. No. 495 (order recognizing the withdrawal of
claims).) We have categorized the remaining ineffective assistance of counsel claims into the following
three groups:
Claims Pertaining
Evidence

to

SEC

Testimony

and

1. Counsel were ineffective for failing to object to
SEC Accountant Daniel Koster (―Koster‖) testifying
____________________
One of Georgiou‘s ineffective assistance of counsel claims,
which is based on the forfeiture order, is asserted against
his sentencing counsel. Otherwise, Georgiou‘s ineffectiveness claims appear to solely pertain to trial counsel.
Consequently, our discussion is primarily confined to trial
counsel. However, to the extent that Georgiou also sought
to allege claims of ineffectiveness of appellate counsel,
those claims would fail based upon the same reasoning.
43

A67

as a lay witness;
2. Counsel were ineffective for failing to properly
cross-examine Koster on his flawed analysis;
3. Counsel were ineffective for failing to object to
summary charts created by Koster being admitted as
evidence pursuant to Federal Rule of Evidence 1006;
and
4. Counsel were ineffective for failing to require that
Government Exhibits 301-304 be admitted into
evidence and reviewed by a jury.
Claims Pertaining to AUSAs’ Communications
with Kevin Waltzer (“Waltzer”) and Aspects of
Waltzer’s Testimony
1. Counsel were ineffective for failing to ―uncover the
AUSA Secret Communication Arrangement with
Waltzer, and move for their Disqualification[;]‖
2. Counsel were ineffective for failing to discover
information about Waltzer‘s mental state; and
3. Counsel were ineffective for failing to impeach
Waltzer for his perjury in connection with his email
with Georgiou.
Claims Pertaining to Various Issues
1. Counsel were ineffective for failing to obtain
―critical evidence of Waltzer manipulating recordings
in Hall and other cases[;]‖
2. Counsel were ineffective for failing to pursue a
multiple conspiracies jury instruction based on an
alleged fatal variance in the Indictment;44
3. Counsel were ineffective in failing to pursue again
during trial (having raised the claim pretrial) a
motion to dismiss Count One on the ground that
there was a ―fatal variance between pleading and
proof[;]‖
4. Counsel were ineffective for ―failing to raise
____________________
This claim is addressed in conjunction with the following
ineffective assistance claim based on an alleged fatal
variance because they both involve the same issues.
44

A68

jurisdictional-extraterritoriality,
liability issues, pretrial;‖ and

and

irrevocable

5. Counsel were ineffective for failing to object to a
forfeiture money judgment.
(Pet‘r‘s Br. 61-68.)
During the September 19, 2017 evidentiary hearing,
Georgiou questioned his trial counsel, Pasano, on an
assortment of issues. See Tr. 9/19/17, 4-136. Regarding Georgiou‘s ineffective assistance of counsel
claims, Pasano was specifically questioned about his
decision to not engage a securities expert, and his
testimony has been utilized in our decision of that
claim found in our Findings of Fact and Conclusions of
Law. Additionally, any relevant testimony that
Pasano gave about his representation, which was not
a specific claim addressed at the evidentiary hearing,
has been utilized where appropriate in our analysis of
Georgiou‘s ineffectiveness claims. As for the
remaining ineffective assistance of counsel claims,
which were not specifically addressed at the
evidentiary hearing, the record affirmatively indicates
that Georgiou‘s claims for relief are without merit. See
United States v. Vaughn, 704 F. App‘x 207, 211-12 (3d
Cir. 2017) (stating that ―28 U.S.C. § 2255(b) mandates
that the court hold an evidentiary hearing ‗[u]nless
the motion and the files and records of the case
conclusively show that the prisoner is entitled to no
relief‘ ‖). Consequently, they have been decided on the
record without a hearing.
1. Law – Strickland v. Washington
*35 The United States Supreme Court in Strickland v.
Washington, set forth the standard for claims of
ineffective assistance of counsel in violation of the
Sixth Amendment. 466 U.S. 668 (1984). Pursuant to
Strickland, counsel is presumed to have acted
effectively unless the petitioner demonstrates both
that ―counsel‘s representation fell below an objective
standard of reasonableness‖ and that there was ―a
reasonable probability that, but for counsel‘s
unprofessional errors, the result of the proceeding
would have been different.‖ Id. at 686-88, 693-94.
Under the reasonable performance prong of the
A69

analysis, ―the challenger‘s burden is to show ‗that
counsel made errors so serious that counsel was not
functioning as the ‗counsel‘ guaranteed the defendant
by the Sixth Amendment.‘ ‖ Harrington v. Richter, 562
U.S. 86, 104 (2011) (quoting Strickland, 466 U.S. at
687). In order to evaluate counsel‘s performance, the
reviewing court ―must apply a ‗strong presumption‘
that counsel‘s representation was within the ‗wide
range‘ of reasonable professional assistance.‖ Id.
(quoting Strickland, 466 U.S. at 689); see also Jacobs
v. Horn, 395 F.3d 92, 102 (3d Cir. 2005) (stating that
the ―proper standard for attorney performance is that
of ‗reasonably effective assistance‘ ‖). ―There are
‗countless ways to provide effective assistance in any
given case‘ and ‗[e]ven the best criminal defense
attorneys would not defend a particular client in the
same way.‘ ‖ Harrington, 562 U.S. at 106 (quoting
Strickland, 466 U.S. at 689). The reviewing court is
required to ―‗reconstruct the circumstances of
counsel‘s challenged conduct‘ and ‗evaluate the
conduct from counsel‘s perspective at the time.‘ ‖ Id. at
107 (quoting Strickland, 466 U.S. at 689). Notably, ―it
is difficult to establish ineffective assistance when
counsel‘s overall performance indicates active and
capable advocacy.‖ Id. at 111.
Under the prejudice prong of the analysis, a petitioner
must demonstrate that counsel‘s errors were ―so
serious as to deprive [petitioner] of a fair trial, a trial
whose result is reliable.‖ Id. at 104 (quoting Strickland, 466 U.S. at 687). Consequently, a petitioner
―must demonstrate ‗a reasonable probability that, but
for counsel‘s unprofessional errors, the result of the
proceeding would have been different. A reasonable
probability is sufficient to undermine confidence in the
outcome.‘ ‖ Id. (quoting Strickland, 466 U.S. at 694).
―[The Third Circuit] ‗has endorsed the practical
suggestion in Strickland [that we may] consider the
prejudice prong before examining the performance of
counsel prong because this course of action is less
burdensome to defense counsel.‘ ‖ United States v.
Lilly, 536 F.3d 190, 196 (3d Cir. 2008) (quoting Booth,
432 F.3d at 546) (alterations in original); see also
Strickland, 466 U.S. at 697.
―[I]n

considering

whether
A70

a

petitioner

suffered

prejudice, ‗[t]he effect of counsel‘s inadequate
performance must be evaluated in light of the totality
of the evidence at trial: a verdict or conclusion only
weakly supported by the record is more likely to have
been affected by errors than one with overwhelming
record support.‘ ‖ Rolan v. Vaughn, 445 F.3d 671, 682
(3d Cir. 2006) (quoting Hull v. Kyler, 190 F.3d 88, 110
(3d Cir. 1999)); see also Saranchak v. Beard, 616 F.3d
292, 311 (3d Cir. 2010) (where the verdict of movant‘s
guilt had overwhelming record support, ―it would take
a considerable amount of new, strong evidence to
undermine it‖).
2. Analysis
a. Claims Pertaining to SEC Testimony and
Evidence
*36 Four of Georgiou‘s ineffective assistance of
counsel claims focus on prior counsel‘s handling of
SEC analyst Daniel Koster and the evidence
presented through his testimony at trial. Specifically,
Georgiou argues that prior counsel were ineffective for
the following reasons: (1) choosing not to object to
Koster testifying as a law witness; (2) failing to
properly cross-examine Koster; (3) failing to object to
the government introducing Koster‘s summary charts
into evidence; and (4) failing to use or present a
securities expert at trial.
For some background on these issues, the Third
Circuit‘s decision in our case is helpful. See Georgiou,
777 F.3d at 143 n.16. The Third Circuit previously
explained:
The Government submitted a trial memorandum,
including the following stipulations reached by the
parties: (1) ―[v]arious trading records and financial
evidence relating to the scheme will be introduced in
the form of summary charts and testimony pursuant
to Rule 1006‖; (2) Koster would ―present testimony
and
accompanying
charts
concerning
the
manipulative trading activity charged in the
indictment‖; and (3) Koster may further testify as a
―summary fact witness to explain the relevance of
his trading analysis to the other evidence presented
in the case.‖ Georgiou objected generally to the use
A71

of a summary witness, and to the use of witnesses
and charts to summarize anything other than
voluminous writings, recordings, or photographs,
specifically objecting to summary of oral testimony.
However, Georgiou did not dispute that the ―charts
and the underlying records have been produced to
defendant‖ and that ―defendant has stipulated that
[they] are authentic and qualify as business records
under Rule 803(6).‖ Before trial, Georgiou‘s counsel
indicated that he had concerns about the proposed
testimony of the Government‘s SEC witnesses and
would be objecting if they ―stray[ed] from within [ ]
legal limits,‖ specifically identifying ―the issue of
opinion testimony or improper summary of things
not admissible in evidence.‖ However, counsel also
stated his concerns with the charts had been
―resolved.‖ Furthermore, at trial, no objections were
lodged by Appellant with respect to Koster‘s
testimony, or the admission of charts.
Id. (alterations in original) (citations omitted). Clearly,
the government‘s use of Koster during the trial,
including his testimony, and the summarization of
records and evidence, were issues that Georgiou‘s
defense counsel and the government not only
addressed, but seriously analyzed. We will now
address each of Georgiou‘s claims in turn.
i. Counsel Were Not Ineffective in Choosing Not
to Object to Koster Testifying as a Lay Witness
Georgiou argues that his prior counsel were ineffective
for failing to object to Koster testifying as a lay
witness, rather than an expert witness.45 (Pet‘r‘s Br.
61.) He argues that ―Mr. Koster should have been
declared an expert, as his analysis was ‗based on
scientific, technical, or other specialized knowledge
within the scope of Rule 702.‘ ‖ (Id.) (citing Fed. R.
Evid. 701). The government argues that Georgiou
asserted a similar claim on appeal, which was rejected
by the Third Circuit. (Gov‘t‘s Resp. 103.) Since
Georgiou‘s claim has already been rejected by the
____________________
Georgiou‘s post-trial claim that Koster should have been
declared as an expert was rejected by this Court on
September 29, 2010. (See Doc. No. 211.)
45

A72

Third Circuit, the government argues that ―prior
counsel could not have been ineffective for failing to
argue that Koster should have been required to testify
as an expert‖ because ―[c]ounsel cannot be ineffective
for failing to raise a meritless objection.‖ (Id.) (quoting
Werts, 228 F.3d at 203). We agree.
*37 In Georgiou, the Third Circuit stated:
Under Federal Rule of Evidence 701, if a witness
does not testify as an expert, opinion testimony
must be: ―(a) rationally based on the witness‘s
perception; (b) helpful to clearly understanding the
witness‘s testimony or to determining a fact in issue;
and (c) not based on scientific, technical, or other
specialized knowledge within the scope of Rule 702.‖
Georgiou, 777 F.3d at 143 (citing Fed. R. Evid. 701).
Addressing Georgiou‘s argument that Koster‘s
testimony was based on specialized knowledge and,
thus, inadmissible from a lay witness, the Third
Circuit concluded as follows:
We agree with the District Court‘s assessment that
Koster‘s testimony, including comparisons of stock
quantities and prices did not require prohibited
―scientific,
technical,
or
other
specialized
knowledge,‖ and thus was squarely within the scope
of Rule 701. (App. 40.) Koster‘s testimony provided
factual information and summaries of voluminous
trading records that he had personally reviewed in
his capacity as an SEC employee and as part of the
SECs investigation of Georgiou.
Id. at 143-44 (citing SEC v. Treadway, 430 F. Supp. 2d
293, 321-22 (S.D.N.Y. 2006)). The Third Circuit went
on to clearly state as follows:
Because Koster ―present[ed] testimony and
accompanying charts concerning the manipulative
trading activity charged in the indictment ... [and]
explain[ed] the relevance of his trading analysis to
the other evidence presented in the case,‖ within the
scope of Rule 701 and the parties‘ pretrial
stipulation, the District Court did not abuse its
discretion in admitting his testimony as a lay
witness.

A73

Id. at 144 (alteration in original).
Squarely addressing Petitioner‘s argument that the
District Court erred by allowing Koster to testify as an
undeclared expert, we note that the Third Circuit
concluded that the ―the District Court did not abuse
its discretion in admitting his testimony as a lay
witness.‖ Id. (citation omitted). As a result, any
attempt by Georgiou‘s trial counsel to have the
government seek to declare Koster as an expert would
have been meritless. ―[C]ounsel cannot be deemed
ineffective for failing to raise a meritless claim.‖
Werts, 228 F.3d at 203. Clearly, there are no grounds
for relief here, and, Georgiou‘s claim that counsel were
ineffective for failing to object to Koster testifying as a
lay witness is denied.
Additionally, we further point out that Georgiou‘s
counsel, Pasano, was effective in light of his testimony
at the evidentiary hearing where he explained that he
made a strategic decision not to challenge Koster
testifying as a lay witness. Specifically, Pasano stated
that, if he objected to Koster as Georgiou now says
that he should have, the government would have had
the Court declare Koster an expert, and Koster would
have given similar testimony, yet with the elevated
status of a court-sanctioned expert witness. Tr.
9/19/17, 117-18. Thus, the jury likely would have
received Koster‘s testimony just as favorably, if not
more favorably, than it did in convicting Georgiou.
Counsel cannot be considered ineffective for making
this sound, strategic decision not to object to Koster
testifying as a lay witness. See Strickland, 466 U.S. at
690-91 (stating that a strategic choice ―made after
thorough investigation of law and facts relevant to
plausible options [is] virtually unchallengeable‖). As
such, Georgiou has shown neither deficient
performance nor prejudice as a result of this sound
strategic choice, and, therefore, his claim provides no
basis for habeas relief.46
____________________
Georgiou argues that if Koster had been declared an
expert he would have received ―expert level discovery,
revealing the interviews and related work product with
Waltzer, debunking the presentation of independence.‖
(Pet‘r‘s Br. 61.) However, as we have already found, ―the
46

A74

ii. The Cross-Examination of Koster
(1) Erroneous Trade Analysis
*38 Georgiou argues that counsel were ineffective in
cross-examining Koster on his ―Erroneous Trade
Analysis‖ because ―Mr. Koster‘s analysis was riddled
with error, having conflated the concept of counter
parties and ‗flow of stock‘, with illicit matched
‗manipulation.‘‖ (Pet‘r‘s Br. 61.) He asserts that
―[w]hile defense counsel used rapid-fire questioning in
an effort to discredit the analysis, there was a
complete failure to put empirical records to Koster, to
prove Koster‘s analysis was fatally flawed.‖ (Id. at 6162.) According to Georgiou, ―Defense counsel had all of
the empirical records to discredit Koster, but failed to
use them.‖47 (Id. at 62) (citing Ex. 16).

_______________(cont'd)
Government provided Georgiou not only with an outline of
the areas about which Koster would testify, but also
produced the slides which Koster had prepared to explain
his analysis.‖ (Doc. No. 211 at 30.) Koster explained at
trial, and again at the habeas evidentiary hearing, that he
based his analysis on financial and trading records and
other objective evidence. Tr. 2/2/10, 252-56; Tr. 2/3/10, 6971; Tr. 11/16/17, 133. Koster recalled only one telephone
conversation with Waltzer. Tr. 11/16/17, 51-52. Koster
explained that his analysis of the Target Stocks may have
started because Waltzer identified certain stocks, but
Koster did not base his analysis on Waltzer: ―I did analyze
a lot of trade data and I try not to start with any
preconceived notions in doing so. And my recollection is
that Mr. Waltzer pointed to which stocks may have been
manipulated, at which point I conducted my own analysis
and made my own conclusions.‖ Id. at 56; see also id. at 65
(the existence of a conspiracy was not at the foundation of
Koster‘s analysis; he ―went into it ... with an open mind and
made [his] own judgments on what ... occurred and didn‘t
occur‖). There is no evidence to support Georgiou‘s theory
that Koster based his analysis or trial testimony on
information from Waltzer. In fact, the trial and evidentiary
hearing record establishes that Koster conducted an
independent objective analysis.
A complete analysis of Georgiou‘s argument is found on
page 62 of his Habeas Brief. (See Pet‘r‘s Br. 62.)
47

A75

The government argues that Georgiou‘s claim fails.48
(Gov‘t‘s Resp. 105-07.) It states that Georgiou cannot
establish that he was prejudiced by any failure of
counsel to pursue additional cross-examination
because ―the trial record shows that Koster accurately
summarized and described the evidence relating to
these trades, counsel thoroughly cross-examined him
on the timing of the trades and the parties to the
trades, and there was nothing to be gained by a
further presentation of records and accompanying
cross-examination.‖ (Id. at 105.) It asserts that
Georgiou‘s counsel cross-examined Koster demonstrating that ―the trades that the government
____________________
The government points out that Georgiou raised an
earlier iteration of this claim based on the issue of
―matched trades.‖ (Gov‘t‘s Proposed Findings of Fact and
Conclusions of Law ¶¶ 101-05.) Regarding the issue of
―matched trades,‖ Koster testified that they are ―executing
a trade between accounts, such that that trade is designed
to match up between that account so they are contraparties. So one account is selling to the other in a way that
creates the appearance, that false appearance to the
marketplace.‖ Tr. 2/2/10, 249. The government states that
Georgiou‘s prior post-trial motion included an argument
about ―matched trades,‖ in which he argued that ―Koster
presented a number of trades as having occurred between
two parties that Georgiou claims were not contra-parties
(between co-conspirator accounts) because a market maker
acted as an intermediary to the trade.‖ (Gov‘t‘s Proposed
Findings of Fact and Conclusions of Law ¶ 101.) ―Georgiou
argued that Koster‘s presentation was flawed, and that the
government made improper arguments to the jury by
relying on this flawed analysis.‖ (Id.) We rejected
Georgiou‘s argument and request for a hearing. (See Doc.
No. 211 at 37-38.) The government emphasizes that
Georgiou‘s counsel did cross-examine Koster on the
aforementioned points, but simply was unsuccessful in
attempting to persuade Koster to alter his analysis based
on the precise timing of the trades and the involvement of
the market maker. (Gov‘t‘s Proposed Findings of Fact and
Conclusions of Law ¶ 104.) To the extent that Georgiou is
attempting to raise his prior claim regarding ―matched
trades,‖ we find, after considering the trial record, that
Koster accurately described evidence relating to the trades
at issue, and that counsel skillfully cross-examined Koster
regarding the timing of the trades, as well as the parties to
those trades.
48

A76

contended were matched occurred at different times in
the day and involved an intermediary purchaser, i.e.,
the market maker.‖ (Id. at 106.) According to the
government, ―Koster simply was not persuaded to
alter his analysis based on the precise timing of these
trades and the involvement of the market maker.‖
(Id.) It argues that ―[n]o further cross-examination,
with or without records, would have made any
difference in the jury evaluation of Koster‘s testimony
or the government‘s closing argument.‖ (Id.) It states
that ―Koster made clear, and the government properly
argued, that the co-conspirators were buying and
selling the stock in ways that were consistent with the
manipulative activity reflected in the recordings, the
trade records, the financial records, and the testimony
in the case.‖ (Id. at 107-08.) It states that the proposed
additional cross-examination would not undermine
Koster‘s extensive analysis and presentation which
reflected the elaborate stock fraud activity of Georgiou
and his coconspirators. (Id. at 107.)
*39 After examination of all of the arguments, and
Koster‘s testimony, we agree with the government
that Georgiou‘s ineffective assistance of counsel claim
fails. First, it is clear that Georgiou‘s counsel, through
a detailed cross-examination of Koster, revealed that
Koster‘s analysis of trades that the government
contended were ―matched‖ involved an intermediary
purchaser, the market maker, and occurred at
different times in the day. Tr. 2/3/10, 104-21
Georgiou‘s counsel focused on questioning Koster
about market makers, and their involvement in the
trades at issue, as well as their role in the stock
market overall. Id. Likewise, he consistently
questioned Koster on the timing of trades, including
the trades at issue. See id. Additionally, Koster was
effectively cross-examined by Georgiou‘s counsel about
his analysis of Government Exhibit 305 (slide 25),
which Georgiou argues was woefully flawed. Tr.
2/3/10, 154-56. Moreover, during the evidentiary
hearing, Pasano explained his cross-examination of
Koster in the following way:
My cross tried to take him through a range of trades
and charts from the four principal companies and to
show discrepancies or things that he got wrong and
A77

to constantly pound the theme that these don‘t
match, that the times are off, like I said, the prices
are off, that the parties aren‘t George, that the calls
are assumptions, all to build to a theme that he‘s not
a firsthand witness, he doesn‘t know what the true
facts are, he‘s interpreting events after, you know,
years, and he has selectively chosen some things
and ignored others. So those were the main themes
that I pounded in what I wanted to be a tight
examination because I didn‘t want it to become a
feature of the trial because, as I said earlier, I
wanted the jury‘s focus to be Waltzer and then
Georgiou‘s testimony.
Tr. 9/19/17, 116-17. There is no doubt that Georgiou‘s
counsel effectively and reasonably cross-examined
Koster attacking his analysis about ―matched trades‖
on the bases currently set forth by Georgiou; namely,
the timing; the market maker‘s intermediary role; and
Government Exhibit 305 (slide 25). In fact, counsel
challenged Koster‘s testimony almost exactly as
Georgiou now contends that he should have. Although
Georgiou‘s claim centers on counsel‘s failure to ―put
empirical records to Koster to prove [his] analysis was
fatally flawed,‖ Georgiou fails to show how a crossexamination, with or without the records, would have
made any difference to the jury‘s evaluation of either
Koster‘s testimony or the government‘s closing
argument. (See Pet‘r‘s Br. 62.)
Thus, we conclude that counsel‘s effective crossexamination of Koster was within the wide range of
reasonable professional assistance. See Strickland,
466 U.S. at 688. Counsel‘s performance was objectively reasonable and was not deficient. Moreover,
even if we concluded that counsel‘s performance was
deficient, Georgiou has not established that he
suffered any prejudice. He has completely failed to
show that he was deprived of a fair trial by counsel‘s
cross-examination of Koster‘s regarding his analysis
without the use of empirical records. See id. at 687.
While he argues that the empirical records were
available to counsel, Georgiou fails to show that there
is a reasonable probability that, but for counsel‘s
failure to use those records, the result of the trial
would have been different. See id. Hence, Georgiou‘s
A78

ineffective assistance of counsel claim based on
―Erroneous Trade Analysis‖ is denied.
(2) Statistical Insignificance
Georgiou‘s next attack on his counsel‘s crossexamination of Koster involves his allegation that
counsel should have pointed out the ―statistical
insignificance‖ of Koster‘s testimony concerning the
numbers of manipulative trades he identified in the
trading records. (Pet‘r‘s Br. 63.) He argues as follows:
Mr. Koster claimed he ―analyzed all of the trading in
the four stocks, and this is the manipulative
analysis that I found‖, Id.73. This included 82
instances where alleged co-conspirators were
―contra parties‖ in Avicena trades. and 54 instances
in Neutron trades; Gov. Ex. 305 at 5. There were 19
instances of wash sales, and 26 instances of trades
marking the close. Contrary to the claim of
―overwhelming evidence‖, in the proper light,
Koster‘s accusations were exculpating.
*40 There were an estimated 10,000 Avicena trades,
and 22,000 Neutron trades. across 650 and 1200
trading days, respectively, during the alleged
conspiracy period. As such, Kosters 26 instances of
alleged marking the close (for both companies) was
over 1800 total trading days: less than 1.5 %. The 19
―wash sales‖ ALL belonged to Waltzer, Tr. 02.03.10
at 73-74. Koster was unable to present a single
alleged wash sale from any other account. This
speaks for itself. Furthermore, every alleged wash
sale by Waltzer coincides with a forced sale margin
call by the brokerage firm. Waltzer was kiting
between accounts to avoid margin calls, having been
forced to sell, not creating artificial volume.
Finally, Koster calculated that the ―key accounts‖
(which purportedly controlled all the free trading
stock), represented 50% of total trading volume,
which means, the key accounts represented
approximately 15,000 trades, and yet, Koster could
identify on[l]y 136 instances where the key accounts
were ―contra parties‖. This makes no sense whatsoever, if the key accounts were in a conspiracy.
Defense counsel was ineffective for failing to
A79

discredit Koster with this data.
(Id.)
The government argues that Georgiou‘s analysis as to
why these trades were not ―statistically significant‖ is
simply wrong.49 (Gov‘t‘s Resp. 108.) The government
also argues that Georgiou‘s ineffective assistance of
counsel claim fails because counsel were effective and
Georgiou was not prejudiced. (Gov‘t‘s Resp. 108.) It
argues that ―[o]n direct examination, Koster testified
extensively about the evidence of market manipulations that he found in the records. On crossexamination, counsel countered by suggesting that
Koster was cherry-picking to find evidence to fit his
theory.‖ (Id.) (citing Tr. 2/3/10, 68-69 (in response to
counsel‘s suggestion that Koster was choosing trades
that fit his theory: ―After doing my analysis, I did
conclude that there was a manipulation and I selected
trades that were indicative of that manipulation.‖); Tr.
2/3/10, 73 (―I analyzed all of the trading in the four
stocks, and this is the manipulative activity that I
found.‖).) The government states that ―[i]n closing,
counsel tried to convince the jury of the defense
theory, consistent with its cross-examination of
Koster, by repeatedly accusing the government of
‗cherry picking‘ evidence and ‗cutting corners‘ in its
investigation to present only evidence that ‗fit the
government theory.‘ ‖ (Id.) (citing Tr. 2/9/10, 158-62).
____________________
49

The government states that:

[Georgiou] suggests that identifying a set number of wash
sales, for example, that are a small subset of all
transactions in the relevant stocks means they were not
statistically significant. But he completely ignores the
volumes and prices of these wash sales – and their impact
on the market – particularly as compared to the hundreds
or even thousands of other small transactions that had
little impact on overall price. See, e.g., Tr. 2/2/10, 263-64;
Tr. 2/3/10, 9-10, 26-27, 37-41, 46-48 (Koster discussing
how Georgiou related accounts were involved in huge
percentage of trading activity in those stocks at particular
times and how manipulative activities of Georgiou and his
co-conspirators impacted the price). There simply was no
way that counsel could have shown that Koster‘s analysis
was flawed because it was ―statistically insignificant.‖
(Gov‘t‘s Resp. 108.)

A80

According to the government, ―[c]ounsel thus
challenged the significance of the trading activity that
Koster presented almost exactly as Georgiou now
contends he should have‖ and ―[c]ounsel could not be
considered ineffective for not making the same or
slightly different argument couched in terms of
‗statistical insignificance.‘ ‖ (Id. at 107-08.) Thus, the
government argues that counsel were effective and
Georgiou was not prejudiced.50 (Id. at 108.)
*41 After examining all of the arguments, the record
as a whole, and Koster‘s testimony, counsel did
contest the significance of the trading activity
presented by Koster along the same lines as Georgiou
currently seeks. One of the main themes of counsel‘s
cross-examination of Koster‘s analysis was that he
was cherry-picking in order to find evidence that fit
the government‘s theory. Tr. 2/3/10, 68-70. In
conjunction with his cherry-picking line of cross____________________
Georgiou‘s Reply Brief includes a chart that he claims
demonstrates the flaws in Koster‘s testimony. (Doc. No. 380
at 20.) Through the chart, Georgiou contends that ―[t]here
were essentially no market dealings between Waltzer and
Georgiou in Year 1 [ (June 2004 to May 31, 2005) ] of the
alleged conspiracy.‖ Id. Georgiou also claims that the chart
shows that Waltzer was a net seller, not a net buyer,
during the conspiracy time frame. Id. This, Georgiou
argues, proves that Waltzer could not have been ―soak[ing]
up the float‖ as was alleged by the government. Id.
Georgiou‘s theory fails because it is unclear whether the
chart accurately depicts the objective transaction data.
Also, whether or not that is the case, the fact that Waltzer
was a net seller or a net buyer over the course of a year has
no relevance to whether Georgiou committed stock fraud.
The evidence presented at trial soundly demonstrated that
Georgiou orchestrated specific manipulative trades as part
of a vast stock fraud conspiracy. That evidence included not
only objective trade and financial data, but also emails and
recorded conversations discussing the manipulation. (See,
e.g., Gov‘t Trial Ex. 1 (12/17/04 email from Georgiou to
Waltzer, in response to Waltzer‘s request to sell Neutron
stock, directing Waltzer to sell specific quantities of the
stock at specific prices).) Regardless of whether Waltzer
was buying or selling stock at any particular time, this
chart, which at best reflects a small part of the scheme,
does nothing to undermine the overwhelming evidence that
established stock fraud.
50

A81

examining Koster, counsel‘s closing argument tried to
convince the jury of the defense theory that the
government presented only evidence that fit into its
own theory. Tr. 2/9/10, 158-62. After considering the
record as a whole, counsel conducted a thorough and
skilled cross-examination of Koster. During the
evidentiary hearing, Pasano testified that his crossexamination of Koster included the reasonable
strategy of including several main themes, one of
which was that Koster selectively chose some things
and ignored others. Tr. 9/19/17, 116-17, 135. Pasano,
who is an experienced and skilled attorney, effectively
tried to discredit Koster‘s testimony.
Lastly, Georgiou has not shown that he was
prejudiced. As for Georgiou‘s analysis regarding why
the trades at issue were not ―statistically significant,‖
it is unclear whether it is mathematically correct in
light of the overall scheme. Without delving into the
statistics and whether Georgiou has included all of the
relevant information needed for a correct statistical
analysis, we conclude that he has not shown that he
suffered any prejudice under Strickland. That is, in
light of the totality of the evidence before the jury,
Georgiou has not shown that there is a reasonable
probability that, but for counsel‘s failure to
additionally cross-examine Koster with Georgiou‘s
―Statistical Insignificance‖ information, the result of
the trial would have been different or that the absence
of this cross-examination undermines confidence in
the verdict. See Strickland, 466 U.S. at 694. Consequently, Georgiou‘s ineffective assistance of counsel
claim based on ―Statistical Insignificance‖ is denied.
iii. The Failure to Object to the Admission of
Koster’s Summary Charts Into Evidence
Regarding the summary charts created by Koster that
were used at trial, Georgiou starts his argument by
stating that ―[his] complaint is not admissibility, but
rather, defense counsel‘s failure to object to the charts
being admitted under [Federal Rule of Evidence] 1006,
which allowed for a jury instruction that the charts
were ‗evidence.‘‖51 (Pet‘r‘s Br. 62) (citations omitted).
____________________
In Georgiou, the Third Circuit stated that ―[Georgiou]
also argues that the District Court admitted prejudicial
51

A82

He states that the government‘s summary charts in
Government Exhibits 301-304 (―Exhibits 301-304‖ or
―Exhibits‖) qualify as summary chart evidence under
Rule 1006.52 (Id.) However, he argues that
Government Exhibit 305, which was a power-point
presentation by Koster, should not have been
admitted under Rule 1006, but should have been
admitted under Federal Rule of Evidence 611(a) as a
―pedagogical‖ assist to the jury, which requires a jury
instruction that the charts are not evidence. (Id. at 6263.) He contends that Government Exhibit 305, while
properly presented to the jury, was not an admissible
summary of evidence, but instead was a ―synthesis of
Mr. Koster‘s impressions and suppositions.‖ (Id. at
62.) Based upon the aforementioned argument,
Georgiou claims that he received ineffective assistance
of counsel. (Id.)
*42 The government asserts that the summary charts
were properly admitted into evidence. (Gov‘t‘s Resp.
109.) It further asserts that counsel were not
ineffective for not objecting to them, and Georgiou
_______________(cont'd)
charts into evidence without providing cautionary instructions to the jury.‖ Georgiou, 777 F.3d at 142. Although the
Third Circuit raised the issue, it did not address it. See id.
In furtherance of his ineffectiveness claim, Georgiou
argues that Government Exhibits 301 through 304 should
have been submitted to the jury as evidence, but were
never submitted to the jury for review. (Pet‘r‘s Br. 64.) He
argues that ―[t]he jury may have seen through Koster‘s
inaccuracies, by cross referencing his claims of
manipulation against empirical records.‖ Id. He further
asserts that ―[t]his was critical for discrediting both Koster
and Waltzer‘s presentation of conspiracy.‖ Id. The
government argues that the Exhibits are lengthy
documents showing trading data for numerous accounts in
the Target Stocks. (Gov‘t‘s Proposed Findings of Fact and
Conclusions of Law ¶ 153.) It asserts that ―[t]he data
contained within these exhibits is part of the objective
evidence that Koster analyzed in making his summary
charts, and it is information about which Koster was
thoroughly cross-examined.‖ (Id.) After review, and in light
of the totality of the evidence at trial, we find that Georgiou
has not shown that the failure to have Government
Exhibits 301-304 submitted to the jury for review was
prejudicial under Strickland.
52

A83

cannot establish that counsel‘s alleged ineffectiveness
prejudiced him. (Id.) It argues that Government
―Exhibit 305 is a primary evidence summary pursuant
to Rule 1006.‖ (Id. at 110.) It goes on to state that the
charts were proper summaries, and Government
Exhibit 305 summarized trading records, financial
records, emails, and telephone records, and that they
were independently admissible. (Id. at 110-11.) It
argues that counsel were not ineffective for failing to
raise a meritless objection because the charts were
properly admitted. (Id. at 111.) Furthermore, the
government states that no relief is due because
―Georgiou could not have achieved a different result at
trial based on a small difference in how the jury
received the charts.‖ (Id.)
Federal Rule of Evidence 1006 ―permits parties to use
charts or other exhibits to summarize voluminous
materials if a summary would be helpful to the jury.
Decisions in this connection are committed to the
sound discretion of the trial court, which in this
context is very broad.‖ United States v. Bansal, 663
F.3d 634, 668 (3d Cir. 2011) (citation omitted). ―Under
Rule 1006, summary evidence is admissible ‗only if the
underlying materials upon which the summary is
based are admissible.‘ ‖ United States v. Manamela,
463 F. App‘x 127, 132 (3d Cir. 2012) (quoting United
States v. Pelullo, 964 F.2d 193, 204 (3d Cir. 1992)).
―However, Rule 1006 does not require that the underlying materials actually be admitted into evidence.‖
Id.
―Compilations or charts which are used only to
summarize or organize testimony or documents which
have themselves been admitted into evidence are
distinguished from those used as evidence pursuant to
Rule 1006 of the Federal Rules of Evidence.‖ United
States v. Blackwell, 954 F. Supp. 944, 971 (D.N.J.
1997). ―Charts that summarize documents or
testimony, already admitted into evidence, may be
admissible under Rule 611(a) ... of the Federal Rules
of Evidence as demonstrative evidence, as opposed to
Rule 1006, as substantive evidence.‖ Id. ―When Rule
611 charts are used, however, it is required the charts
be accompanied by an instruction from the court
which ‗informs the jury of the summary‘s purpose and
A84

that it does not constitute evidence.‘ ‖ Id. (citation
omitted).
Here, Georgiou does not contest that the summary
charts in Government Exhibits 301-304 met the
requirements of Federal Rule of Evidence 1006.
Regarding Georgiou‘s arguments pertaining to
Government Exhibit 305, we find that it was properly
admitted under Rule 1006. It summarized trading
records, financial records, emails, and telephone
records, and all of the underlying documents, which
were provided to Georgiou, were admissible. See
Eichorn v. AT & T Corp., 484 F.3d 644, 650 (3d Cir.
2007) (―Courts have cautioned that Rule 1006 is not a
back-door vehicle for the introduction of evidence
which is otherwise inadmissible, and that the
voluminous evidence that is the subject of the
summary must be independently admissible.‖).
Government Exhibit 305 was presented to the jurors
to aid their understanding of voluminous evidence and
to make relevant evidentiary connections. It reflected
only objective facts, and did not include any
commentary from Koster. Additionally, Koster was
subject to extensive cross-examination regarding all of
his charts, including Government Exhibit 305.
In light of the parties‘ pre-trial stipulation about the
summary charts, it is clear that defense counsel were
acutely aware of how the government intended to use
the summary charts at trial, and, correctly decided
that the summary charts, including Government
Exhibit 305, satisfied the requirements of Rule 1006.
The jury was properly instructed to consider all of the
summary charts as any other evidence in the case and
to accord such weight as they saw fit. Tr. 2/12/10, 13.
Thus, we conclude that the decision by trial counsel
agreeing to all of the summary charts, including
Government Exhibit 305, being admitted under Rule
1006 was the result of reasonable professional
judgment. As such, ―counsel‘s representation did not
fall below an objective standard of reasonableness.‖
Strickland, 466 U.S. at 688.
*43 Moreover, we find that Georgiou was not
prejudiced by the admission of Government Exhibit
305 under Rule 1006 because he had all of the
underlying records before trial and had sufficient
A85

opportunity to point out to the jury any inaccuracies
in the summary chart either through the crossexamination of Koster or through his own testimony.
As Georgiou‘s trial counsel, Pasano, explained ―[t]he
attack on Koster was multiple. Two primary features
of it were that neither the times of the buys and the
sells or the prices of the buys and the sells matched,
that he had compressed events, assumed connections,
blamed [Georgiou] for other people‘s activities. All of
those were parts of the cross.‖ Tr. 9/19/17, 69. During
his closing argument, Pasano attacked the
Government‘s charts saying that they were selective
and incomplete. Tr. 2/9/10, 159. He stated that
Koster‘s presentation contained ―[p]retty charts that
tell you absolutely nothing about what George
Georgiou knew, what he thought, or why he acted.‖ Id.
at 160. He further stated that ―[a]ll that the charts
really tell you is that a whole lot of people, not George
Georgiou, made a whole lot of money trading in these
stocks, not George Georgiou, millions and millions of
dollars, not George Georgiou.‖ Id. at 161.
As previously explained, in order to establish
prejudice, ―the party claiming ineffective assistance
‗must show that there is a reasonable probability that,
but for counsel‘s unprofessional errors, the result of
the proceeding would have been different.‘ ‖ Campbell
v. Burris, 515 F.3d 172, 184 (3d Cir. 2008) (quoting
Strickland, 422 U.S. at 694). ― ‗It is not enough for the
defendant to show that the errors had some
conceivable effect on the outcome of the proceedings ...
not every error that conceivably could have influenced
the outcome undermines the reliability of the
proceeding.‘ ‖ Id. (quoting Strickland, 466 U.S. at 693).
Simply put, Georgiou cannot show that there is a
reasonable probability that, but for the fact that
Government Exhibit 305 was admitted under Rule
1006, the result of the trial would have been different.
See id. For all the reasons explained above, Georgiou‘s
claim for ineffective assistance of counsel is denied.
b. Claims Pertaining to AUSAs’ Communications
with Waltzer and Aspects of Waltzer’s Testimony
Georgiou asserts that he received ineffective
assistance of counsel based upon the following three
grounds: ―Failure to Uncover the AUSAs Secret
A86

Communication Arrangement with Waltzer, and move
for their Disqualification;‖ ―Failure to Uncover
Waltzer‘s 20 year Psychiatric History and
Medications, and Pre Proffer Cooperator‘s Mental
State;‖ and ―Failure to Impeach Waltzer for his
perjury pertaining to historical emails with Georgiou,
by not analyzing and cross referencing with Daniel
Koster‘s summary of Neutron transactions.‖ (Pet‘r‘s
Br. 65.) The government argues that all of these
claims are frivolous. (Gov‘t‘s Resp. 112.) It states that
Georgiou cannot show that counsel were ineffective in
any of these areas and that he was prejudiced because
―there was no secret communication arrangement
with Waltzer and no basis to disqualify the AUSAs;
whatever information existed about Waltzer‘s mental
state was not impeaching and not material; and the
record demonstrates that Waltzer was truthful as his
testimony was corroborated by the ‗staggering‘ independent evidence in the case, including recordings,
emails, trading and financial records, and testimony
from other witnesses.‖ (Id. at 112-13.)
First, Georgiou‘s claim based upon his heading,
―Failure to Uncover the AUSAs Secret Communication Arrangement with Waltzer, and move for their
Disqualification,‖ is denied because he has not shown
that
there
was
any
secret
communication
arrangement between the AUSAs and Waltzer, and
the evidence adduced at the evidentiary hearing
establishes that there was never such an
arrangement. See Findings of Fact, infra ¶¶ 38-48.
The government had ordinary communications with
Waltzer while working with the FBI agents in a large
undercover investigation involving multiple subjects
and targets. See, e.g., Tr. 9/26/17, 62-64 (Lappen –
text messaging was ministerial and substantive
conversations involved participation of agents); Tr.
9/18/17, 258-59 (Cohen – significant communications
involved AUSAs and agents; logistics may have been
―one on one‖); Findings of Fact, infra ¶¶ 38-48. Trial
counsel, Pasano, also testified that, as a strategic
matter, he would not have wanted to call the AUSAs
to testify at trial. Tr. 9/19/17, 99-102 (explaining that
there
is
nothing
improper
about
AUSAs
communicating with cooperators and there would be
no tactical advantage to putting a prosecutor on the
A87

stand to explain those communications). Thus, there
was no basis to disqualify the AUSAs. Georgiou‘s
counsel cannot be found to be ineffective for not
raising a meritless claim. See Werts, 228 F.3d at 203.
*44 Second, regarding Georgiou‘s claim premised upon
the failure to discover information about Waltzer‘s
mental state, we have previously stated that we will
not revisit the issue of Waltzer‘s mental health in
light of the Third Circuit‘s decision that there was no
Brady material that counsel could have used to
impeach Waltzer. See Georgiou, 777 F.3d at 140-41
(holding that evidence concerning Waltzer‘s mental
health was neither favorable nor material under
Brady). Consequently, we find that Georgiou has
neither shown ineffectiveness nor prejudice. Thus,
this claim fails.
Third, in his claim entitled, ―Failure to Impeach
Waltzer for his perjury pertaining to historical emails
with Georgiou, by not analyzing and cross referencing
with Daniel Koster‘s summary of Nuetron transactions, as detailed in [I-C-ii],‖ Georgiou claims that
―Waltzer knew he was not conspiring with Georgiou,
instead, dumping his stock the entire time.‖ (Pet‘r‘s
Br. 9.) He also claims actual innocence by arguing
that ―the entire testimony and interpretation of the
emails was a deception. Waltzer was lying to and
deceiving Georgiou at the time he wrote the emails,
dumping his stock, not conspiring with Georgiou to
inflate prices.‖ (Id.) Without delving into defense
counsel‘s performance regarding this claim, we find
that Georgiou has failed to establish Strickland‘s
prejudice prong. See Lilly, 536 F.3d at 196. Waltzer‘s
testimony at trial regarding emails with Georgiou was
credible and consistent with the overwhelming
independent evidence establishing Georgiou‘s guilt.
Moreover, Georgiou‘s sweeping claim that the entire
testimony and interpretation of the emails was a
deception, and that he was not conspiring to inflate
prices, is not only conclusory, but against the weight
of the evidence. See Thomas, 221 F.3d at 437 (stating
―vague and conclusory allegations contained in a §
2255 petition may be disposed of without further
investigation by the District Court‖). Georgiou has not
only failed to establish that Waltzer perjured himself
A88

regarding the historical emails with Georgiou, but he
has not shown that, but for counsel‘s failure to
impeach Waltzer regarding his alleged perjury about
the emails, there is a reasonable probability that the
result of the trial would have been different. See
Strickland, 466 U.S. at 694. Thus, this claims fails
because Georgiou has not shown ―a probability
sufficient to undermine confidence in the outcome‖ of
the trial. See Jacobs, 395 F.3d at 105 (quoting
Strickland, 466 U.S. at 693-94).
c. Claims Pertaining to Various Issues
i. Failure to Obtain Telephone Records From
Another Criminal Case Involving James Hall
and Others
Georgiou asserts that defense counsel were ineffective
for not obtaining and using the telephone records from
James Hall‘s (―Hall‖) case, and cases of others against
whom Waltzer cooperated, to support his theory that
Waltzer did not record exculpatory calls in Georgiou‘s
case. (Pet‘r‘s Br. 65.) We have addressed Georgiou‘s
previous claim that the government engaged in
misconduct in failing to disclose evidence that Waltzer
supposedly failed to record calls of Hall, and concluded
that there was no evidence of misconduct by the
government. See supra 50-58. To the extent that
Georgiou‘s current claim relies upon the premise that
the government engaged in misconduct in either his
case or Hall‘s case, it is thoroughly rejected and
denied.
In his ineffective assistance of counsel claim, Georgiou
argues that:
Waltzer cooperated against the underlings he
engaged for his class-action insurance frauds. At
James Hall‘s sentencing, November 2009, Attorney
Flannery submitted a detailed brief, and argued,
that Waltzer had manipulated evidence, while
deliberately failing to record calls to alter the
narrative. At the hearing, CID-IRS Agent
Kaufmann testified that certain email evidence was
questionable. Attorney Flannery included Hall‘s
phone logs, evincing Waltzer failed to record dozens
of calls.
A89

*45 (Pet‘r‘s Br. 65.) He further argues that
―[c]onsidering the significance of recordings to the
case, defense counsel‘s failure to obtain this critical
evidence of Waltzer manipulating recordings in Hall
and other cases was trial altering for Georgiou.‖ (Id.)
The government argues that this claim should be
denied because ―there was no evidence of Waltzer‘s
malfeasance in the Hall case‖ and ―[t]here was no
evidence that Waltzer was manipulating calls to hide
exculpatory evidence or frame innocent people.‖
(Gov‘t‘s Resp. 116.) It goes on to state that ―[a]ll of the
charged defendants, including Hall, pleaded guilty,
and counsel would not have helped Georgiou by trying
to present evidence about Waltzer‘s recording in other
cases. All the jury would have learned, if this Court
admitted any evidence from these other cases, is that
Waltzer cooperated against guilty people.‖ (Id.)
The issue of Waltzer selectively recording calls was
extensively argued by defense counsel. Utilizing
Waltzer‘s telephone records and recordings that the
government provided in pretrial discovery, Georgiou
and his counsel argued, during trial, that Georgiou
made game-changing statements in a few short
unrecorded calls between Waltzer and Georgiou.
During the evidentiary hearing, Georgiou‘s trial
counsel, Pasano, acknowledged that he attacked
Waltzer based on the premise that he was selectively
recording Georgiou in order to make Georgiou look
bad by not revealing when Georgiou said things that
were favorable. Tr. 9/19/17, 135-36. As Georgiou
states, ―[r]ecordings were the heart of the
Government‘s case against Georgiou, heavily relied
upon by the Court as overwhelming evidence.
Georgiou‘s very defense was that there was a
completely different narrative, hidden by Waltzer‘s
failure to record exculpating calls, and by
manipulating evidence.‖53 (Pet‘r‘s‘ Br. 65.) He goes on
to argue that ―[t]he claims made by Attorney Flannery
matched Georgiou‘s exactly, and would have been
____________________
The government provided Georgiou‘s counsel with
Waltzer‘s telephone records and recordings in pretrial
discovery. (Gov‘t‘s Proposed Findings of Fact and
Conclusions of Law ¶ 131.)
53

A90

critical for corroborating Georgiou‘s claims.‖ (Id.) The
government argues that ―[c]ounsel approached this
issue effectively, relying on the undisputed evidence
that Waltzer had the ability to record or not record
calls, and then argue, as they did, that the supposed
unrecorded calls in Georgiou‘s case were exculpatory.‖
(Gov‘t‘s Resp. 116-17.)
Georgiou equates the Hall records as critical evidence
of Waltzer manipulating recordings in Hall‘s case and
others, but the records do not, in and of themselves,
equal evidence of Waltzer manipulating records.
Notably, there is no evidence in the record that
Waltzer intentionally failed to record, or destroyed the
recordings, of any exculpatory calls.54 Likewise, there
was no evidence that Waltzer was manipulating calls
to hide exculpatory evidence or frame people as all of
the charged defendants in cases involving Waltzer‘s
active cooperation, including Hall, pleaded guilty.
Thus, Georgiou boldly relies upon the unsubstantiated
contention that the Hall telephone records would have
been accepted by the jury as bona fide truth that
Waltzer selectively recorded calls in Hall and,
therefore, did the same in Georgiou‘s case. The
government argues that ―[w]ith no solid evidence that
Waltzer engaged in wrongdoing in other cases, and
given the overwhelming evidence corroborating
Waltzer‘s testimony, Georgiou would not have
achieved a different result at trial if only counsel had
presented telephone records from Hall‘s case or other
cases.‖ (Gov‘t‘s Resp. at 117.)
*46 We agree with the government. Georgiou‘s bare
conclusion that he would have achieved a different
result at trial if only his counsel had presented
telephone records from Hall‘s case or other cases, in
which Waltzer cooperated, is insufficient to make a
showing of the prejudice prong of the Strickland
standard. See Johnson v. United States, 294 F. App‘x
____________________
During trial, FBI Agent Joanson testified that Waltzer
could only turn the recorder on or off, and he could not
erase recordings. Tr. 2/2/10, 99-100. He further testified
that the FBI reviewed Waltzer‘s recordings to make sure
that Waltzer was not turning off the recorder during a
conversation, and that there was no evidence of his
tampering with the recorder. Id. at 101-02.
54

A91

709, 710-11 (3d Cir. 2008) (finding that petitioner‘s
vague and conclusory claim did not establish prejudice
under Strickland); United States v. Terry, 366 F.3d
312, 316 (4th Cir. 2004) (―[C]onclusory allegations are
insufficient to establish the requisite prejudice under
Strickland.‖). Also, the record contradicts Georgiou‘s
claim. Here, the government‘s evidence was more than
sufficient for a jury, acting in accordance with law, to
find Georgiou guilty. Georgiou has not demonstrated a
―reasonable probability‖ that the trial would have
been different had his counsel presented the records
at issue. Without establishing prejudice, Georgiou‘s
ineffective assistance of counsel claim fails, and we
need not address the performance prong. See
Strickland, 466 U.S. at 697; Lilly, 536 F.3d at 196.
Consequently, Georgiou‘s ineffective assistance of
counsel claim is denied.
ii. Jury Instruction – Fatal Variance
Georgiou argues that his counsel were ineffective for
failing to reassert their pretrial claim that Count
One55 of the indictment should have been dismissed
because the government charged multiple conspiracies
in Count One, and ―the evidence at trial evinced a
fatal variance between pleading and proof.‖56 (Pet‘r‘s
Br. 67.) Specifically, he asserts that ―the evidence at
trial evinced a fatal variance between pleading and
proof.... Indeed, considering Waltzer‘s testimony that
he was not aware of others in the alleged conduct, or
who was on the other side of the trades, and that his
views were ‗in retrospect,‘ the pretrial motion of a
mischarged single conspiracy had more merit after
trial.‖ (Id.) He also asserts that, after the government
____________________
Count One charged a dual object conspiracy to commit
securities fraud and wire fraud in violation of the general
conspiracy statute, 18 U.S.C. § 371, and described
Georgiou‘s manipulation and attempted manipulation of
several stocks. (See Doc. No. 42.)
55

In our December 7, 2009 Memorandum Opinion, we
examined Georgiou‘s pre-trial argument that Count One
should be dismissed because it does not describe one
conspiracy, but actually describes six separate conspiracies.
(See Doc. No. 100.) We denied Georgiou‘s argument as
premature since ―there is no variance because this case has
yet to go to trial.‖ (Id. at 8.)
56

A92

presented its evidence, counsel should have pursued a
multiple conspiracies jury instruction.57 (Id.)
The government argues that Georgiou‘s claim fails
because his counsel were effective for electing not to
pursue this failed claim and, in any event, Georgiou
was not prejudiced. (Gov‘t‘s Resp. 121.) It asserts that
―[t]here was no point in counsel reasserting [the
pretrial] motion during the trial because the evidence
presented at trial was consistent with the charges in
the indictment that properly included a single,
overreaching conspiracy to manipulate the Target
Stocks.‖ (Id.) It goes on to state that it may properly
charge a single conspiracy with multiple objects or a
master conspiracy with more than one subsidiary
scheme, and ―[it] proved that Georgiou operated a
single conspiracy to manipulate the Target Stocks
even though there were several sub-schemes, to
manipulate each of the stocks and defraud the
brokerage firms.‖ (Id.) (citing United States v. Kemp,
500 F.3d 257, 288 (3d Cir. 2007); United States v.
Morrow, 717 F.2d 800, 804 (3d Cir. 1983)). We agree
with the government.
―A variance exists ‗where the charging terms [of the
Indictment] are unchanged, but the evidence at trial
proves facts materially different from those alleged in
the indictment.‘ ‖ United States v. Scott, 607 F. App‘x
191, 195 (3d Cir. 2015) (quoting United States v.
Castro, 776 F.2d 1118, 1121 (3d Cir. 1985)). ― ‗To
prevail ... [the appellant] must show (1) that there was
a variance between the indictment and the proof
adduced at trial and (2) that the variance prejudiced
some substantial right.‘ ‖ Id. (quoting United States v.
Balter, 91 F.3d 427, 441 (3d Cir. 1996)).
*47 ―‗Where a single conspiracy is alleged in the
indictment, there is a variance if the evidence at trial
proves only the existence of multiple conspiracies.‘ ‖
Id. (quoting United States v. Kelly, 892 F.2d 255, 258
(3d Cir. 1989)). ― ‗We will sustain the jury‘s verdict if
there is substantial evidence, viewed in the light most
favorable to the Government, to support a finding of a
____________________
See Third Circuit Model Jury Instruction 6.18.371H
(Conspiracy – Single or Multiple Conspiracies).
57

A93

single conspiracy.‘ ‖ Id. (quoting United States v.
Perez, 280 F.3d 318, 345 (3d Cir. 2002)).
―‗To prove a conspiracy, the government must establish a unity of purpose between the alleged
conspirators, an intent to achieve a common goal, and
an agreement to work together toward that goal.‘ ‖ Id.
(quoting United States v. Gibbs, 190 F.3d 188, 197 (3d
Cir. 1999)). ―In determining whether there is a single
conspiracy or multiple conspiracies, we consider three
factors: ‗(1) whether there was a common goal among
the conspirators; (2) whether the agreement
contemplated bringing to pass a continuous result
that will not continue without the continuous
cooperation of the conspirators; and (3) the extent to
which the participants overlap in the various
dealings.‘ ‖ Id. at 196 (quoting Kemp, 500 F.3d at 287).
― ‗The government need not prove that each defendant
knew all of the conspiracy‘s details, goals, or other
participants.‘ ‖ Id. (quoting Gibbs, 190 F.3d at 197).
The indictment alleged that Georgiou was engaged in
a dual object conspiracy to commit securities fraud
and wire fraud, all in violation of the general
conspiracy statute, 18 U.S.C. § 371, through his
manipulation and attempted manipulation of several
stocks. The trial evidence proved a single conspiracy,
not multiple, unrelated conspiracies. The government
adduced substantial evidence at trial demonstrating
the sub-schemes of Georgiou‘s conspiracy clearly
involved the common goal of artificially inflating
stocks to generate fraud proceeds. ―[A] finding of a
master conspiracy with sub-schemes does not
constitute a finding of multiple, unrelated conspiracies
and, therefore, would not create an impermissible
variance.‖ United States v. Smith, 789 F.2d 196, 200
(3d Cir. 1986); see also Kemp, 500 F.3d at 288 (stating
―the Government may not charge ‗multiple unrelated
conspiracies,‘ but it can charge a ‗master conspiracy
[with] more than one subsidiary scheme‘ ‖). Here, the
sub-schemes clearly overlapped with the master
conspiracy since each sub-scheme involved furthering
a common goal of artificially inflating stocks to
generate fraud proceeds. The criminal activity
relating to all of the Target Stocks occurred at
overlapping times with overlapping methods involving
A94

overlapping participants, and the intended result
would not have come to bear without such continuous
cooperation. As for the portion of the conspiracy
involving the victim financial firms, Caledonia and
Accuvest, the allegations and proof also involved the
same time period and same stocks.
―‗[T]he government need not prove that each
defendant knew all the details, goals, or other
participants‘ in order to find a single conspiracy.‖
Kelly, 892 F.2d at 260 (quoting United States v.
Theodoropoulos, 866 F.2d 587, 587 (3d Cir. 1989). As
the indictment alleged, and the government‘s trial
evidence showed, Georgiou worked with various coconspirators, known and unknown, to manipulate the
Target Stocks. The involvement of these coconspirators, whom the government established that
Georgiou controlled, cut across the sub-schemes and
involved Georgiou directing them to either buy or sell
the Target Stocks for his criminal benefit. In his
manipulative trading, Georgiou also used various
nominees and accounts, and the conspiracy could not
have succeeded without the continuous participation
of numerous co-conspirators. In light of all of this, and
consistent with the allegations in the indictment, the
evidence presented at trial regarding the conspiracy
claim demonstrated Georgiou‘s involvement in a
single, although extremely complex, conspiracy. See
Perez, 280 F.3d at 345 (citing Smith, 789 F.2d at 200).
We cannot conclude that a reasonable juror could not
find enough commonality to constitute a single
conspiracy.
*48 Thus, we find that the government supported the
conspiracy alleged in the indictment, and the evidence
at trial did not create a variance that surprised or
prejudiced Georgiou. As a result, we conclude that no
impermissible variance occurred. Since Georgiou‘s
variance argument fails, we find no ineffectiveness of
counsel in failing to challenge the indictment on that
ground or failing to pursue a multiple conspiracies
jury instruction. It was well within the range of
reasonable professional assistance for Georgiou‘s
counsel not to advance either of the present
arguments that lack merit. See Werts, 228 F.3d at 203
(―[C]ounsel cannot be deemed ineffective for failing to
A95

raise a meritless claim.‖) Georgiou‘s claim also fails
under the prejudice prong because he neither argues
nor shows that he suffered any prejudice. Accordingly,
this claim is denied.
iii.
Failure
to
Raise
JurisdictionalExtraterritoriality and Irrevocable Liability
Issues Pretrial
The following paragraph in Georgiou‘s Memorandum
of Law in Support of his § 2255 Motion contains his
ineffectiveness argument regarding the failure to raise
jurisdictional-extraterritoriality
liability
issues
pretrial:
Defense counsel failed to raise jurisdictionalextraterritoriality, and irrevocable liability issues,
pretrial. The government cannot demonstrate which
alleged co-conspirators the jury found, leaving
Waltzer as the only point of irrevocable liability
which tied trades to the United States. All other
dealings were involved foreign nationals, between
Canada and the Bahamas, Turks and Caicos and
Grand Cayman. Had defense counsel raised these
issues, numerous elements of the indictment,
including a significant narrowing of the alleged
conspiracy, would have required hearings. Without
irrevocable liability, many alleged co-conspirators,
losses, and allegations, may have been eliminated.
This may have significantly reduced alleged losses
and
enhancements,
while
also
downsizing
Georgiou‘s sentencing exposure. The failure to fully
address irrevocable liability issues where no United
States nexus existed, was prejudicial and
ineffective.
(Pet‘r‘s Br. 67.)
Relying upon Morrison v. Nat‘l Australia Bank Ltd.,
561 U.S. 247, 267 (2010), the Third Circuit, in
Georgiou, stated that the anti-fraud provisions of the
Securities Exchange Act, Section § 10(b) and Section
10(b)‘s implementing regulation, SEC Rule 10b-5
(―Rule 10b-5‖), have no extraterritorial application.
Georgiou, 777 F.3d at 134 (stating ―[i]ndeed, Section
10(b) has no extraterritorial reach‖). In determining
whether the transactions at issue in Georgiou were
A96

―domestic transactions,‖ under Morrison, the Third
Circuit stated that ―we consider ‗not ... the place
where the deception originated, but [the place where]
purchase and sales of securities‘ occurred.‖ Id. at 135
(quoting Morrison, 561 U.S. at 266) (alteration in
original). The location where the parties incurred
irrevocable liability, i.e., where the parties became
bound to effectuate the purchase or sale, can be
considered in determining whether a purchase or sale
is domestic. Id. at 136 (citation omitted). ―Accordingly,
territoriality under Morrison turns on ‗where,
physically, the purchaser or seller committed him or
herself‘ to pay for or deliver a security.‖ Id. (quoting
United States v. Vilar, 729 F.3d 62, 77 n.11 (2d. Cir.
2013)).
The Third Circuit found that ―[h]ere, at least one of
the fraudulent transactions in each of the Target
Stocks was bought and sold through U.S.-based
market makers.‖ Id. Relying upon Koster‘s testimony,
the Third Circuit stated that ―some of the relevant
transactions required the involvement of a purchaser
or seller working with a market maker and
committing to a transaction in the United States,
incurring irrevocable liability in the United States, or
passing title in the United States‖ and ―[t]he record
also contains evidence of specific instances in which
the Target Stocks were bought or sold at Georgiou‘s
direction from entities located in the United States.‖
Id. (footnote omitted). The Third Circuit concluded
that this Court‘s application of Section 10(b) to
Georgiou‘s transactions was proper because ―the
evidence is sufficient to demonstrate that Georgiou
engaged in ‗domestic transactions‘ under ... Morrison.‖
Id. at 137.
*49 Regarding Georgiou‘s ineffective assistance of
counsel claim, the government states that ―Georgiou
previously litigated a different version of this claim in
the Court of Appeals, and the court rejected his
claim.‖ (Gov‘t‘s Resp. 124.) According to the
government, ―[o]n appeal, Georgiou argued that the
government presented insufficient evidence on the
securities fraud charges because they supposedly
involved the extraterritorial application of United
States laws.‖ (Id.) ―The Court of Appeals rejected his
A97

claim, holding that because fraudulent transactions in
the Target Stocks involved U.S.-based market makers,
Georgiou engaged in ‗domestic transactions‘ –
involving ‗the purchase or sale of any [ ] security in
the United States.‘ ‖ (Id.) (quoting Georgiou, 777 F.3d
at 136-37) (alteration in original). Thus, the
government argues that counsel were not ineffective
for failing to pursue a meritless claim because ―[t]he
Court of Appeals has already rejected his
extraterritorial challenge to the charges and affirmed
the convictions. Nothing in the law would allow for a
reduction in the loss calculation for foreign
transactions that were part of a scheme for which he
was fairly convicted.‖ (Id. at 126.) It goes on to argue
that ―[t]he loss calculation properly reflected ‗the
reasonably foreseeable pecuniary harm that resulted
from the offense.‘ ‖ (Id.) (quoting U.S.S.G. § 2B1.1 app.
note 3(A)(i)).
In his Reply Brief, Georgiou addresses his
extraterritoriality argument by focusing on the
premise that his theory about Waltzer‘s mens rea
would eliminate Waltzer‘s transactions as the
domestic nexus for irrevocable liability. (Pet‘r‘s Reply
18-19.) To the extent that Georgiou‘s ineffective
assistance of counsel claim is premised upon his
theory about Waltzer‘s mens rea, it necessarily fails
because, for all of the reasons set forth in the Findings
of Fact and Conclusions of Law Section, the
underlying mens rea theory is without merit. See
Werts, 228 F.3d at 203 (―[C]ounsel cannot be
ineffective for failing to raise a meritless objection.‖)
He also impermissibly debates the Third Circuit‘s
holding in Georgiou; however, we will not address this
argument.
Closely examining Georgiou‘s ineffective assistance of
counsel claim, he speculatively asserts that if defense
counsel had raised the jurisdictional-extraterritoriality and irrevocable liability issues pretrial,
―numerous elements of the indictment, including a
significant narrowing of the alleged conspiracy, would
have required hearings.‖ (Pet‘r‘s Br. 67.) The
argument that hearings may have been conducted
does not provide a basis for an ineffective assistance of
counsel claim. Likewise, he speculates that ―many
A98

alleged co-conspirators, losses, and allegations, may
have been eliminated,‖ and ―[t]his may have
significantly reduced alleged losses and enhancements, while also downsizing [his] sentencing
exposure.‖58 (Id.) Georgiou does not provide any legal
support for his speculative arguments, and we find
that they are not grounds for habeas relief. ―In order
to sustain an ineffective assistance of counsel claim, a
petitioner must make concrete allegations of actual
prejudice and substantiate them or risk summary
dismissal.‖ Reeves v. Attorney Gen. of, No. 14-5436,
2015 WL 5544431, at *7 (E.D. Pa. Sept. 16, 2015)
(citing Wells v. Petsock, 941 F.2d 253, 259-60 (3d Cir.
1991)); see also Strickland, 466 U.S. at 693 (stating
that the defendant must ―affirmatively prove
prejudice‖); United States v. Tilley, No. 10-691, 2011
WL 673914, at *2 (W.D. Pa. Feb. 17, 2011) (―Speculation and conjecture are insufficient to establish
prejudice.‖).
*50 Georgiou‘s speculative hypothesis fails to raise a
prima facie claim of ineffective assistance of counsel;
namely, that there is a reasonable probability that,
but for the fact that defense counsel did not raise
jurisdictional-extraterritoriality,
and
irrevocable
____________________
Regarding Georgiou‘s sentence, the government notes as
follows:
58

At sentencing, this Court calculated the total actual loss
caused by Georgiou‘s schemes to be $55,832,398. Tr.
11/19/10, 58. This calculation was based on the following
losses suffered by: (1) the three financial institutions
Georgiou defrauded through his use of manipulated
stocks, i.e., Accuvest ($3,613,856), Alliance ($5,890,748),
and Caledonia ($22,000,000), Tr. 11/19/10, 55; (2) Alex
Barrotti, whom Georgiou defrauded of $16,000,000 by
falsely promising to cover Barrotti‘s losses for trades
made at Georgiou‘s direction, Tr. 11/19/10, 55; and (3) the
numerous victim shareholders who bought HYHY stock
during Georgiou‘s pump and dump scheme and who
collectively lost at least $8,327,794. Tr. 11/19/10, 58; Gov.
Exh. 305. Thus, this Court determined that Georgiou
caused losses of more than $50,000,000 under U.S.S.G. §
2B1.1(b)(1)(M), which resulted in a 24-level increase to
the base offense level of 7.
(Gov‘t‘s Resp. 126.)

A99

liability issues, pretrial, the result of the proceeding
would have been different.59 See Strickland, 466 U.S.
at 694. Confidence in the outcome of the trial is not
undermined by Georgiou‘s argument, especially in
light of the Third Circuit‘s decision in Georgiou. See
Strickland, 466 U.S. at 693 (―It is not enough for the
defendant to show that the errors had some
conceivable effect on the outcome of the proceeding....
[N]ot every error that conceivably could have
influenced the outcome undermines the reliability of
the result of the proceeding.‖). Since Georgiou has
made an insufficient showing on the prejudice prong
of the Strickland standard, we deny habeas relief
without addressing the performance prong. See id. at
697.
iv. Failure to Object to a Forfeiture Money
Judgment
Georgiou argues that his sentencing counsel were
ineffective for failing to object to the Court‘s forfeiture
order for a $26,000,000 money judgment. (Pet‘r‘s Br.
68.) He argues that the Forfeiture Order should be
reversed for counsel‘s ineffectiveness. (Id.) The
government asserts, and we agree, that this claim
fails because it is not cognizable and meritless.
(Gov‘t‘s Resp. 129.)
―Challenges to criminal forfeiture ... are not cognizable
under § 2255, even when they are couched as
ineffectiveness claims.‖ See United States v. Bansal,
____________________
The government states that ―Georgiou could not have
been prejudiced because this Court also found that
Georgiou was responsible for intended losses that ‗far
exceeded a hundred million [dollars]‘ based on his scheme
involving Northern Ethanol.‖ (Gov‘t‘s Resp. 127.) (citing Tr.
11/19/10, 57). It argues that the Court identified the
applicable guideline range by considering only the actual
losses because Georgiou‘s guideline range was already,
literally, off the guideline chart. (Id.) (citing Tr. 11/19/10,
57-58). Thus, according to the government, ―even if counsel
should have raised the extraterritorial argument and
somehow reduced the actual loss calculation, the intended
loss figure would have resulted in at least the same or
higher guidelines.‖ (Id.)
59

A100

No. 05-193-2, 2015 WL 11017834, at *9 (E.D. Pa. June
22, 2015) (citing Winkelman v. United States, 494 F.
App‘x. 217, 220 n.4 (3d Cir. 2012) (―[C]ourts have held
that § 2255 authorizes challenges addressed only to
custody and not to fines, restitutionary orders and the
like.‖); United States v. Golden, Nos. 04-4645, 00-60801, 2005 WL 3434004, at *5 (E.D. Pa. Dec. 12, 2005)
(forfeiture order ―is not a sufficient restraint on liberty
to satisfy the ‗in custody‘ requirement for habeas
corpus relief‖)); see also United States v. Ross, 801
F.3d 374, 380 (3d Cir. 2015) (―[T]he monetary component of a sentence is not capable of satisfying the ‗in
custody‘ requirement of federal habeas statutes.‖). As
a result, Georgiou‘s ineffective assistance of counsel
claim based upon the criminal forfeiture order is
denied.60
Also, even if we were to find jurisdiction to hear
Georgiou‘s challenge to the forfeiture order, it would
be without merit. The Third Circuit found that the
forfeiture order was, in fact, proper concluding that
―the $26,000,000 subject to forfeiture constitutes, or is
derived from proceeds traceable to the offenses of
which the defendant was convicted.‖61 Georgiou, 777
F.3d at 147 (citations omitted).
3. Conclusion
*51 In sum, all of Georgiou‘s claims of ineffective
assistance of counsel are denied. The existing record
establishes that Georgiou‘s claims fail as a matter of
law under the standard set forth by Strickland. See
Strickland, 466 U.S. at 686-88, 693-94. Viewing all of
Georgiou‘s allegations, and giving the highly
deferential scrutiny that we are required to give to
counsel‘s performance, there is no doubt that Georgiou
received objectively reasonable representation by his
attorneys who reasonably, professionally, effectively,
and zealously represented him. In light of the effective
____________________
We note that Georgiou has a separate pending motion
with this Court regarding his Forfeiture Order, which has
been briefed and will be addressed in a separate
memorandum opinion. (Doc. No. 384.)
60

The government argues that the amount of $26,000,000
was well below the victims‘ total losses of $55,832,398.
(Gov‘t‘s Resp. 131.)
61

A101

representation that he received from his attorneys,
Georgiou has not been, and cannot show, that he has
been prejudiced in any way. Also, we point out that
there were no errors at trial so serious as to deprive
Georgiou of a fair trial or to undermine confidence in
the outcome, which had overwhelming record support.
Thus, we conclude that none of Georgiou‘s claims
assert a violation of his constitutional rights.
Consequently, all of his ineffective assistance of
counsel claims are denied.
IV. PART II – EVIDENTIARY HEARING
The evidentiary hearing before me took place over
seven days. It was limited to the following four issues:
1. Waltzer‘s contacts with the Government before
June 2007, including the U.S. Attorney‘s Office
involvement;
2. Waltzer‘s communications with the Government
attorneys during the investigation of Georgiou and
other defendants;
3. Counsel were ineffective for failing to engage a
securities expert on behalf of the defense for trial;
and
4. Counsel were ineffective for failing to argue that
Waltzer‘s communications with the AUSAs were
improper.
As previously explained, nineteen witnesses testified.
Georgiou, proceeding pro se, effectively represented
himself, and was granted wide latitude in extensively
questioning the witnesses. The testimony of the nineteen witnesses was credible, persuasive, and corroborated by documentation.62 Having reviewed all of the
evidence and submissions, including the parties‘
proposed findings of fact and conclusions of law, as
well as Georgiou‘s Supplemental Brief, I make the
following factual findings and conclusions of law.
____________________
My credibility determinations are based on my observations of each witness while he or she was testifying, and
considering those observations and the witness testimony
in the context of the other evidence presented during the
hearing and at trial.
62

A102

A. FINDINGS OF FACT
1. Facts Relating To Issues Addressed At The
Evidentiary Hearing
a. Waltzer’s
Government

2006-2007

Contacts

with

the

As addressed in detail below, the government did not
produce to Georgiou in pretrial discovery certain
information (factually unrelated to this case) concerning contacts that Waltzer had with the FBI before he
began cooperating with the government in June 2007.
Those contacts involved interviews with the FBI
relating to national security information. The government did provide, however, voluminous discovery to
Georgiou concerning Waltzer‘s cooperation with the
government and his history of fraud, including his
statements about, and dealings with, Georgiou. The
government also advised Georgiou pretrial that in
June 2007, Waltzer provided information relating to
national security. Georgiou raises numerous claims
based on this disclosure issue. Based on the evidence
presented at trial and the evidentiary hearing, the
facts relating to Waltzer‘s contacts with the government and the government‘s disclosure of evidence of
those contacts are as follows:
1. On June 9, 2006, IRS Special Agent Thomas
Kauffman (―IRS Agent Kauffman‖) first confronted
Waltzer at his office in Newtown, Pennsylvania, about
―suspicious or unusual financial transactions,‖
involving companies and financial accounts that
Waltzer controlled. Waltzer denied any wrongdoing in
connection with those companies and transactions.
Waltzer claimed that, although he ―had nothing to
hide,‖ he could not explain the financial transactions
and needed additional time to research them and get a
written response to IRS Agent Kauffman. Hearing Ex.
H1 (IRS Memorandum of Interview). IRS Agent
Kauffman summarized this meeting in an IRS
Memorandum of Interview that the government
provided to Georgiou before trial. Id.
*52 2. At trial, Waltzer testified that he deflected
questions and lied to IRS Agent Kauffman in June
2006 even though he thought, at that point, that ―it‘s
A103

over.‖ He explained that he immediately hired lawyers
to help him evaluate his own potential criminal
exposure, respond to the government investigation,
and ―figure out what [his] options were.‖ Tr. 1/26/10,
210-12. Waltzer likewise admitted during the evidentiary hearing that he lied to the IRS in 2006. Tr.
9/25/17, 85.
3. Over the course of the next year, Waltzer worked
with his lawyers internally investigating his extensive
fraud activity, analyzing his financial circumstances,
and determining whether to disclose his misconduct to
the government and cooperate. Waltzer‘s lead
attorney was Stephen Delinsky (―Delinsky‖) from the
Boston office of Eckert Seamans. Ultimately, Waltzer
decided to admit his misconduct and cooperate with
the government, and did so beginning in June 2007.
Tr. 1/26/10, 212-16. Waltzer made his final decision to
confess and cooperate shortly before presenting
himself to the government in June 2007. Id. at 213;
Tr. 11/15/17, 49-50 (Vaira).
4. On June 27, July 19, August 22, and August 30,
2006, IRS Agent Kauffman spoke on the telephone
with Delinsky concerning Waltzer‘s financial
transactions which IRS Agent Kauffman was
investigating. Those telephone calls are documented
in IRS Memoranda that the government did not
produce to Georgiou before trial. See Hearing Exs.
H17 (June 27, 2006); H11 (July 19, 2006); H12
(August 22, 2006); H18 (August 30, 2006). The
conversations involved Delinsky responding to
Kauffman‘s inquiries with innocuous information and
not admitting any wrongdoing on behalf of Waltzer in
the hope that the investigation would end without the
government charging Waltzer. Tr. 9/18/17, 37-42
(Delinsky).
5. Pretrial, the government provided extensive
discovery to Georgiou concerning Waltzer‘s class
action fraud and other fraud and misconduct by
Waltzer. The class action fraud did not involve
Georgiou, and thus the IRS reports about telephone
calls with Waltzer‘s lawyers have nothing to do with
Georgiou. The IRS reports about those telephone calls
also do not contain any impeachment material about
Waltzer‘s class action fraud that the government did
A104

not disclose to Georgiou in pretrial discovery. Indeed,
these reports contain no additional impeachment
material for Waltzer. At trial, Waltzer admitted that
he lied to the IRS and was working with his lawyers to
determine whether he would ultimately confess and
cooperate. Waltzer testified that he presented himself
to the government only after he concluded that there
was no way out. Tr. 1/26/10, 211-13. The reports of
agent calls with Delinsky were not relevant or
impeaching as to Waltzer (and Delinsky was not a
witness at trial).
6. In October 2006, before Waltzer and his lawyers
determined whether Waltzer would admit to his
illegal conduct in the class action fraud scheme and
seek to actively cooperate with the government,
Waltzer‘s attorneys learned that Waltzer possessed
national security information, and that the information should be presented to the FBI. Delinsky,
whose testimony at the evidentiary hearing I find
credible, testified that in the post-9/11 world, he
generally understood that if he ―had a client that had
national security information, [he] was to make
contact with the Department of Justice and they
would determine what agency and who should be the
recipient of that [information].‖ Tr. 9/18/17, 49.
Delinsky explained that he travelled from Boston and
met his law partner, Leroy Zimmerman, in
Philadelphia to get direction from then U.S. Attorney
Patrick Meehan (―Meehan‖) about how to present this
national security information to the government.
Delinsky spoke very briefly to Meehan about this
matter and did not identify the name of his client,
Kevin Waltzer. As a result of this meeting, Delinsky
was advised to present Waltzer‘s information to FBI
agents working in the area of national security. Id. at
46-47.
*53 7. Delinsky then brought Kevin Waltzer to Philadelphia where he was interviewed regarding national
security matters by FBI Special Agent Maureen
Poulton (―FBI Agent Poulton‖). FBI Agent Poulton had
no involvement in, or knowledge of, the class action
fraud investigation. She interviewed Waltzer on
October 26, 2006, and followed up with him on
October 30, and again on November 9. On November
A105

28, 2006, as additional follow up, FBI Agent Poulton
spoke with Mr. Delinsky on the telephone about
Waltzer. See Hearing Ex. H25.
8. A little over one week later, on December 7, 2006,
FBI Agent Poulton telephoned Special Agent Robert
Dugan (―Agent Dugan‖) of the U.S. Department of
Commerce because one of the matters addressed by
Waltzer involved export issues, which are within the
expertise of the Department of Commerce. FBI Agent
Poulton arranged for Waltzer to meet with Agent
Dugan, who worked in New York. They were unable to
arrange that interview until February 15, 2007. The
information that Waltzer discussed with Agent Dugan
in February 2007 was the same information that
Waltzer had provided to FBI Agent Poulton in
November 2006. See Hearing Ex. H25.
9. FBI Agent Poulton summarized her interviews of
Waltzer and the other contacts described above in a
composite report. Hearing Ex. H25. Pretrial, the
government did not produce this composite report to
Georgiou. As discussed further below, the assigned
Assistant U.S. Attorneys discovered this report only in
connection with these habeas proceedings and
produced it to Georgiou at that time.
10. Throughout the habeas proceedings, Georgiou
has attempted to characterize Waltzer‘s provision of
national security information to the FBI, or his
interviews (or as Georgiou calls it, ―his cooperation‖)
with the FBI, as occurring over a lengthy period of
time – as broadly as from June 2006 through the time
that he formally proffered with the government in
June 2007. See, e.g., Tr. 9/18/17, 201 (Cohen), 299
(Dugan); Tr. 9/25/17, 17 (Splittgerber), 110, 112
(Waltzer). As noted above, the factual record
establishes otherwise. Waltzer‘s interviews with the
FBI occurred during a brief period, from October 26
through November 9, 2006, and if one includes FBI
Agent Poulton‘s telephone call with counsel, that
would extend to November 28, 2006. FBI Agent
Poulton, whose testimony I find credible in all
respects, appropriately characterized this as Waltzer
providing information during ―one session‖ and ―three
follow-up sessions.‖ Tr. 11/15/17, 151 (Poulton).
Georgiou exaggerates and mischaracterizes the scope
A106

and significance of these interviews.
11. The interview with the Department of
Commerce, initiated by FBI Agent Poulton on
December 7, 2006, but which did not take place until
much later (February 15, 2007), does not translate
into Waltzer ―cooperating‖ during some much larger
period. Georgiou has extended that ―cooperation‖
period in both directions – backwards to the time that
Waltzer was confronted by the IRS in June 2006
through the time he appeared for his proffer in June
2007. In making numerous legal arguments about the
significance of this alleged cooperation, Georgiou
vastly distorts the record, and the Court rejects his
version of the facts.
12. Georgiou contends that the reports showed that
Waltzer was lying to, and deceiving, the agents by
reporting on false national security information and
by not disclosing his prior frauds and misconduct
(including his conduct with Georgiou). Georgiou
further claims that the reports showed that Waltzer
himself was engaged in illegal activity in connection
with the information he was providing. The hearing
testimony credibly and overwhelmingly established
otherwise, as described below, about Waltzer and the
information he provided during these interviews with
FBI Agent Poulton. The witnesses testifying to these
facts included Waltzer, Delinsky, FBI Agent Poulton,
and Agent Dugan. The Court finds the testimony of
each of these witnesses credible and consistent in all
material respects. The Court also observed Waltzer
testify at trial, and despite the thorough crossexamination of him, he testified credibly and
consistently with the overwhelming evidence
presented by the government, including witness
testimony and independent, objective evidence. The
facts relating to the reports are as follows:
*54 a. In October 2006, in the presence of his
counsel, Waltzer presented himself to the FBI in
Philadelphia, where he spoke to FBI Agent Poulton
about national security information. The FBI
considered Waltzer as a citizen who was providing
information. Tr. 11/15/17, 67, 77, 82 (Poulton). The
FBI did not consider him an informant, cooperator, or
source working for the FBI, and the FBI was not
A107

directing Waltzer‘s conduct or actions in any respect.
Tr. 11/15/17, 76, 84, 148 (Poulton); Tr. 9/25/17, 131
(Waltzer).63
b. Because Waltzer had no such active role with the
FBI, FBI Agent Poulton did not question Waltzer
about his criminal history or background (including
his prior and ongoing frauds) and did not expect him
to volunteer that information. Tr. 11/15/17, 146-48
(Poulton). Consistent with Waltzer‘s status as a
citizen reporting information, the FBI also did not
take steps to investigate Waltzer‘s credibility or
question him about his motives. Tr. 11/15/17, 104-05
(Poulton).64
c. During Waltzer‘s 2006 interviews, Waltzer did not
tell the FBI about his prior criminal history (including
his dealings with Georgiou) since his purpose was
merely to provide information on potential ongoing
national security matters, and the FBI did not
question him about his criminal past. Tr. 9/25/17, 63,
66, 78 (Waltzer). Acting on the advice of counsel,
Waltzer provided the national security information, in
part, because he was ―hoping that it was some sort of
insurance policy because [he] had not yet decided
whether or not [he] was going to come forward to tell
the government about [his] class action frauds.‖ Tr.
9/25/17, 66, 80 (Waltzer). On the advice of counsel,
Waltzer provided this information without entering
any deals with the FBI. Waltzer was not concerned
that he could be in criminal jeopardy from these
____________________
FBI Agent Joanson also testified that Waltzer became a
cooperating witness in June 2007, and prior to that (as set
forth in the reports) he was ―just an individual coming in,
giving information to the FBI.‖ Tr. 11/15/17, 167.
63

FBI Agent Poulton explained, and the Court accepts,
that she and her fellow intelligence agents do not, as a
matter of course, seek to investigate or question the
background of every individual who provides information
because such an approach could deter individuals from
freely providing information to the FBI. Tr. 11/15/17, 14648 (Poulton). FBI Agent Poulton encounters numerous
individuals who report possible national security information to the FBI. Her role, and the role of her fellow
intelligence agents who gather intelligence, is to receive
that information and document it. Id. at 68, 81 (Poulton).
64

A108

interviews because, as he explained, ―I had no
assurances. I just knew that I was not doing anything
wrong.‖ Tr. 9/25/17, 73-75 (Waltzer); see Tr. 9/18/17,
75-78 (Delinsky).
d. Because the FBI treated Waltzer simply as a
citizen reporting information as discussed above, FBI
Agent Poulton did not consider Waltzer to be lying or
conducting himself in a dishonest or deceptive manner
when Waltzer did not voluntarily disclose his criminal
history or tell the FBI about his crimes with Georgiou.
FBI Agent Poulton likewise considered Waltzer to be
truthful about the national security information that
he provided. Tr. 11/15/17, 108-10, 149-50 (Poulton).
e. Waltzer also testified, credibly and repeatedly,
that he truthfully reported to FBI Agent Poulton
information he had received from others when he was
involved in legitimate business dealings in the Middle
East; and that he was truthful, and not deceptive, in
not disclosing his criminal past to the FBI because his
past was not a subject of the interviews, and FBI
Agent Poulton did not ask him about it. Tr. 9/25/17,
65-67, 69, 82-83 (Waltzer).65
*55 f. The information that Waltzer provided to FBI
Agent Poulton related to potential national security
matters, and did not have anything to do with
Waltzer‘s class action fraud or Georgiou. To the extent
that Waltzer mentioned any individuals who also had
been involved in fraud, he did so simply as
background to explain the source of his national
security information. These interviews cannot be read
as Waltzer disclosing his prior fraudulent activity and
somehow failing to mention Georgiou. For example,
____________________
Although issues relating to Waltzer‘s alleged drug use
and mental health have been previously litigated and are
not cognizable here, since Georgiou has repeatedly tried to
inject these issues into the proceedings, the Court also
finds that Waltzer did not lie to or mislead the FBI by not
volunteering that he was a social user of cocaine or that he
was taking medication for anxiety and panic disorder.
There is no evidence that he was ever questioned about
those matters. See also Tr. 9/25/17, 70 (Waltzer) (―I did not
consider myself to be medicated on psychiatric drugs. Paxil
was for anxiety and panic disorder‖).
65

A109

Waltzer explained that in referencing Brett Salter or
Rascal‘s Comedy Club, he was not reporting Salter ―to
the FBI for his securities dealings... The point of these
meetings and the only information I provided [about]
him was historical.‖ Tr. 9/25/17, 150-51 (Waltzer); Id.
at 154 (―This was a national security meeting. The
only reason Brett Salter was brought up was because I
had to give them historical relevance as to how I came
upon this information.‖). See also Tr. 11/15/17, 158-59
(Joanson) (In response to Georgiou questioning FBI
Agent Joanson and stating that the meetings with
national security agents involved Waltzer providing
information on securities fraud, Joanson explained,
―when he was speaking with national security agents
... he was talking about national security matters
because that would have been what they would have
been asking him about.‖).
g. The information that Waltzer provided to law
enforcement concerning potential national security
matters related to potential activities and proposals of
others and did not involve criminal conduct by
Waltzer. FBI Agent Poulton and the FBI, as well as
Agent Dugan, did not conclude from any of these
interviews that Waltzer was engaged in any
misconduct in connection with the national security
information he was providing. Tr. 11/15/17, 83, 101,
150 (Poulton). Indeed, Agent Dugan testified that ―if
an individual is calling up to give information to a
federal agency, I don‘t think that individual is
breaking the law. He came forward with information
to say that he may know of some people who want to
engage in that activity....‖ Tr. 9/18/17, 308 (Dugan).
Agent Dugan further testified, ―I cannot answer why
Mr. Waltzer came forward with this information ... but
I do know if I received this phone call from Mr.
Waltzer in my field office, the target of this
investigation would have been the company in San
Jose.‖ Id. at 312-13. Likewise, Waltzer specifically
testified concerning the potential export transaction
that he was ―not contemplating‖ engaging in this
activity, but was simply reporting to Agents Poulton
and Dugan a ―plan that they were proposing for my
involvement.‖ Tr. 9/25/17, 148-49 (Waltzer); id. at 15859 (―I wasn‘t intending upon it anyway. So it‘s as
simple as that‖).
A110

h. The Court has reviewed the information provided
by Waltzer on October 26, October 30, and November
9, 2006, as well as the information provided by
Waltzer‘s attorney, Delinsky, on November 28, 2006,
and Waltzer‘s interview with Agent Dugan on
February 15, 2007, all set forth in the composite
report entered into evidence as Hearing Exhibit H25.
The reports reflect, as the witnesses discussed above
credibly testified, that Waltzer was providing national
security information to the FBI based on information
provided by others about matters in which Waltzer
was not criminally involved. He was not reporting on
other frauds, and was not disclosing his own criminal
conduct. The reports reflect a short period of time
during which Waltzer provided national security
information and do not reflect active cooperation or
cooperation over an extended period of time. The
reports do not reflect any dishonesty from Waltzer. As
to each of these points, there was no evidence
presented at the evidentiary hearing to the contrary. I
credit the testimony of the witnesses discussed above,
which is consistent with all of the documentary
evidence. I discredit Georgiou‘s versions of these
events to the extent that they are inconsistent with
the witnesses.
i. The report of Delinsky‘s telephone call with FBI
Agent Poulton states that Waltzer had been charged
in connection with a traffic stop of a vehicle he was
driving because dogs smelled drugs. Hearing Ex. H25
at 10. That information about the stop was incorrect.
Waltzer was not charged and did not engage in any
misconduct as he was not driving his own vehicle. Tr.
9/25/17, 49, 153 (Waltzer).
*56 j. The Court finds that, based on the record,
there is no evidence that Waltzer was untruthful or
deceptive, and no reason to believe that a jury would
have concluded otherwise. There is nothing
impeaching in the reports that the government did not
produce to Georgiou before trial.
k. Considering the hearing testimony of Waltzer and
the agents, if Waltzer had been cross-examined at
trial about alleged misconduct or dishonesty based on
the reports, he would have denied engaging in any
misconduct. There is nothing of record that would
A111

contradict Waltzer, and the defense would not have
been permitted to cross-examine him with any
extrinsic evidence (if any existed). See Georgiou, 777
F.3d at 145 (finding that the Court imposed a
―reasonable limit on the scope of cross-examination‖ in
allowing Georgiou to question Waltzer about alleged
criminal acts, but not allowing further examination if
Waltzer denied the alleged act). The defense would not
have been able to successfully impeach Waltzer in any
fashion based on these reports, particularly because
they do not reflect that Waltzer was dishonest or
engaged in any wrongdoing and Waltzer would not
have testified to any wrongdoing.
l. In addition, the government did not rely on
Waltzer‘s pre-June 2007 interviews with the FBI or
the related reports in requesting a downward
departure or variance for Waltzer at sentencing based
on his cooperation. The AUSAs were unaware of these
interviews at the time of sentencing, and they did not
substantially assist in the investigation or prosecution
of another person. The information that Waltzer
provided related to overseas activity that the FBI was
unable to pursue. See Tr. 9/18/17, 192-93 (Cohen).
13. Waltzer did not perjure himself at trial in
describing his cooperation with the government as
beginning in June 2007. Likewise, the prosecutors and
agents did not allow false testimony to stand by not
―correcting‖ Waltzer. It was clear from the context of
Waltzer‘s trial testimony that, in stating he began
cooperating in 2007, Waltzer was accurately and
honestly describing his decision to proffer and actively
cooperate with the government beginning in June
2007 regarding fraudulent activity in which Waltzer
and others engaged. Tr. 1/26/10, 210-14 (Waltzer). The
Court makes this finding based on the context of the
particular statement of Waltzer, as well as the Court‘s
general credibility determination that (1) Waltzer
testified truthfully at trial and at the evidentiary
hearing; and (2) the prosecutors and agents testified
truthfully at the evidentiary hearing when they
explained that they were not aware of Waltzer‘s 2006
interviews with the FBI.

A112

b. Waltzer’s Mens Rea
14. Georgiou contends that he could have used the
reports of Waltzer‘s interviews with the FBI beginning
in October 2006 to show that Waltzer‘s mens rea
changed from that of a criminal to that of a
cooperator. Therefore, Georgiou concludes that
Waltzer could not have engaged in a conspiracy or
scheme with Georgiou during the time that Waltzer‘s
mens rea changed and that he was unable to make
that argument at trial because the government did not
produce the interview reports. The Court makes the
following factual findings in connection with this
allegation.
15. From the time that the IRS first confronted
Waltzer in June 2006 until he presented himself to
the government for his formal proffer in June 2007,
Waltzer was considering whether to confess and
cooperate with the government. He made the final
decision to cooperate shortly before appearing for his
proffer. Waltzer testified to these facts at trial. Tr.
1/26/10, 210-13 (Waltzer). The defense and the jury
were well aware of Waltzer‘s incentive and desire to
begin considering cooperation in June 2006 when he
was first confronted by the IRS and thought, ―it‘s
over.‖ Id. at 211. Indeed, as set forth below, counsel
for Georgiou both questioned Waltzer about such
motives and argued to the jury that, rather than
committing crimes with Georgiou, Waltzer was simply
trying to set up Georgiou.
*57 16. Waltzer did not begin to actively cooperate
with the government and take direction from the
government until shortly after his proffer of June 6,
2007.
17. At various times from June 2006 through June
2007, Waltzer was continuing to participate in his
fraud activity with Georgiou. Waltzer had substantial
funds ―tied up‖ in the schemes with Georgiou, and
thus concluded that he could not just walk away from
a scheme that Georgiou controlled. Tr. 9/25/17, 232-33
(Waltzer).
18. As a factual matter, Waltzer could, and did,
intend to commit crimes with Georgiou at the same
A113

time that he reported national security information to
the FBI. Id. Georgiou‘s former attorney, Pasano, who
despite admitting that he remained loyal to Georgiou,
Tr. 9/19/17, 27, also recognized the factual limitations
of Georgiou‘s ―mens rea‖ theory: Georgiou asked, ―Mr.
Pasano, when somebody is an informant or providing
or dealing with the government, is that consistent or
inconsistent with conspiratorial mens rea ....?‖ Tr.
9/19/17, 63 (Pasano). Pasano answered, ―Sadly, people
can be cooperators and still be criminals.‖ Id. at 93. In
fact, as set forth above, before June 2007, Waltzer was
not even a cooperator; he was simply providing
information to the FBI. Georgiou‘s appellate counsel,
Scott Splittgerber (―Splittgerber‖), agreed that
Waltzer could be ―simultaneously committing crimes
with the intent to commit crimes and giving
information to the FBI.‖ Tr. 9/25/17, 40 (Splittgerber).
19. At trial, Georgiou also fully exploited the facts
known to him that Waltzer was considering
cooperation soon after the IRS initially confronted him
in June 2006. In other words, Georgiou did question
Waltzer about his mens rea and argued that theory to
the jury. At trial, the defense questioned Waltzer:
Q. Now you began cooperating with the FBI, I think
you indicated around June of 2007, is that right?
A. June or July of 2007 would be correct.
Q. You told us, I think, that you had gotten a visit
from some IRS agents in June of 2006, is that right?
A. Yes, it is.
Q. I think you had said you got a lawyer and then
you met with these IRS agents, right?
A. Yes, sir.
Q. Then after the visit from those IRS agents you
said you hired more lawyers, right?
A. Yes, sir.
…
Q. You told us that you worked with all of these
lawyers going through your records and your hard
drive which had all of these e-mails on it, right?
A. Yes.
A114

Q. You were working up your finances, right?
A. Yes.
…
Q. All with the idea eventually that you were going
to walk into the government and cooperate, right?
A. That is a decision that was made later on.
…
Q. Yeah. After going through everything with your
lawyers and looking at how big a mess you were in
... and how unlikely it was you could avoid detection
because the IRS had come knocking ... you came to
an understanding that it was in your best interest to
go into the government and start cooperating?
A. I agree with that statement.
Tr. 1/28/10, 48-51.
20. Continuing this questioning later in the crossexamination, counsel asked Waltzer about an episode
in which Waltzer admitted that he was trying to sell
stock involved in the schemes and profit from the
sales. Georgiou and one of his co-conspirators, Vince
DeRosa, were upset with Waltzer, and according to
Waltzer, DeRosa threatened him. Counsel then
questioned Waltzer, asking, ―Your response to the socalled threat is to ask for Vince‘s contact information,
and you make some jokes?‖ Tr. 1/29/10, 83. Waltzer
then admitted that he was motivated, at least, in part,
to gather information against Georgiou and his coconspirators, responding, ―Yes. I asked for Vince‘s
contact information because I believed in November of
„06 that I eventually would be turning over Vince‟s
information to the authorities.‖ Id. at 83 (emphasis
added). Counsel then followed up, “So this is already
part of your plan of cooperation?” Waltzer responded,
“It‟s something I had on my mind.” Id. at 83-84
(emphasis added).66
____________________
Trial counsel also knew that Waltzer had business
dealings in the Middle East, and he asked Waltzer about
that in cross-examination: ―[P]art of the conversations that
you had with Mr. Georgiou in the years 2004 to 2007
involved dealings that you claimed you had in the middleeast, correct?‖ Waltzer answered, ―Yes, I definitely had
66

A115

*58 21. Counsel for Georgiou also argued, in closing,
that Waltzer was a self-interested liar who spent his
time from June 2006 through June 2007 putting
together his false story to sell to the government:
He spent over a million dollars of dirty money, hired
the best lawyers he could find, gathered every
document he could make fit a story he was going to
tell and after a year when he was ready he comes
into the government and he sells them the story and
they buy it. He is that good of a conman and that
good of a liar.
Tr. 2/9/10, 146.
22. Counsel similarly argued, in closing, that, after
hearing from the IRS in 2006, Waltzer tried to make
as much money as possible by taking advantage of
Georgiou, while at the same time, Waltzer was
positioning himself to cooperate against Georgiou and
others:
June of 2006, Kevin Waltzer gets that visit from the
IRS, and he knows the clock is ticking. It is just a
matter of time. So he is going to get his affairs in
order.
He is going to cash out as much as he can cash out,
and then when he is ready he is going to sell the
story to the government....
Once he has got his money, George Georgiou, his
mark, [Waltzer] does not stop there because when
Kevin Waltzer has to cooperate he has got to come
in with something.
He comes in with as much as he can. He is going to
_______________(cont'd)
conversations with him about that at various times.‖ Tr.
1/28/10, 114. In response to further questioning from
counsel on this issue, Waltzer testified that his deals in the
Middle East were ―not frauds.‖ Tr. 1/29/10, 91-92. Counsel
could not have done more if he knew about the FBI
national security interviews (which involved dealings in
the Middle East) and tried to use them against Waltzer
since Waltzer stated that he was acting legally. See
Georgiou, 777 F.3d at 144-45 (holding that district court
properly prohibited testimony and extrinsic evidence
regarding allegations of fraud perpetrated by Waltzer).

A116

be the best cooperator ever. He makes up his list ...
and one of the names on that list, George Georgiou.
Id. at 148-49.
23. These excerpts from the trial record illustrate
that Georgiou had the ammunition, which he used, to
present his theory to the jury that Waltzer was
deceiving Georgiou from June 2006 through June
2007, in order to make money and gather evidence to
cooperate against the innocent man, Georgiou. As a
factual matter, the 2006 FBI national security
interviews would have been, at best, cumulative
evidence of Waltzer‘s desire to help himself once he
was confronted by the IRS in June 2006 and began
collecting evidence to mitigate the damage of his
criminal behavior.
24. At the evidentiary hearing, former counsel for
Georgiou, Pasano, testified about the evidence relating
to Waltzer‘s contacts with the FBI prior to June 2007.
Pasano credibly explained that, as an advocate, he
would want as much evidence as possible to consider
using in impeaching a witness. Tr. 9/19/17, 39-40
(Pasano). He also recognized that, along with his
obligation to testify truthfully, he felt a continuing
―duty of loyalty‖ to Georgiou as his former client. Id. at
17. Pasano explained:
I am extremely sympathetic to the things I‘ve read
in your pleadings about things you say you weren‘t
provided because I believe I could have used some of
those things. So with me as a witness, you‘re going
to get me always agreeing with you. I wanted it all.
Good defense lawyers want it all. Whether we can
use it all is a different issue. Whether the court will
find it cumulative is a different issue. Whether it
ultimately affects a jury‘s verdict, that‘s a decision
for the Court to make.
Tr. 9/19/17, 39-40. Likewise, Georgiou‘s appellate
counsel, Splittgerber, explained that, as an ―advocate,‖
he would make whatever arguments he could about
the significance of the suppressed evidence, but,
ultimately, the Court as factfinder would determine
whether it would have mattered. Tr. 9/25/17, 27, 37.
Both Pasano and Splittgerber failed to articulate any
A117

concrete basis on which the missing evidence would
have had any impact on the trial or appeal.
c.
Alleged
Evidence

Government

Concealment

of

*59 25. Georgiou claims that there was a vast
government conspiracy to hide evidence of Waltzer‘s
pre-June 2007 interviews with the FBI and convict an
innocent man. He claims that the AUSAs, the FBI
agents working in national security, the FBI agents
assigned to Georgiou‘s case, and the IRS agent all
conspired to hide this evidence from him. Specifically,
Georgiou has attempted to show that the government
intentionally concealed from him Waltzer‘s contacts
with the FBI preceding his June 2007 formal proffer,
as well as the other reports prepared by FBI Agent
Poulton relating to Waltzer‘s national security interviews. The testimony of the witnesses overwhelmingly
establishes that the government did not try to conceal
any evidence from Georgiou. The AUSAs‘ failure to
produce this information, to whatever extent it was
discoverable, was inadvertent because the AUSAs
were unaware of Waltzer‘s pre-June 2007 contacts
with the FBI. Specifically, to address Georgiou‘s
contentions, the Court finds as follows:
26. Sometime around May 2007, Waltzer‘s lawyers
contacted Peter Schenck, then the Chief of the Fraud
Unit for the U.S. Attorney‘s Office in this District, and
advised him that they wanted to present their client
for a proffer in which he would disclose a major fraud
he perpetrated and fully cooperate with the government. Tr. 11/15/17, 37 (Vaira).
27. On June 6, 2007, Waltzer appeared in the U.S.
Attorney‘s Office and proffered, admitting to his
extensive fraud activity and agreeing to cooperate
proactively for the government. At this time, Waltzer
also provided information about numerous other
frauds involving Waltzer and others, including
information about Georgiou‘s stock fraud activity.
Waltzer also provided information about possible
national security matters. These interviews were
attended by Waltzer‘s attorneys (Delinsky, Ursula
Knight, Peter Vaira, and Jack L. Gruenstein), AUSAs
(Cohen and Paul Shapiro), and federal agents (IRS
A118

Agent Kauffman and FBI Agent Joanson). Hearing
Ex. H3.
28. IRS Agent Kauffman prepared two memoranda
of interview from this proffer session. The first
memorandum summarizes the information Waltzer
provided about his criminal history, primarily
concerning Waltzer‘s class action fraud, as well as
other frauds, such as stock fraud involving Georgiou.
Hearing Ex. H3. This memorandum ends with the
comment, ―At the end of the interview, Waltzer stated
that he believes that he has some information that
may be of interest on the war on terrorism. This
information is summarized in another memo.‖
Hearing Ex. H3 at 16. The government provided this
first memorandum to Georgiou as part of pretrial
discovery.
29. The second memorandum prepared by IRS Agent
Kauffman arising from the June 6, 2007, proffer
includes a summary of the national security
information that Waltzer provided. Hearing Ex. H3A
(redacted). The government did not provide this
memorandum to Georgiou in pretrial discovery
because it determined that it did not contain Brady or
Giglio information and was not otherwise discoverable. The information also related to potential ongoing
investigations which could be compromised if
disclosed. The Court has reviewed the substance of
this memorandum, which is set forth in Hearing
Exhibit H9 (discussed below). The information
provided by Waltzer did not have anything to do with
Georgiou, is not exculpatory as to Georgiou, and did
not involve any misconduct by Waltzer. The report
was not discoverable. Furthermore, in providing the
first report to Georgiou (Hearing Ex. H3), the government disclosed to the defense that Waltzer had
provided national security information. The substance
of Waltzer‘s disclosures on national security were of
no relevance to Georgiou‘s defense.
30. Following Waltzer‘s proffer and IRS Agent
Kauffman‘s preparation of the reports, FBI Agent
Joanson provided a copy of Kauffman‘s second report
(Hearing Ex. H3A) to FBI Agent Poulton. She copied
the substance of the report in its entirety to place it in
the database for FBI national security reports. The
A119

report was labeled, ―classified.‖ As part of the habeas
proceeding, several years later, the FBI declassified
the report in a redacted format so that it could be
provided to Georgiou. Hearing Ex. H9.
*60 31. On June 7, 2007, FBI Agent Poulton met
with Waltzer about the national security information,
mostly related to currency stolen from Iraq, and then
she prepared a report at a later date. Hearing Ex. H7.
The information provided by Waltzer did not have
anything to do with Georgiou, is not exculpatory as to
Georgiou, and did not involve any misconduct by
Waltzer. The report was not discoverable.
32. On July 27, 2007, Waltzer met with the
government for another proffer session. Waltzer
provided information on his fraud activity, including
information about Georgiou‘s stock fraud. FBI Agent
Riley prepared a memorandum summarizing the
proffer which the government produced in a redacted
form to Georgiou before trial. Hearing Ex. H16.
33. On the same day, Waltzer provided follow-up
information to FBI Agent Joanson about a national
security matter (relating to stolen currency in Iraq)
that Waltzer first presented to the FBI in June 2007.
FBI Agent Joanson then telephoned FBI Agent
Poulton to deliver that information to her. Poulton
prepared a brief ―classified‖ report about this matter.
Hearing Ex. H8. This report was not produced to
Georgiou in pretrial discovery. It had nothing to do
with Georgiou, was not exculpatory as to Georgiou,
and did not involve any misconduct by Waltzer. The
report was not discoverable. As part of the habeas
process, the FBI declassified the report in a redacted
format so that it could be provided to Georgiou.
34. FBI Agent Joanson, whose testimony the Court
finds credible in all respects, explained that he
mistakenly failed to obtain from classified FBI files,
and provide to the AUSAs, the 2006 FBI reports. This
was a completely innocent mistake and was not
designed to deprive Georgiou of information for his
trial. The Court makes this finding based on the
evidentiary hearing testimony and its review of the
reports. The government witnesses all testified
consistently that they did not try to hide this
A120

information from Georgiou, and there would have
been no reason for them to do so. The information in
the reports had nothing to do with Georgiou and, for
all the reasons discussed here, would not have helped
him at trial. The Court makes the following specific
additional factual findings in this regard:
a. FBI Agent Joanson was assigned to the Waltzer
investigation in June 2007 when Waltzer appeared for
his formal proffer. Around that time, FBI Agent
Joanson found Waltzer‘s name in FBI databases and
learned of Waltzer‘s contacts with the FBI national
security agents. Tr. 11/15/17, 156 (Joanson). Joanson
assumed that Waltzer had interviewed with national
security agents, but he did not access the reports. The
reports were classified, and Joanson did not have the
clearances to review them. Id. at 187. Instead, he
reached out to FBI Agent Poulton, who was listed as
having interacted with Waltzer, to advise her that
Waltzer had now appeared on the fraud investigation.
Id. at 162, 182-83.
b. Beginning in June 2007, Waltzer cooperated
extensively with the government in numerous
investigations and prosecutions. Around 2009, when
the government was preparing for trial in Georgiou‘s
case, FBI Agent Joanson was involved in providing
FBI documents to the AUSAs for discovery. At that
time, Joanson did not recall Waltzer‘s 2006 interactions with the FBI because he was focused on the
criminal investigation and related discovery rather
than Waltzer‘s prior national security interviews.
Thus, he did not seek to obtain the national security
interview reports for the prosecutors to review for
discovery. Tr. 11/15/17, 174, 178-80; Tr. 11/16/17 13-14
(Joanson). When Joanson took the appropriate steps
for discovery to search for Waltzer interview reports in
the FBI databases, the national security reports did
not appear because the case management system did
not reveal the existence of the classified reports where
Waltzer‘s true name was removed. Tr. 11/15/17, 181,
187; Tr. 11/16/17, 10-11 (Joanson).
*61 c. The FBI case management system changed in
2012. When FBI Agent Joanson searched the FBI
databases for Waltzer interviews, at the request of the
U.S. Attorney‘s Office in connection with this habeas
A121

litigation and Georgiou‘s requests for this information,
Joanson found notations to the 2006 reports of the
national security interviews. Tr. 11/15/17, 187
(Joanson). FBI Agent Joanson then uncovered the
reports, and as he did, he provided them to Lappen of
the U.S. Attorney‘s Office, who then provided them to
Georgiou. Tr. 9/26/17, 89-90 (Lappen).
35. The Court finds that the government did not
intentionally conceal evidence of Waltzer‘s 2006-2007
contacts with the FBI on national security matters.
Tr. 9/26/17, 138, 142 (Lappen) (explaining that
government did not intentionally conceal evidence
from Georgiou); Tr. 9/18/17, 290 (Cohen) (same); Tr.
11/16/17, 49 (Joanson) (same). The Court further
credits the testimony of the witnesses who explained
that the prosecutors who were responsible for
providing discovery to Georgiou were not aware of
Waltzer‘s pre-June 2007 provision of national security
information:
a. FBI Agent Maureen Poulton – ―I didn‘t have any
contact with the U.S. Attorney‘s Office for these
records....‖ Tr. 11/15/17, 134.
b. FBI Agent David Joanson – The first time the
AUSAs learned of Waltzer‘s 2006 contacts with the
FBI ―would have been during the habeas petitions.‖
Tr. 11/15/17, 203. Joanson never discussed Waltzer‘s
2006 provision of terrorism information with the
AUSAs prior to the habeas proceedings. Id.
c. IRS Agent Thomas Kauffman – ―I believe nothing
[regarding Waltzer speaking with the FBI in 2006]
was turned over to the U.S. Attorneys about this until
I started digging in the records getting ready for this
trial [sic (habeas evidentiary hearing) ].‖ Tr. 9/25/17,
291. Regarding Waltzer‘s 2006 provision of national
security information, Kauffman testified, ―I have
heard that there‘s a memo out there. I‘ve never seen
it. I‘ve never had access to it.... I wasn‘t aware that he
even actually came in until that point in time.... I
don‘t know whether Waltzer ever came in or Delinsky
came in.‖ Id. at 292-93.
d. FBI Agent Corey Riley – ―The first time I heard
about anything related to national security is when I
A122

was called by the U.S. Attorney‘s Office here I believe
earlier this year or last year indicating that I would
have to testify. But prior to that, no, I heard nothing
related to national security.‖ Tr. 9/19/17, 181-82.
e. ―Charlie‖ (the undercover FBI agent) – Charlie
testified that he was unaware that Waltzer had given
national security information to the FBI in 2006, and
never discussed the topic with other case agents. Tr.
9/26/17, 44.
f. Kevin Waltzer – ―What I understand is that when I
provided information to the FBI regarding national
security I understand that that had nothing to do with
the U.S. Attorney‘s Office. And to this day, I don‘t
believe that the U.S. Attorney‘s Office had any
knowledge that I provided that information in ‗06 and
‗07, and that when I started proffering in June it was
clean slate. I did not tell them, nor I believe did my
attorneys tell them that this took place. It didn‘t lead
to anything and it didn‘t seem like it would help me in
any way.‖ Tr. 9/25/17, 161; see also id. at 109 (Waltzer
stating that he did not intend to conceal from the
prosecutors his interviews with the FBI).
g. AUSA Derek Cohen – The first time that AUSA
Cohen became aware that Waltzer had provided
national security information to the FBI in 2006 was
―[w]ithin the context of these [habeas] proceedings.‖
Tr. 9/18/17, 201. ―I was unaware that Mr. Waltzer had
provided any information.‖ Id. at 205.
*62 h. AUSA Louis Lappen – Lappen first became
aware of Waltzer‘s 2006 provision of national security
information to the FBI ―[i]n connection with this
habeas litigation.‖ Tr. 9/26/17, 74. ―I didn‘t know
about the 2006 interviews that Kevin Waltzer had
with the FBI.‖ Id. at 78.
i. Paul Shapiro – ―[W]ell, if you‘re asking me when I
learned that [Waltzer] was providing information to
the FBI prior to the proffer meetings ... that was in
preparation for this hearing.‖ Tr. 9/19/17, 251. ―I have
no memory of ever learning until just in preparation
for this hearing that [Waltzer] had had any contact
with the FBI prior to that first proffer session....‖ Id.
at 268.
A123

j. Peter Schenck – The fact that Waltzer had
provided national security information to the FBI in
2006 did not come up when AUSA Schenck spoke with
Waltzer‘s attorneys in approximately May 2007. Tr.
9/25/17, 251-53.
k. Stephen Delinsky – ―I remember having no
conversations about Waltzer‘s prior cooperation on
national security issues with Mr. Lappen or Mr.
Cohen.‖ Tr. 9/18/17, 165. With regard to his initial
meeting with his law partner Leroy Zimmerman and
then U.S. Attorney Patrick Meehan seeking guidance
on where to go with the national security information
Waltzer possessed, Delinsky said that Waltzer‘s name
was not provided to Meehan. Id. at 46 (―[M]y memory
is Kevin Waltzer‘s name was never disclosed.‖).
l. Peter Vaira – ―I did not learn [that Waltzer had
spoken to the FBI in 2006] until sometime after I had
taken him to the United States Attorney [on June 6,
2007]. I can‘t recall when it was. And it was just a
vague, in passing, because it meant nothing to me. It
had nothing to do with my transaction.‖ Tr. 11/15/17,
6; id. at 26 (―I had no idea that there was a cooperation situation going on, if there was.‖).
m. Mark Cedrone – After Georgiou‟s trial concluded,
Waltzer was sentenced. Defense counsel Cedrone‘s
sentencing memorandum referenced Waltzer‘s earlier
contacts with the FBI. It was not a centerpiece of his
sentencing memorandum. Cedrone explained that he
did not discuss the prior FBI contacts with the
prosecutors, did not discuss that aspect of the
sentencing memorandum with them, and did not raise
the issue at Waltzer‘s sentencing hearing. Tr. 12/1/17,
38-39, 42-43, 45-46; see also Tr. 9/26/17, 94-95
(Lappen) (explaining that the government did not
discuss with Cedrone the reference in the sentencing
memorandum to Waltzer‘s earlier contacts with the
FBI; it was not important relative to the sentencing
issues, and the reference to an earlier date for
cooperation appeared to be a typographical error).
n. Daniel Koster – When asked if he was aware that
Waltzer spoke to the FBI in 2006, Koster responded, ―I
have no knowledge of when Mr. Waltzer did speak to
the government or didn‘t speak to the government.‖
A124

Tr. 11/16/17, 67.
36. As discussed in the Conclusions of Law below,
the Court finds that the evidence that the government
failed to produce was not favorable or material. The
Court finds, as it has repeatedly in this case, as a
factual matter, that the evidence against Georgiou
was overwhelming and that the new evidence neither
undermines confidence in the outcome of the trial nor
would have made any difference in cross-examining
Waltzer or any other witness.
*63 37. The Court also accepts the hearing testimony
of Daniel Koster, whom it finds credible in all
respects, that after reviewing the missing evidence of
Waltzer‘s pre-June 2007 interviews with the FBI, if
Koster had such evidence at the time of trial, it would
not have changed his trial testimony. Koster
explained that his testimony did not depend upon the
credibility of Waltzer, as it was based on objective,
independent evidence. Tr. 11/16/17, 133-34. This
testimony is also consistent with Koster‘s trial
testimony, which I also credit, concerning the basis of
his analysis. At trial, Koster explained that he based
his analysis on financial and trading records and
other objective evidence and his testimony reflected
that. Tr. 2/2/10, 252-56; Tr. 2/3/10, 69-70. As a factual
matter, considering the entire hearing and trial
records, the Court finds that there is nothing in any
reports which were not provided pretrial to Georgiou
that would have had any impact on Koster‘s
testimony.
d. Waltzer’s Communications
During Investigation

with

AUSAs

38. Georgiou contends that Waltzer‘s communications with the AUSAs were improper and that he
was deprived of the opportunity to present that to the
jury. Waltzer began actively cooperating in numerous
undercover fraud investigations during the summer of
2007. His cooperation involved making over 1,000
recorded telephone calls, and attending recorded
meetings, with numerous subjects and targets, only
one of which was Georgiou.
39.

The

AUSAs

assigned
A125

to

the

undercover

operations involving Waltzer, Lappen (who replaced
Paul Shapiro) and Cohen, worked closely and actively
with Waltzer and the assigned FBI Agents, Joanson
and Corey Riley. The AUSAs and agents frequently
worked on these matters together at the United States
Attorney‘s Office. Tr. 9/26/17, 57-58 (Lappen);
11/16/17, 33 (Joanson); Tr. 9/18/17, 219-21 (Cohen).
40. During the undercover operations, there is no
dispute that Waltzer communicated with the AUSAs
and the agents on the telephone and that Waltzer‘s
telephone records reflect numerous calls from Waltzer
to the cellular and office telephone numbers of the
AUSAs. See § 2255 Pet., Ex. 6 (telephone records).
41. The telephone records do not show whether any
particular call resulted in the parties speaking,
Waltzer leaving a voicemail, or Waltzer hanging up
because nobody answered the call. In fact, the records
reflect numerous calls of only one or two minutes in
duration, many of which easily could have been calls
in which the parties did not speak. The records also do
not show who participated in any particular phone
call, whether there was more than one person on the
phone call, or whether the call had anything to do
with Georgiou. See § 2255 Pet., Ex. 6.
42. The Court credits the testimony, highlighted
below, of Waltzer, the agents, and the AUSAs who
testified consistently and credibly about the calls with
Waltzer and makes the following specific findings:
a. Many of the calls (if the parties connected at all)
were brief and involved only ministerial matters. See,
e.g., Tr. 9/18/17, 258-59 (Cohen) (―So I can‘t say on a
particular call what the topic was, I can‘t say who was
on the line, I can‘t say if the call actually occurred, if it
was a one minute thing. I can tell you that, generally
speaking, there would be logistical things, but if there
was something significant, then we would try to make
sure that we had an agent there.‖); id. at 219-20
(Cohen); Tr. 9/26/17, 62 (Lappen) (―I know Waltzer
might call us and say he‘s going to meet at a certain
time and say I‘m going to be there in ten minutes.... if
he was going to call about anything of any substance,
we would try to get agents on the phone.‖).

A126

b. Many of the calls involved matters unrelated to
Georgiou because the government was investigating
numerous other subjects and targets unrelated to
Georgiou. Tr. 9/18/17, 258 (Cohen) (―I spoke to
[Waltzer] with regard to investigations involving
dozens of people. It wasn‘t – it wasn‘t just Mr.
Georgiou.‖); id. at 221 (Cohen); Tr. 9/26/17, 57
(Lappen) (the AUSAs and agents ―worked very closely
on a daily basis on [Georgiou‘s case] as well as
literally dozens of other matters that would arise in
connection with Kevin Waltzer‘s cooperation‖).
*64 c. To the extent that a call involved substantive
issues, the AUSAs generally had the agents
participate in the call, either in person, if they were
working in person together at the time of the call, or
by connecting via a conference call. Tr. 9/18/17, 259
(Cohen) (―[I]f there was something significant, then we
would try to make sure that we had an agent here.... I
don‘t recall an instance where something that would
have been significant occurred that we didn‘t get
agents involved.‖); id. at 219-20 (Cohen); Tr. 9/26/17,
62 (Lappen) (―[I]t was certainly my practice if
[Waltzer] was going to call about anything of
substance, we would try to get agents on the
phone....‖); id. at 56-57 (―There‘s no way that there
were hundreds of one on one conversations with Kevin
Waltzer.... [W]e worked very closely together on this
case, along with the agents. It was very much a team
effort.‖).
d. The agents and AUSAs worked together as a team
so that, regardless of who participated in a call, they
made decisions as a team about the undercover
operations involving Georgiou or any other target or
subject. Tr. 9/18/17, 255 (Cohen) (―To the extent we
were giving instructions, we were working as a team
and we would discuss with each other.‖); Tr. 9/26/17,
62 (Lappen) (―[W]e, as an investigative team, talked to
Waltzer [about investigative matters] ... if anything
had any substantive, meaty issue, those conversations
involved multiple participants from the U.S.
Attorney‘s Office and the FBI talking to Waltzer.‖); Tr.
11/16/17, 48 (Joanson) (the agents and AUSAs worked
closely together in the undercover operation involving
Waltzer). Additionally, the AUSAs and agents did not
A127

give Waltzer instructions to do anything improper. Tr.
9/18/17, 282 (Cohen).
43. Thus, based on this testimony, which the Court
credits, the Court rejects Georgiou‘s repeated factual
allegation that there were ―hundreds of one-on-one
calls‖ between Waltzer and the AUSAs. Likewise, the
Court rejects Georgiou‘s implications that any such
calls with AUSAs involved any matter of substance
related to Georgiou‘s case, and that there was something improper about those communications. I
discredit Georgiou‘s reading of the telephone records,
which is self-serving and not supported by the
evidentiary hearing testimony. Also, to the extent that
Georgiou claims that there was a secret communication arrangement between the AUSAs and Waltzer,
we reject this claim.
44. In addition, as several witnesses testified
credibly, there is nothing out of the ordinary or
improper in the criminal investigative process about
an AUSA communicating with a cooperating witness
during an undercover operation, even if those
communications are ―one on one.‖ Tr. 9/25/17, 259-61
(Schenck); Tr. 9/18/17, 142 (Delinsky). Notably,
Georgiou‘s former counsel, Pasano, also explained that
there is nothing improper about AUSAs speaking with
cooperators during ongoing investigations, that it
―happens all the time,‖ and that he never would want
to call an AUSA to the stand to testify about his
contacts with a cooperator. He said that he saw ―no
tactical advantage in this case to pursuing any of
those issues.‖ Tr. 9/19/17, 101-02 (Pasano).
45. The government provided in pretrial discovery
the Waltzer telephone records that form the basis of
these claims of improper contacts. Thus, they were
available to the defense for whatever argument
counsel could make. Tr. 9/19/17, 98 (Pasano).
46. Pasano credibly conceded that he did not know if
he could have been able to make any argument at trial
based on Waltzer‘s contacts with the AUSAs even if he
knew what they said in their conversations. As a
strategic matter, he would have preferred to argue
that Waltzer was lying rather than try to make some
argument based on instructions that the AUSAs were
A128

giving Waltzer. He also recognized that many of the
calls listed in the records were brief and may not have
resulted in any conversation at all. Tr. 9/19/17, 26-28,
99-100 (Pasano).
*65 47. The agents and AUSAs also did not provide a
script for Waltzer to prepare him for meetings, calls,
emails, or other communications with Georgiou. They
orally gave Waltzer general direction about the
communications. The primary direction that the
AUSAs and agents gave to Waltzer was to allow
Georgiou to speak about his historical and ongoing
fraud activity. Tr. 9/25/17, 193 (Waltzer) (agents and
AUSAs gave ―framework on what to accomplish....
There was nothing scripted‖); id. at 186 (agents and
AUSAs instructed Waltzer generally in the investigation and told him to let the target or subject speak);
Tr. 11/16/17, 34-35, 49-50 (Joanson) (agents and
AUSAs did not script communications for Waltzer;
they gave general direction); Tr. 9/19/17, 188-89
(Riley) (same).
48. In particular, the AUSAs and agents did not
script Waltzer‘s communications with Georgiou near
the end of August and beginning of September 2008,
when the parties were arranging for the test trade of
Northern Ethanol stock. Tr. 9/19/17, 187-89 (Riley). As
a related point, in light of the claims raised by
Georgiou, the Court finds that the record is unclear
about whether Waltzer possessed the FBI recording
device during the test trade, and for the reasons
addressed in the Conclusions of Law, resolution of this
matter is of no factual or legal significance. The
witnesses testified consistently that they recalled
Waltzer possessing the recording device most of the
time, but could not be certain whether he possessed
the device on that particular occasion.
e. The Decision by Counsel to Forego Use of
Expert at Trial
49. Georgiou contends that former counsel were
ineffective for failing to engage and use an expert at
trial. The Court accepts and credits former counsel‘s
testimony that, working closely with Georgiou, he
made a wise, strategic decision not to call an expert.

A129

50. In the months preceding trial, Georgiou worked
closely with counsel in formulating a strategy to
defend the case. He remained an active participant
during the trial and played a significant role in
decisions about his defense. Georgiou was a highly
intelligent and sophisticated client who was also
extremely knowledgeable about securities matters. Tr.
9/19/17, 76-78, 111-12 (Pasano).
51. Before trial, Georgiou and his counsel discussed
the possibility of engaging an expert witness in the
field of securities to testify at trial. Counsel took the
additional step of speaking with a securities expert
and discussed the issues in the case with him, but
concluded, as a strategic matter, that it would be
disadvantageous to call an expert: ―I made a determination that if we tried to call a securities expert, the
government‘s cross examination of that witness, their
ability to use emails, their ability to use recordings,
none of which the witness would have a basis to say
much about ... would give the government ... a second
closing argument ... at the end of the trial and just
before Mr. Georgiou‘s testimony.‖ Tr. 9/19/17, 110. All
of Georgiou‘s attorneys and Georgiou agreed that the
defense should not call an expert witness because, as a
strategic matter, it did not make sense to call such a
witness and instead, they ―focused on George as a
witness‖ to defend the charges. Id. at 112.
52. The Court credits Pasano‘s testimony and agrees
with him that, as a factual matter, an expert would
not have benefitted Georgiou. An expert could not
have explained away the mountain of incriminating
evidence against Georgiou, including, inter alia, the
devastating testimony from witnesses, the recordings,
the emails, the trading and financial records,
Georgiou‘s self-recorded confession. The government‘s
cross-examination of such an expert would have only
highlighted and repeated for the jury the numerous
examples of blatant stock manipulation perpetrated
by Georgiou. The government would have turned a
defense securities expert into a witness for the government as such an expert would have had to concede
that significant aspects of the case involved Georgiou
and others engaging in stock fraud. Counsel wisely
chose to use his cross-examination skills to attack the
A130

testimony of Koster and other witnesses, present the
defense case through Georgiou, and forego calling an
expert.
*66 53. Counsel thoroughly and effectively crossexamined Koster at trial and did his best to discredit
Koster‘s handling of the independent evidence establishing Georgiou‘s guilt. Because much of Koster‘s
testimony merely involved summarizing this objective
evidence that connected Georgiou and his coconspirators to the fraud activity, counsel had a difficult, if
not impossible task, in trying to undermine Koster‘s
testimony. See Gov‘t Trial Ex. 305. An expert could
not have helped Georgiou.
54. Separately, Georgiou has repeatedly argued that
Koster‘s analysis was flawed. His argument suggests
both that a securities expert and a more vigorous
cross-examination of Koster would have discovered
these flaws and would have revealed the falsity of
Waltzer‘s testimony and changed the outcome of the
trial. (See Doc. No. 380, 20-21.) Relying on a summary
chart that he created, Georgiou claims:
There were essentially NO market dealings between
Waltzer and Georgiou in YEAR 1 [(2004)] of the
alleged conspiracy.... Waltzer was a net seller YEAR
2 [(2005)], and a net seller YEAR 3 [(2006)] (during
which time he was an FBI informant) .... There was
NEVER a time Waltzer was buying up and holding
Neutron shares to ―soak up the float.‖
(Id. at 20.) Georgiou has failed to prove that: counsel
were ineffective; a securities expert would have helped
him; and there is a reasonable probability that, but for
Pasano‘s decision not to engage a securities expert,
the result of the trial would have been different.
55. First, Georgiou has failed to establish the
accuracy or completeness of his summary. Second,
assuming that it is accurate and complete, it does not
begin to undermine the evidence establishing his
guilt. The government proved the stock manipulation
schemes through, among other evidence, Waltzer‘s
testimony and exhibits showing Georgiou directing
Waltzer‘s trading in a manner that was reflective of a
manipulation scheme (regardless of how Waltzer
A131

bought and sold); through the independent and
objective trading records, financial records, and other
objective evidence that Koster presented that showed
Georgiou and his co-conspirators manipulating stock;
through other witnesses who testified about
Georgiou‘s manipulative activity and fraudulent
dealings in the Target Stocks;67 and through the
numerous incriminating recordings of Georgiou. None
of this evidence from numerous different sources
depended upon whether Waltzer was selling more
Neutron than he was buying at any particular point in
the conspiracy. Counsel thoroughly cross-examined
Koster on his summary presentation and suggested
that Koster was biased in favor of the government and
selective in his presentation of certain trades, and
that Georgiou‘s good faith established his innocence.
See, e.g., Tr. 2/3/10, 70 (Counsel asking Koster, ―Now,
in making this slide ... you engaged in – in a certain
selection as to what you wanted to put on this....‖); id.
at 204 (Counsel pointing out to Koster, that to prove a
manipulation, ―there has to be the intent to deceive?‖).
Counsel also suggested in cross-examining Waltzer
that Waltzer was a frenetic stock trader acting on his
own in buying and selling Neutron, Avicena, and other
stocks without any direction from Georgiou. Tr.
1/29/10, 9-28. Waltzer also admitted on crossexamination that he was buying Neutron stock (at
least $500,000) before meeting Georgiou and that,
throughout their scheme together, Waltzer was trying
to make money by selling stock at a profit. Tr. 1/28/10,
139-40, 143, 146; Tr. 1/29/10, 9-10. Thus, Counsel did
attack Waltzer on his alleged independent trading and
profiting in these stocks. He could not have changed
the jury‘s view of the evidence with additional
questions about Waltzer‘s stock sales during the time
that Waltzer was engaged in manipulative activity
with Georgiou. No additional cross-examination of
Koster or any other witness concerning Waltzer‘s
trading activity, with or without the aid of an expert,
____________________
See, e.g., Tr. 2/2/10, 258-59 and Gov‘t Ex. 305 (Koster
explaining that he identified numerous trades in Avicena
and Neutron involving accounts associated with Georgiou
and his coconspirators in which there was no change of
beneficial ownership, and trades near the end of the day,
―marking the close‖).
67

A132

would have helped Georgiou. Georgiou failed to
present any evidence at the evidentiary hearing or
elsewhere, much less prove, that counsel were ineffective in his cross-examination or in failing to engage
an expert and failed to prove that he was prejudiced.
2. Georgiou’s
Testimony

Attempt

To

Present

False

*67 56. During the evidentiary hearing, Georgiou
sought to call federal inmates Jeffery Bellamy, Adam
Lacerda, and Michael Vandergrift as witnesses based
upon affidavits and information Georgiou submitted to
the Court allegedly from these witnesses.
57. Among other things, Georgiou claimed that
Bellamy would testify that Waltzer had confessed to
Bellamy in prison that Georgiou had never engaged in
criminal conduct with Waltzer, and that Waltzer had
framed Georgiou and lied at trial.
58. Instead, Bellamy appeared at the hearing and
testified as set forth below. The Court finds Bellamy‘s
testimony in all respects credible and consistent with
other evidence adduced at the hearing and at trial.
59. Bellamy said that he and Georgiou had recently
spoken, and that Bellamy had acknowledged to
Georgiou that he, Waltzer, and another federal
inmate, Michael Vandergrift, had been housed
together at one point. Bellamy told Georgiou that he
had spoken with Waltzer during the time they were
housed together. Tr. 9/19/17, 142 (Bellamy).
60. Bellamy testified that Georgiou had offered him
$10,000 to testify for Georgiou at the evidentiary
hearing and provided Bellamy with an affidavit to
sign. Id. at 143. Specifically, Bellamy testified, ―You
told me that Mr. Waltzer framed you, you got
arrested, and you were willing to pay me if I‘d be a
witness for you.‖ Id. at 143.
61. Bellamy, who has signed a cooperation plea
agreement in an unrelated federal case, did not sign
the affidavit prepared by Georgiou, immediately
turned the affidavit over to his attorney, and notified
one of the AUSAs prosecuting his unrelated case of
the incident. Id. at 143-44; Hearing Ex. H14 (Bellamy
A133

cooperation plea agreement).
62. At the hearing, Bellamy testified that all of the
information contained within the affidavit that
Georgiou wanted him to sign and testify to was false,
except some background facts such as Bellamy having
been housed with Vandergrift and Waltzer, and
Bellamy having recently met Georgiou. Bellamy
explained that all the information in the affidavit
about statements that Waltzer had purportedly made
to Bellamy about Waltzer‘s wrongdoing and
Georgiou‘s alleged innocence was false. Id. at 148-56;
Hearing Ex. H13 (Bellamy Affidavit). Some of the
falsehoods to which Georgiou asked Bellamy to testify
in exchange for $10,000 were:
a. Bellamy was ―familiar with Georgiou‘s name,
because Waltzer had spoken to [Bellamy] about him
on many occasions[.]‖ Hearing Ex. H13, ¶ 4.
b. ―Waltzer admitted to [Bellamy] that he lied in
Georgiou‘s case. Waltzer admitted there was no illegal
conduct between him and Georgiou. Waltzer admitted
that he used Georgiou to ‗get a lot of money,‘ and then
he had to ‗finesse‘ his testimony to make it seem like
their dealings were criminal[.]‖ Id. ¶ 9.
c. ―Waltzer admitted to me that he was addicted to
cocaine, and continued using cocaine through-out the
time he was working undercover, but had to be careful
when making recordings for the government. Waltzer
admitted that ‗there is a way‘ to fool targets and ‗play
with the recordings.‘ Waltzer explained that he was
‗flushing‘ to beat the drug tests, because cocaine only
stays in the system for 72 hours, and, that he was
buying and taking products from GNC to cleans [sic]
his system[.]‖ Id. ¶ 12.
*68 d. ―Waltzer spoke non-stop about his efforts to
obtain and provide the Government with terrorism
information. He claimed this had been going on for ten
years. He said some of what he reported was made up,
to keep the government interested. Waltzer admitted
that he would create a story around a piece of information, often something he read or heard from
someone else.‖ Id. ¶ 13.
e. ―Waltzer told Adam Lacerda everything. Lacerda
A134

knows all of Waltzer‘s schemes and lies....‖ Id. ¶ 14.
f. ―I have not been offered, nor have I asked, for any
compensation for this affidavit.‖ Id. ¶ 15.
63. The Court finds Bellamy to have testified
credibly regarding his interactions with Waltzer and
Georgiou. The Court bases this finding on the
evidence presented at the trial and the evidentiary
hearing, as well as its observations of Bellamy as a
witness. The facts that Georgiou had attempted to
present through Bellamy, which Bellamy denied, are
entirely inconsistent with the evidence presented
throughout the proceedings in this case. It is not
credible, considering the record as a whole, that
Waltzer would have said to fellow prisoners that he
fabricated his testimony against Georgiou.
64. On the other hand, the Court finds Georgiou‘s
conduct with regard to Bellamy to be consistent with
his conduct at trial in trying to persuade another
witness, Alex Barrotti, to lie for him. Tr. 2/8/10, 303305.
65. The Court also finds that the facts set forth in
the false affidavit prepared by Georgiou match closely,
in tone and substance, with the baseless factual
allegations that Georgiou has repeatedly been
pursuing in this case, further supporting the
testimony of Bellamy that Georgiou fabricated the
affidavit.
66. The Court also credits the testimony of Waltzer
who, consistent with Bellamy, testified at length
regarding the falsity of material portions of the
Bellamy affidavit prepared by Georgiou. Tr. 9/25/17,
235-39.
67. Consistent with his approach with Bellamy,
Georgiou also sought to call to testify federal inmates
Adam Lacerda and Michael Vandergrift. Georgiou
submitted an affidavit from Vandergrift and
contended that he and Lacerda would also testify that
Waltzer admitted to them that he fabricated his
testimony against Georgiou. The affidavit and
representations about Lacerda were similar in tone
and substance to the affidavit that Georgiou
submitted purporting to be from Bellamy. (Doc. No.
A135

443, Ex. 1 (Vandergrift Affidavit).) Lacerda and
Vandergrift did not appear to testify, and instead,
through their attorneys, asserted their Fifth
Amendment rights to remain silent.
68. Angie Halim (―Halim‖), counsel for Adam
Lacerda, and Michael Giampietro (―Giampietro‖),
counsel for Michael Vandergrift, appeared before the
Court on September 18, 2017, on behalf of their
clients.
a. Halim advised that ―[i]f asked any questions
regarding interactions with, communications with,
conversations with Mr. Waltzer, Mr. Lacerda would
assert his Fifth Amendment privilege not to testify.‖
Tr. 9/18/17, 6 (Halim). Following a further ex parte
communication with the Court at sidebar, the Court
found that if called to testify, Mr. Lacerda would raise
―his Fifth Amendment privilege and that he would
have a valid reason for doing so.‖ Id. at 9.
b. Giampietro, after reviewing an affidavit given to
Vandergrift by Georgiou, and signed by Vandergrift,
advised the Court that if his client were to testify ―he
would be subjecting himself to ... obstruction of
justice.‖ Id. at 11; see id. at 25 (Giampietro) (―I believe
there is a potential obstruction of justice charge.‖).
Based upon what Mr. Giampietro relayed to the Court
in open court, and ex parte at sidebar, the Court found
that Vandergrift would have ―a valid exercise of the
Fifth Amendment‖ if called to testify. Id. at 26.
*69 69. Thus, while Georgiou claimed that witnesses
would appear on his behalf and support his sweeping
allegations that Waltzer and the government manufactured a case against him and concealed exculpatory
evidence, there was no such testimony presented.
70. The Court need not, and does not, rely on these
facts relating to the testimony of Bellamy and matters
relating to the other prisoner witnesses, in resolving
any of the specific claims presented by Georgiou in
this § 2255 petition. However, since Georgiou injected
these matters into the proceedings, the Court does not
ignore the facts as the Court has found them and
notes that they reflect poorly on Georgiou‘s credibility

A136

and certainly fail to support any of his claims.68
B. CONCLUSIONS OF LAW
Georgiou‘s first series of claims arise from his general
complaint that the government failed to disclose Kevin
Waltzer‘s contacts with the government at certain
times between June 2006, when Waltzer was first
confronted by the IRS, and June 2007, when Waltzer
admitted to his criminal activity and began proffering
and actively cooperating with the government.
Georgiou contends that (1) the government suppressed
Brady material in not disclosing information to
Georgiou about Waltzer‘s contacts with the
government between June 2006 and June 2007;69 and
(2) Waltzer did not act with the mens rea of a coconspirator during the time of his alleged secret
cooperation, and thus the charges in the indictment in
which Waltzer was identified as a co-conspirator
during that period should have been dismissed.
1. Georgiou also alleges that the government violated
Napue v. Illinois, 360 U.S. 264 (1959), by knowingly
eliciting and failing to correct the following allegedly
false testimony from Waltzer: (1) that Waltzer first
began cooperating with the government in June 2007,
and not in 2006 as Georgiou alleges; (2) that Waltzer
received instructions ―solely‖ from FBI agents, when
he also received instructions from the AUSAs; (3) that
the government instructed Waltzer on his ―pitch‖ to
Georgiou about ―legitimate dealings in the Middle
East,‖ when supposedly the government did not so
instruct him; (4) that Waltzer helped Georgiou, as
part of their stock fraud scheme, to ―soak up the float,‖
i.e., purchase outstanding shares of Neutron stock;
(5) that Waltzer would lose the benefits of his plea
agreement if he lied to the jury, when supposedly he
____________________
In his ―Summary of Evidentiary Hearing, Appendix 1,‖
Georgiou summarized Bellamy‘s testimony as ―Bellamy
provided no relevant testimony pertaining to the due
process violations before the Court‘s consideration (pp. 137160).‖ (Doc. No. 556, app. 1.)
68

We reiterate that our discussion of Brady includes
Georgiou‘s arguments pertaining to Giglio material. We
will refer to all of the arguments, collectively, as Georgiou‘s
Brady claims.
69

A137

later testified that he would gain leniency even if he
―believ[ed] differently from his testimony‖; and
(6) that Waltzer always possessed the recording device
throughout the undercover operation, when post-trial
Waltzer supposedly testified differently stating that
there may have been times when he did not possess
the device. (Doc. No. 542, Attachment A, N-1 through
N-6.)70 For the reasons set forth below, Georgiou‘s
Brady and Napue claims fail procedurally and on the
merits.
1. The Brady And
Procedurally Defaulted

Napue

Claims

Are

*70 2. In order to obtain collateral review on a
procedurally defaulted claim, a habeas petitioner
must show either (1) cause for the procedural default
and actual prejudice, or (2) that he or she is actually
innocent. See Bousley, 523 U.S. at 622; Hodge, 554
F.3d at 378-79. Georgiou claims that he is actually
innocent, but for all of the reasons previously set
forth, and which will be set forth below, we reject his
claim that he is factually innocent. See Sweger, 294
F.3d at 523 (―Actual innocence means ‗factual
innocence, not mere legal insufficiency.‘ ‖). Therefore,
Georgiou can only cure his procedural default by
establishing ―cause and prejudice.‖
a. The Brady Claims
3. Regarding Brady, the government has conceded,
and testimony from the evidentiary hearing supports,
that the government did not inform Georgiou of, or
provide the FBI reports concerning, Waltzer‘s preJune 2007 national security interviews with the FBI.
____________________
Georgiou‘s Napue claims are raised both in his initial
§ 2255 Motion and his Motion to Amend Habeas Petition.
(Doc. Nos. 307, 542.) Although we denied Georgiou‘s Motion
to Amend the Habeas Petition, we will address the
additional Napue claims here as additional examples of the
alleged Napue violations raised by Georgiou in his § 2255
Motion. Georgiou made broad claims of Napue violations in
his initial Motion, the Court conducted an evidentiary
hearing, and Georgiou was able to rely on any of that
evidence to support his broad claims, even those on which
he sought permission to amend his § 2255 Motion.
70

A138

4. As described above in the Findings of Fact, the
prosecutors did not provide this information or the
reports to Georgiou because they were unaware of the
existence of the interviews or report until this habeas
proceeding. Findings of Fact, supra ¶¶ 34-35.
5. In light of the above, Georgiou has established the
requisite cause. See Pelullo, 399 F.3d at 223.
6. Even though Georgiou has shown cause for his
failure to bring his Brady claims, he cannot show
prejudice because the claims lack merit.
7. To establish prejudice, a petitioner must not
merely show that there were errors that created a
possibility of prejudice, but that the errors ―worked to
his actual and substantial disadvantage, infecting his
entire trial with error of constitutional dimensions.‖
Holland v. Horn, 519 F.3d 107, 112 (3d Cir. 2008)
(quoting United States v. Frady, 456 U.S. 152, 170
(1982)).
8. ―The analysis of prejudice for the procedural
default of a Brady claim is identical to the analysis of
materiality under Brady itself.‖ Albrecht v. Horn, 485
F.3d 103, 132 (3d Cir. 2007) (quoting Slutzker v.
Johnson, 393 F.3d 373, 385 (3d Cir. 2004)). ―If the
withheld evidence was not material to [Petitioner‘s]
trial, then barring his federal habeas claim on
procedural grounds would not create prejudice.‖ Id.
(citing Slutzker, 393 F.3d at 385).
9. Thus, our discussion of materiality under Brady
will also be our discussion of prejudice for the
procedural default. As will appear, we find that
Georgiou has not shown materiality; therefore, there
was no prejudice. Consequently, we conclude that
Georgiou has not demonstrated prejudice to excuse his
procedural default as to his claims regarding the
government‘s failure to produce evidence of Waltzer‘s
pre-June 2007 contacts with the government.
b. The Napue Claims
10. Georgiou‘s
procedurally:

claims

under

Napue

also

fail

a. Georgiou first argues that Waltzer lied about his
A139

interactions with the FBI. Georgiou contends that
Waltzer should have testified that he first started
proffering with the FBI in 2006, not in 2007, when he
actually began cooperating. (Doc. No. 542, Attachment
A, N-1.) Assuming, for argument only, that Georgiou
could establish cause based upon the FBI composite
report that was not disclosed until this habeas
proceeding, Georgiou still cannot establish prejudice.
The evidence before the Court is clear, and provides
no support for Georgiou‘s claim that Waltzer began
cooperating with the government in 2006 when he
provided national security information to the FBI on a
few occasions. To the contrary, considering the record
as a whole, Waltzer truthfully answered questions
about his cooperation which began on June 6, 2007.
See Findings of Fact, supra ¶¶ 12-16. As Georgiou‘s
claim is entirely lacking in merit, he suffered no
prejudice. This Napue claim is procedurally defaulted.
*71 b. Georgiou next alleges that Napue was violated
when Waltzer testified that he was taking directions
―solely‖ from the FBI, when he also received instructions from the AUSAs. (Doc. No. 542, Attachment A,
N-2.) This claim arises from Georgiou‘s analysis of
telephone records that were in his possession prior to
trial; therefore, he cannot establish cause for failing to
timely raise this claim. Likewise, Georgiou cannot
establish prejudice because he fails to demonstrate
that this claim worked to his actual and substantial
disadvantage infecting his entire trial with error of
constitutional dimensions. Moreover, the record is
clear that Waltzer was taking instruction from both
the AUSAs and agents who were working on his
investigation, and that all interactions between the
AUSAs, agents, and Waltzer were proper. Findings of
Fact, supra ¶¶ 42-44, 47. Similarly, it is clear from the
record that Waltzer testified truthfully at trial about
taking direction from the government and never said
that the AUSAs did not participate in guiding him in
the undercover operation. Georgiou cannot establish
prejudice based upon a meritless claim. This Napue
claim is procedurally defaulted.
c. Georgiou also contends that Waltzer lied when he
testified that the government instructed Waltzer on
his ―pitch‖ to Georgiou about ―legitimate dealings in
A140

the Middle East,‖ when supposedly the government
did not so instruct Waltzer. (Doc. No. 542, Attachment
A, N-3.) Georgiou was aware, prior to trial, that
Waltzer had business dealings in the Middle East. If
Georgiou believed Waltzer was lying about the
legitimacy of the business dealings, he could have
cross-examined him on that point or raised some other
claim. Thus, Georgiou cannot establish cause for
failing to timely raise this claim. More importantly, it
is irrelevant whether the government instructed
Waltzer to mention those dealings, or whether
Waltzer merely mentioned the dealings in the course
of conversation. There is no evidence that Waltzer‘s
business dealings in the Middle East were criminal,
and they had nothing to do with Georgiou‘s case.
Georgiou could not have impeached Waltzer with this
pointless line of attack and could not have used this to
overcome the overwhelming evidence of his guilt.
Because Georgiou‘s claim is lacking in merit, he
cannot establish prejudice. This Napue claim is
procedurally defaulted.
d. Georgiou next claims that Waltzer testified falsely
that Waltzer helped Georgiou, as part of their stock
fraud scheme, to ―soak up the float,‖ i.e., purchase
outstanding shares of Neutron stock. (Doc. No. 542,
Attachment A, N-4.) This claim is based upon trading
data turned over to Georgiou in discovery; therefore,
he possessed this information pre-trial. He cannot
establish cause. As discussed below, Georgiou‘s
substantive claim regarding Waltzer ―soaking up the
float‖ is entirely without merit. Conclusions of Law,
infra ¶ 48d. There is no evidence that Waltzer lied
about purchasing this stock at Georgiou‘s direction, at
times, to ―soak up the float.‖ Even if Georgiou had
been able conduct additional cross-examination of
Waltzer, or any other witness, on the issue of ―soaking
up the float,‖ and what Georgiou believed to be errors
in the government‘s analysis, it would not have
affected the outcome of the trial. Additional crossexamination on this meritless point could not have
overcome the mountain of incriminating evidence
against Georgiou. Georgiou cannot establish prejudice.
This Napue claim is procedurally defaulted.
e. Georgiou also contends that Waltzer lied when he
A141

testified that he would lose the benefits of his plea
agreement if he lied to the jury, when supposedly he
later testified that he would gain leniency even if he
―believ[ed] differently from his testimony.‖ (Doc. No.
542, Attachment A, N-5.) This claim is not only
incoherent, but it is rooted in Georgiou‘s disproven
refrain that Waltzer lied repeatedly before, during,
and after trial. There is no evidence of record to
support Georgiou‘s claim that Waltzer lied to the jury.
Indeed, at trial, Waltzer‘s testimony was corroborated
with voluminous objective trading records, witness
testimony, and recordings of Georgiou. Even if
Georgiou could establish cause as to this claim, he
cannot establish prejudice. This Napue claim is
procedurally defaulted.
*72 f. Finally, Georgiou claims that Waltzer lied when
he testified that he always possessed the recording
device throughout the undercover operation, when
post-trial Waltzer supposedly testified that there may
have been times when he did not possess the device.
(Doc. No. 542, Attachment A, N-6.) This claim is
procedurally defaulted. Georgiou had access to all
reports relating to his case regarding Waltzer‘s
possession of a recording device prior to trial. In
addition, Waltzer‘s attorneys were aware of the
arguments that another defendant against whom
Waltzer was cooperating, James Hall, was making
about Waltzer‘s alleged failure to record exculpatory
calls. Tr. 9/26/17, 102-03. At the evidentiary hearing,
trial counsel testified that he was aware of the reports
that he could have used to argue that Waltzer did not
possess the recording device during the time that
Georgiou was discussing the test trade. Counsel
explained that he, instead, chose to make a consistent
argument to the jury that Waltzer was selectively
recording and trying to manipulate the evidence
against Georgiou. Tr. 9/19/17, 31, 135-36 (―It‘s better if
he has equipment and he‘s not recording than if he
doesn‘t have equipment.‖). Georgiou and his attorneys
could have raised whatever arguments they thought
were appropriate concerning Waltzer‘s alleged failure
to possess the device, particularly in connection with
the test trade, but they chose not to do so. Counsel‘s
strategic decisions were sound, and additional crossexamination in this area would not have had any
A142

impact on the trial. Thus, any claim relating to
Waltzer‘s possession of the recording device is
procedurally defaulted, and Georgiou cannot establish
prejudice.71
2. The Brady And Napue Claims Fail On The
Merits
a. The Brady Claims
11. Even if Georgiou‘s Brady claims were not
procedurally defaulted, they fail on the merits.
12. To prove a Brady violation, a defendant must
show the evidence at issue meets the following three
critical elements: (1) it must be favorable to the
accused, either because it is exculpatory or
impeaching; (2) it must have been either willfully or
inadvertently suppressed; and (3) it must have been
material such that prejudice resulted from its
suppression. Dennis, 834 F.3d at 284-85 (citations
omitted).
13. Brady requires disclosure of information actually
known to the prosecution and ―all information in the
possession of the prosecutor‘s office, the police, and
others acting on behalf of the prosecution.‖ Wilson,
589 F.3d at 659. ―[A] Brady violation may be found
despite a prosecutor‘s ignorance of impeachment
evidence.‖ United States v. Risha, 445 F.3d 298, 306
(3d Cir. 2006).
14. ―Evidence is favorable if it is exculpatory or
impeaching.‖ Rivera v. Penn., 187 F. App‘x 240, 245
(3d Cir. 2006) (citing Bagley, 473 U.S. at 674).
―Evidence of slight, trivial or hypothetical favorability
obviously does not sway us as much in our materiality
analysis as does evidence of a clearly impeaching or
____________________
To the extent that Georgiou makes a universal argument
that the procedural default rule does not apply because his
prior counsel were ineffective, this argument fails. As
discussed, we find Georgiou‘s claims groundless; therefore,
we, likewise, deny his claim of ineffective assistance, as
counsel cannot be ineffective for failing to raise a meritless
claim. See Strickland, 466 U.S. at 691 (finding that failure
to pursue ―fruitless‖ claims ―may not later be challenged as
unreasonable‖).
71

A143

exculpatory nature.‖ Id.
15. ―[E]vidence is ‗material‘ within the meaning of
Brady when there is a reasonable probability that,
had the evidence been disclosed, the result of the
proceeding would have been different.‖ Turner, 137 S.
Ct. at 1893 (quoting Cone v. Bell, 556 U.S. 449, 469-70
(2009)). ―Materiality does not require demonstration
by a preponderance that disclosure of the suppressed
evidence would have resulted ultimately in the
defendant‘s acquittal ... [Rather], [a] ‗reasonable
probability‘ of a different result is ... shown when the
government‘s evidentiary suppression undermines
confidence in the outcome of the trial.‖ Dennis, 834
F.3d at 285 (alterations in original) (citation omitted).
Materiality of withheld evidence must be considered
collectively. Id. at 312.
16. Regarding the issue of materiality, the Third
Circuit in Georgiou, explained:
―The materiality of Brady material depends almost
entirely on the value of the evidence relative to the
other evidence mustered by the state.‖ Suppressed
evidence that would be cumulative of other evidence
or would be used to impeach testimony of a witness
whose account is strongly corroborated is generally
not considered material for Brady purposes.
Conversely, however, undisclosed evidence that
would seriously undermine the testimony of a key
witness may be considered material when it relates
to an essential issue or the testimony lacks strong
corroboration.
*73 Georgiou, 777 F.3d at 139 (quoting Johnson v.
Folino, 705 F.3d 117, 129 (3d Cir. 2013)).
17. As set forth in the Findings of Fact, the testimony at the evidentiary hearing undisputedly
demonstrated that the government did not willfully
suppress any evidence from Georgiou and that any
such suppression was inadvertent. Agent Joanson,
who was not involved in Waltzer‘s pre-2007 FBI interviews, inadvertently failed to advise the prosecutors
that those interviews occurred and did not provide
reports of those interviews to the prosecutors.
Findings of Fact, supra ¶¶ 25, 34. Thus, the prosecuA144

tors were not in a position to produce to Georgiou any
information concerning those interviews. See id. ¶ 35.
18. Since the AUSAs were unaware of the existence
of the reports, there is no record as to the AUSAs‘
assessment of whether any of the information in the
reports would have been discoverable, declassified, or
produced to Georgiou. Moreover, the substance of the
reports had nothing to do with Georgiou and were not
impeaching as to Waltzer. It is possible that the
government could have been required to advise the
defense that Waltzer provided national security
information in 2006, which would have allowed
Georgiou to question Waltzer further about his mental
state in 2006.
19. For the purpose of completing the Brady analysis
here, this Court presumes, without deciding, that the
reports of Waltzer‘s pre-June 2007 interviews would
have been declassified in the redacted format that was
provided to Georgiou during the habeas proceedings.
As such, the materials were in the possession of the
―prosecution team‖ and were not made available to
Georgiou. Thus, the first prong of the Brady analysis
is satisfied.
20. Georgiou has made substantial efforts to show
that, if he possessed these reports or the information
contained in them at trial, he would have used that to
undermine Waltzer‘s credibility and change the entire
complexion of the trial. The Court disagrees. Having
presided over this trial, reviewed the reports, and
considered the testimony from the evidentiary
hearing, the Court finds that Georgiou failed to
establish that the reports are either favorable or
material under Brady.
21. First, the information contained within the
reports is entirely unrelated and irrelevant to
Georgiou or the securities fraud case brought against
him. Waltzer and FBI Agent Poulton both testified
credibly that Waltzer met with the FBI to provide
information he had obtained relating to national
security. Findings of Fact, supra ¶ 12. The reports
themselves reflect that reality. Waltzer did not
mention Georgiou and did not provide information on
other frauds, as he did extensively when he began to
A145

cooperate with the government in June 2007. The
nature of Waltzer‘s disclosures to the FBI also did not
suggest anything impeaching in Waltzer‘s failure to
mention Georgiou. Waltzer was simply reporting on
national security matters, which had nothing to do
with Georgiou.72 Thus, Georgiou could not have
advanced his defense by using these reports to crossexamine Waltzer for failing to mention Georgiou.
*74 22. Second, the information provided by Waltzer
and the accompanying reports do not reflect additional
misconduct that Georgiou could have used to crossexamine Waltzer at trial. Waltzer reported to the FBI
on information he had received from others about
potentially improper international deals and other
such matters. Waltzer was not reporting on anything
improper or illegal in which he was engaging. Thus,
Georgiou could not have advanced his defense by
cross-examining Waltzer on the basis that he engaged
in additional misconduct reflected in the reports.
23. Georgiou tried this line of attack at trial and it
failed. Georgiou knew that Waltzer had business
dealings in the Middle East, and his counsel asked
Waltzer about that in cross-examination: ―[P]art of the
conversations that you had with Mr. Georgiou in the
years 2004 to 2007 involved dealings that you claimed
you had in the middle-east, correct?‖ Waltzer
____________________
As set forth in the Findings of Fact, Georgiou failed in
his effort to transform Waltzer‘s interviews with the FBI
about national security matters into interviews about his
prior frauds. Waltzer testified, and the other evidence
consistently showed, that he mentioned the names of
certain individuals who had been involved in fraud as
background to explain how he became involved in the
national security matters on which he was reporting.
Findings of Fact, supra ¶ 12f. Waltzer did not discuss those
frauds, and the agents did not ask him to do so. Tr. 9/25/17,
65-67, 82-83 (Waltzer). Those incidental references to individuals involved in fraud did not create any meaningful
impeachment material. For example, Georgiou could not
have used those passing references to suggest to the jury
that Waltzer was lying at trial about Georgiou because, if
Waltzer were telling the truth, he would have told the FBI
about Georgiou in 2006. Georgiou fails on this theory to
establish that the information was favorable or material.
72

A146

answered, ―Yes, I definitely had conversations with
him about that at various times.‖ Tr. 1/28/10, 114. In
response to further questioning from counsel on this
issue, Waltzer testified that his deals in the Middle
East were ―not frauds.‖ Tr. 1/29/10, 91-92.
24. Once Waltzer denied engaging in fraud in
connection with any allegation that Georgiou could
have manufactured from these reports, counsel could
not have impeached Waltzer with the actual reports or
other extrinsic evidence. See Georgiou, 777 F.3d at
144-45 (finding district court properly prohibited
testimony and extrinsic evidence regarding allegations
of fraud perpetrated by Waltzer following Waltzer‘s
denials).
25. Third, the testimony at the evidentiary hearing,
which I have credited, was uncontroverted that
Waltzer was not lying when he was speaking to law
enforcement prior to June 2007. Waltzer testified that
he provided the FBI with truthful information. Likewise, FBI Agent Poulton testified that she considered
Waltzer to be truthful. Findings of Fact, supra ¶¶ 12d,
12g-12h; see infra n.73. Again, as a legal matter,
Georgiou could not have relied on extrinsic evidence to
suggest otherwise, and Georgiou failed to produce any
evidence that would suggest otherwise. Georgiou could
not have advanced his defense by using these reports
to accuse Waltzer of lying to the FBI.73
____________________
Georgiou also fails in trying to advance his impeachment
theory with the claim that the prosecutors rejected
Waltzer‘s effort to cooperate in national security matters in
2007. The prosecutors and agents did not conclude Waltzer
was lying. They simply concluded that others may have
misled Waltzer and that his cooperative efforts were better
directed to more productive matters that the government
could investigate and prosecute domestically. Tr. 9/26/17,
104-05 (Lappen) (―We had our hands full‖ with information
about defendants engaged in fraud ―that we could build
cases on. We were not going over to the Middle East....
[T]here was no determination ever made by anybody that
Waltzer was lying.... His information was credible.‖); Tr.
9/18/17, 192 (Cohen) (―[T]his wasn‘t ... actionable
information.... [L]et‘s focus on all of the other crimes.‖); Tr.
11/15/17, 217 (Joanson) (it had ―nothing to do with his
credibility‖ that Waltzer was discouraged from further
73

A147

*75 26. Fourth, if Georgiou had known of Waltzer‘s
contacts with the government before 2007, he could
not have used this information to advance his defense
or further cross-examine Waltzer based on his theory
that Waltzer did not possess the mens rea of a
criminal. Georgiou has numerous theories in this
regard, and for the reasons listed below, they are all
without merit.
27. Georgiou argues that Waltzer‘s contacts with the
government from June 2006 through June 2007
rendered Waltzer incapable of participating in a
conspiracy with Georgiou during that time because
Waltzer was acting as a cooperator for the government
and, therefore, did not have the mens rea of a coconspirator. (Pet‘r‘s Br. 2.)
28. Georgiou is correct that a conspiracy cannot exist
between a defendant and a government agent. ―[A]s it
takes two to conspire, there can be no indictable
conspiracy with a government informer who secretly
intends to frustrate the conspiracy.‖ Sears v. United
States, 343 F.2d 139, 142 (5th Cir. 1965); see also
United States v. Corson, 579 F.3d 804, 811 (7th Cir.
2009); United States v. Lively, 803 F.2d 1124, 1126
(11th Cir. 1986); United States v. Escobar de Bright,
742 F.2d 1196, 1198 (9th Cir. 1984); United States v.
Moss, 591 F.2d 428, 434 n.8 (8th Cir. 1979); United
States v. Chase, 372 F.2d 453, 459 (4th Cir. 1967).
29. However, as set forth in the Findings of Fact, this
Court rejects Georgiou‘s contention that Waltzer was
acting as a government agent or cooperator at any
time between June 2006 and June 6, 2007. Findings of
Fact, supra ¶¶ 15-16. Georgiou vastly exaggerates the
period of time that Waltzer was engaged with the FBI
before June 2007 in an attempt to bolster his claim,
and thus vastly overstates the legal implications of his
theory of relief.
_______________(cont'd)
pursuit of national security information; the government
found ―Waltzer to be incredibly credible.‖). The
government‘s decision to have Waltzer cooperate in
domestic fraud investigations was of no value to Georgiou.
Georgiou likely could not have even pursued this line of
questioning with Waltzer or any other witness, and
certainly could not have made any headway with it.

A148

30. The testimony at the hearing was consistent and
unambiguous. At the time that Waltzer was providing
national security information to the FBI, he was not
cooperating with the FBI or acting at its direction.
Findings of Fact, supra ¶¶ 15-16. He was continuing
to work with his lawyers to determine whether to
confess his crimes and proactively cooperate. As a
factual and legal matter, he was not an agent of the
government; he was an individual who voluntarily
provided information to the FBI about national
security matters without any deal or arrangement
with the FBI.
31. Prior to June 2007, Waltzer could, and did intend
to, commit crimes with Georgiou even if, on certain
occasions during that period, he spoke to the FBI
about unrelated national security matters. Findings of
Fact, supra ¶ 18. Waltzer credibly testified, and the
evidence at trial overwhelmingly reflected, that he
was engaged in a long-term conspiracy with Georgiou
and did not suddenly exit that conspiracy by reporting
unrelated information to the FBI.
32. Georgiou‘s mens rea theory also legally fails
because former counsel did question Waltzer at trial
about his mens rea and any further questioning on
these points would have been, at best, cumulative. As
discussed in the Findings of Fact, counsel explored
with Waltzer his motives to collect evidence and cooperate beginning when the IRS confronted him in June
2006. Counsel used the reports and evidence provided
in discovery to confront Waltzer with the defense
theory that, beginning in June 2006, Waltzer was
trying to collect evidence to manufacture a false case
against Georgiou and others. Waltzer admitted that
he was motivated to collect evidence against Georgiou
in 2006. Counsel for Georgiou also argued, in closing,
that Waltzer was a self-interested liar who spent his
time from June 2006 through June 2007 putting
together his false story to sell to the government.
*76 33. Considering any and all arguments that
Georgiou could raise concerning the usefulness at trial
of evidence that the government did not provide,
Georgiou cannot show that he was denied material
evidence because no additional information or crossexamination on these points could possibly have made
A149

a difference at trial. It was abundantly clear to the
jury that Waltzer committed crimes on a grand scale,
and then cooperated on a grand scale in an effort to
secure leniency. The additional particulars of his
discussions with the FBI in 2006 add nothing to that
known narrative.
34. On multiple occasions during the post-trial
litigation, this Court has held that additional
impeachment of Waltzer would not have made a
difference at trial. This Court explained,
Waltzer‘s version of the relevant events conforms
with the staggering physical evidence in this case.
As such, we conclude that even if the jury had found
Waltzer to be unreliable, Georgiou‘s trial nevertheless resulted in a verdict worthy of confidence,
considering the totality of the circumstances and all
of the evidence introduced at trial.
(Doc. No. 218 at 12; Doc. No. 266 at 39-40.)
35. The FBI captured Georgiou in numerous
recordings committing crimes in real time, as he
struck a deal to use ―Charlie‖ to engage in a massive
securities fraud scheme with Northern Ethanol stock.
In these recordings, Georgiou also described his
historical and ongoing manipulation of Avicena,
Neutron, and HYHY Stocks. This evidence also
included Georgiou accidentally recording himself
discussing with his co-conspirator, Vince DeRosa,
their fraud against Caledonia, as he described
inflating stocks and destroying a brokerage firm.
36. The recordings also included numerous instances
of Georgiou asking if the undercover FBI agent was a
―cop,‖ and by discussing plans to speak in code and
otherwise conceal the nature of their activity. The
evidence also established that Georgiou sent incriminating emails furthering his scheme in the name of a
fictional lawyer, Andreas Augland, and in the name of
one of his fronts, Ron Wyles. Georgiou also tried to
procure false testimony from Alex Barrotti.
37. The financial and trading records showed that
Georgiou and his co-conspirators were doing exactly
what Waltzer testified they were doing and exactly
what Georgiou described in the recorded conversaA150

tions. The numerous emails and documents found on
Georgiou‘s computer and elsewhere, and the testimony of other government witnesses, were all consistent with Waltzer‘s testimony and the recordings of
Georgiou, and overwhelmingly established his guilt.
38. Finally, the story that Georgiou told from the
witness stand that he was conducting his own secret
investigation of Kevin Waltzer was so unbelievable
that no reasonable juror could have believed him (and
the empaneled jury emphatically did not). Georgiou‘s
testimony alone could have convicted him. See United
States v. Jiminez, 564 F.3d 1280, 1285 (11th Cir.
2009) (holding that a defendant‘s own testimony
supported his convictions because the jury was
permitted to reject that testimony and consider it as
substantive evidence of guilt). This Court previously
found that Georgiou perjured himself, and that
finding is reiterated here.74
*77 39. In sum, the government did not violate
____________________
This Court also rejects Georgiou‘s suggestion, Doc. No.
380, at 4, that if he possessed the additional cross-examination material concerning Waltzer‘s interviews with the FBI,
he would not have testified in his defense. This position is
factually incredible and legally unavailing. As explained
here, the matter regarding Waltzer‘s discussions with
agents in 2006-2007 is so limited in relation to the scope of
Waltzer and Georgiou‘s criminal activity that it is not
remotely plausible that Georgiou would have viewed that
information as undermining the government‘s entire case
and relieving him of the need to explain the government‘s
abundant evidence. Rather, Georgiou obviously chose to try
to defeat the charges with his version of the recordings and
other evidence. At the evidentiary hearing, trial counsel
testified that Georgiou wanted to testify. Tr. 9/19/17, 80 (―I
gave Georgiou my strong opinion that in this kind of case,
given those tapes, in order to win the case, he had to
testify. My recollection is he wanted to testify‖). Indeed,
Pasano further testified that the theory of the defense
relied upon Georgiou testifying and demonstrating his good
faith, and the jury believing him – ―The key event in the
trial was [Georgiou‘s] testimony.‖ Tr. 9/19/17, 109; see also
81 (―George, as a witness, was a key part of winning the
case.‖). Additional cross-examination of Waltzer could not
have changed the calculus of that decision for Georgiou and
his counsel.
74

A151

Georgiou‘s rights in connection with the disclosure of
evidence concerning Waltzer‘s alleged cooperation and
mental state before June 2007. None of the information, in the hands of the defense, would have
affected the legal viability of any charges and would
not have affected the jury‘s consideration of the
evidence. The additional information could not have
made a difference at trial.75 Georgiou fails to sustain
his burden of proving that the government‘s failure to
produce evidence prejudiced him.
40. This Court recognizes that former counsel
testified at the evidentiary hearing, understandably,
that they would have wanted to know about Waltzer‘s
contacts with the government before June 2007, but
that this Court would determine whether this
information would have mattered at trial. See Tr.
9/19/17, 39-40 (Pasano); Tr. 9/25/17, 36-37 (Splittgerber). Counsel and Georgiou have failed to establish
that the defense could have used this information in
any helpful manner.
41. Accordingly, this information is not favorable to
Georgiou. At most, it is merely cumulative of
voluminous impeachment evidence in the possession
of the defense that was used at trial to portray
Waltzer as a self-interested liar.
42. ―We of course do not suggest that impeachment
evidence is immaterial with respect to a witness who
has already been impeached with other evidence.‖
Turner, 137 S. Ct. at 1895. In the context of this trial,
however, with respect to Waltzer, we conclude that
the cumulative effect of the withheld evidence is
insufficient to undermine confidence in the jury‘s
verdict.
____________________
While Georgiou focused his arguments about the use of
the missing evidence or the effect that evidence would have
had on his cross-examination of Waltzer, he also suggested
that the evidence would have helped him with other
aspects of his defense, including the cross-examination of
Koster. Any and all such claims are untenable. The
evidence would not have had any impact on the trial. After
reviewing the missing evidence, Koster testified at the
evidentiary hearing that it would not have changed his
trial testimony. See Findings of Fact, supra ¶ 37.
75

A152

43. Considering the overwhelming evidence establishing Georgiou‘s guilt at trial, even if there were any
impeachment value to the suppressed information, it
could not be considered material. That is, there is not
a reasonable probability that, had the withheld
records been disclosed, the result of Georgiou‘s trial
would have been different.
44. Because the previously undisclosed evidence of
Waltzer‘s contacts with the FBI prior to June 6, 2007,
is neither favorable nor material to Georgiou,
Georgiou has not established a Brady violation.76
b. The Napue Claims
45. As noted above, Georgiou alleges that the
government violated Napue by knowingly eliciting and
failing to correct the following allegedly false testimony from Waltzer: (1) that Waltzer first began
cooperating with the government in June 2007, and
not in 2006 as Georgiou alleges; (2) that Waltzer
received instructions ―solely‖ from FBI agents, when
he also received instructions from the AUSAs; (3) that
the government instructed Waltzer on his ―pitch‖ to
Georgiou about ―legitimate dealings in the Middle
East,‖ when supposedly the government did not so
instruct him; (4) that Waltzer helped Georgiou, as
part of their stock fraud scheme, to ―soak up the float,‖
i.e., purchase outstanding shares, of Neutron stock;
(5) that Waltzer would lose the benefits of his plea
agreement if he lied to the jury, when supposedly he
later testified that he would gain leniency even if he
―believ[ed] differently from his testimony;‖ and
(6) that Waltzer always possessed the recording device
throughout the undercover operation, when post-trial
Waltzer supposedly testified that there may have been
times when he did not possess the device. (Doc. No.
542, Attachment A, N-1 through N-6.)
*78 46. As discussed above, Georgiou‘s Napue claims
____________________
To the extent that Georgiou raises an ineffective
assistance of counsel claim based on his counsel‘s failure to
find the Brady material, it is rejected as meritless because
counsel acted objectively reasonably and Georgiou has not
suffered any prejudice. See Strickland, 466 U.S. at 690,
695.
76

A153

are procedurally defaulted. Significantly, the claims
also are entirely without merit.
47. The burden of establishing false testimony is on
the defendant. See United States v. Scarfo, 711 F.
Supp. 1315, 1322 (E.D. Pa. 1989), aff‘d sub nom.
United States v. Pungitore, 910 F.2d 1084 (3d Cir.
1990). To prevail under Napue, Georgiou must show
(1) that Waltzer committed perjury, (2) that the
government ―knew or should have known that the
testimony was false, (3) [that] the false testimony was
not corrected, and (4) [that] there is a reasonable
likelihood that the perjured testimony could have
affected the judgment of the jury.‖ Haskell v.
Superintendent Green SCI, 866 F.3d 139, 146 (3d Cir.
2017) (citing Lambert v. Blackwell, 387 F.3d 210, 242
(3d Cir. 2004)).
48. Georgiou cannot prevail on any of his Napue
claims because he cannot establish that any witness,
other than himself, committed perjury while testifying
either at trial or at the habeas evidentiary hearing.
Regarding Georgiou‘s specific Napue claims, the Court
finds as follows:
a. As discussed above, the evidence at the habeas
evidentiary hearing established that Waltzer was not
cooperating with the government prior to June 6,
2007, the date on which he presented himself for his
first proffer with the government and confessed to the
class action claims fraud in which he was involved.
Waltzer testified truthfully both at trial and at the
recent evidentiary hearing when he testified that his
cooperation began in June 2007. As such, Georgiou
can neither establish that Waltzer committed perjury,
nor that the government knew or should have known
that the testimony was false and that the government
failed to correct the false testimony. This Napue claim
is denied.
b. Georgiou next claims that Waltzer lied, and the
government allowed his lies to stand, when Waltzer
testified at trial about receiving instructions ―solely‖
from FBI agents. (Doc. No. 542, Attachment A, N-2.) It
is clear from the record that, to the extent Waltzer
was testifying about receiving instructions from the
FBI agents, he was making the point that he was not
A154

simply a lone wolf doing whatever he wanted to do
and not saying that only FBI agents guided him. Tr.
9/18/17, 283-89 (Cohen). Waltzer never testified that
he did not receive guidance from the AUSAs.
Throughout the trial, Waltzer testified that he
received general direction from the government and
that he followed it. See, e.g., Tr. 1/28/10, 19-20 (―I am
only acting at the direction of the FBI. I don‘t make
any decisions myself like that.‖); Tr. 1/29/10, 91 (―I am
pitching [Georgiou] that I am flush. I am following the
advice of the United States government.‖); Tr. 1/26/10,
224 (―I had specific parameters which I was supposed
to work under, and I was working in undercover operations. So I was given specific instructions.... I really
followed the instructions that I was given.‖); Tr.
1/26/10, 224 (―When I first engaged the target, there
was one thing I was supposed to do, discuss the past,
discuss the present and discuss the future, let the
subjects talk.‖); Tr. 1/29/10, 32 (on cross-examination,
Waltzer testified that that the ―government gave [me]
instructions about how to record and who to record;‖
and further testified that after he identified ―potential
scams to the government, and then they gave specific
instructions on what I was to do from there‖). There
was nothing false or misleading about this testimony
that the government failed to correct. In addition, it
would have been insignificant to the jury whether
Waltzer received instructions from agents, AUSAs, or
both. The evidentiary hearing record is replete with
consistent and credible testimony that the agents and
AUSAs worked together in guiding Waltzer in the
undercover operation, and that there was nothing
improper about their handling of Waltzer. This Napue
claim is denied.
*79 c. Georgiou also claims that Waltzer lied when
he testified that the government instructed Waltzer
on his ―pitch‖ to Georgiou about ―legitimate dealings
in the Middle East,‖ when supposedly the government
did not so instruct him. Georgiou‘s theory seems to be
that Waltzer was acting at the direction of the FBI,
but that, post-trial, Waltzer admitted that he
mentioned these legitimate dealings on his own and
without direction from the FBI. (Doc. No. 542, Attachment A, N-3.) This claim is frivolous. The testimony at
the evidentiary hearing was clear that the FBI‘s
A155

direction of Waltzer did not include scripting any
conversations. Findings of Fact, supra ¶¶ 47-48. With
Georgiou, in particular, the government instructed
Waltzer to allow Georgiou to do most of the talking.
See Tr. 9/25/17, 229 (―[T]he government would tell me,
you know, let him talk about his illegal activities.‖).
The Court finds that Waltzer did not commit perjury
with regard to this testimony. Moreover, there is
nothing about the testimony in question that would
have had any effect whatsoever on the jury. This
Napue claim is denied.
d. Georgiou next alleges that Waltzer lied about
―soak[ing] up the float‖ of Neutron stock. (Doc. No.
542, Attachment A, N-4.) This claim is based upon
Georgiou‘s untenable theory about Waltzer‘s trading
that the Court has independently found lacking in
merit in the context of his claim that counsel was
ineffective for failing to call an expert witness in
securities matters. See Findings of Fact, supra ¶¶ 5455; see supra n.49. Based upon all of the evidence
presented at trial and at the evidentiary hearing, the
Court finds that Waltzer did not commit perjury when
testifying about ―soaking up the float.‖ Whether
Waltzer was a ―net seller‖ in the aggregate as
Georgiou claims is beside the point. The evidence was
clear and uncontroverted at trial that at various
points Waltzer worked at Georgiou‘s direction in a
stock fraud scheme to purchase outstanding shares of
stock, or ―soak up the float.‖ Waltzer did not commit
perjury. This Napue claim is denied.
e. Georgiou also appears to claim that Waltzer lied
when he testified that he would lose the benefits of his
plea agreement if he lied to the jury, when supposedly
he later testified that he would gain leniency even if
he ―believ[ed] differently from his testimony.‖ (Doc.
No. 542, Attachment A, N-5.) As the Court has found
that Waltzer did not perjure himself at any point, this
claim is without merit and has no basis in fact. This
Napue claim is denied.
f. Finally, Georgiou contends that Waltzer lied at
trial when he testified that, shortly after he began
actively cooperating, he always possessed the recording device. Georgiou claims that at the evidentiary
hearing Waltzer testified differently stating that there
A156

may have been times when he did not possess the
device. (Doc. No. 542, Attachment A, N-6.) Georgiou
cannot establish that Waltzer‘s testimony, or that of
any other witness, regarding the recording device,
came close to constituting perjury. Testimony
regarding the recording device was credible and
consistent throughout the trial and the habeas
evidentiary hearing. All witnesses testified that to the
best of their recollection, Waltzer had the recording
device most or all of the time, with the exception,
perhaps, of when the device was swapped out and
another device was not immediately available to
replace it. The witnesses could not say for certain
whether Waltzer had the device at the time of the test
trade. Tr. 9/26/17, 105-07 (Lappen recalls that Waltzer
had device all or most of the time and that there was
no decision made that Waltzer should not have the
device at any particular time); Tr. 9/18/17, 233-34
(Cohen was not aware of any time that Waltzer was
without the recording device); Tr. 11/16/17, 29-30
(Joanson recalls that Waltzer had recording device all
or most of the time and assumed he had it during test
trade); Tr. 9/25/17, 204-09 (Waltzer thought he had
device during test trade period and possessed it the
―vast majority of the time....‖; Waltzer said that during
the test trade period he was mostly communicating
with Georgiou by pin at Georgiou‘s direction). While
Waltzer testified, at trial, that he recalled always
possessing the device, he also explained that he may
have inadvertently failed to record some calls, he may
have had battery problems, there may have been some
calls that were dropped, and that some calls could
have gone to voicemail. Tr. 1/26/10, 218-21; Tr.
1/29/10, 35-40, 44, 48-50. If Waltzer and the other
government witnesses did not perfectly recall every
detail about this matter, that does not make them
liars or mean that the government failed to correct
perjured testimony. To the contrary, there is absolutely no evidence that any testimony regarding the
recording device was purposely false, or that the
government knowingly failed to correct the false
testimony. This Napue claim is denied.
*80 49. Georgiou also cannot establish materiality
under Napue for any of his claims. Perjured testimony
is presumed to be material under Napue. Here,
A157

however, the evidence is clear that there was no
perjured testimony. Waltzer did not lie in the ways
that Georgiou asserts, and did not lie about anything
during the trial. Even if somehow Waltzer testified
incorrectly about any of the points alleged by
Georgiou, the government would overcome the
presumption of materiality because of the overwhelming evidence presented against Georgiou at
trial. Additionally, testimony concerning the recording
device is not material because counsel strategically
chose to forego pursuing any claim that Waltzer did
not possess the recording device; it was more effective
to argue that Waltzer intentionally chose not to record
certain exculpatory calls with Georgiou. Georgiou‘s
Napue claims are without merit.
3. Other Miscellaneous
Without Merit

Brady

Claims

Are

50. In keeping with his general approach to this case,
during the habeas proceedings, Georgiou has tried to
interject additional arguments and vastly expand his
attack on the government. Georgiou‘s approach has
been false and misleading and this Court rejects it.
Georgiou has, for example, continued to insist that
documents which witnesses have testified do not exist
are actually continuing to be suppressed by the
government. Similarly, he has taken information
contained in one document, and broken the information out line by line, to give the impression that the
government continues to suppress vast amounts of
pertinent information from him.
51. Recently, on February 13, 2018, Georgiou filed a
motion to amend his § 2255 Motion to add Brady
claims. (Doc. No. 542.) On February 14, 2018, the
Court denied the motion and held that it would
consider any alleged new claims as support for his
existing claims. (Doc. No. 544.) Georgiou included as
part of this request a list of items that he deems a
substantial body of ―suppressed evidence.‖ For the
sake of completeness, the Court will briefly address
each item on Georgiou‘s list, although the Court
addressed many of these items elsewhere in these
Findings. The evidence listed does not establish that
the government failed to disclose a substantial body of
evidence and does not show a Brady or other legal
A158

violation. Rather, the list speaks to Georgiou‘s effort to
exaggerate the significance of the government‘s inadvertent failure to produce reports relating to Waltzer‘s
interviews with the FBI before June 2007, as well as
his persistent effort to revisit failed claims and
manufacture a claim for relief. In its proposed
Conclusions of Law, the government enclosed a chart
entitled ―Items of Alleged Suppressed Evidence.‖ (See
Doc. No. 557.) I have extensively reviewed this chart,
and I adopt the government‘s suggested responses.77

____________________
Georgiou‘s claims are set forth in bold as he states them,
which includes his citations, and my response follows.
77

A159

A160

A161

A162

A163

A164

A165

A166

A167

A168

A169

A170

A171

A172

A173

[WestLaw Editor’s Note: The preceding image
contains the reference for footnote78]

____________________
―The Jencks Act obliges the Government to disclose any
witness statement ‗in the possession of the United States
which relates to the subject matter as to which the witness
has testified.‘ ‖ Georgiou, 777 F.3d at 142 (quoting 18
U.S.C. § 3500(b)). As stated above, we previously addressed
Georgiou‘s Jencks Act claim regarding text messages, as
well as emails, and we were affirmed by the Third Circuit.
Id. at 142-43. Thus, Georgiou‘s Jencks Act claim is
previously litigated, and we decline to reconsider it.
78

A174

*81 52. Georgiou also has claimed that the
government‘s failure to provide information regarding
Waltzer‘s pre-June 2007 interaction with the FBI
deprived him of the ability to offer an accurate defense
theory jury instruction and thereby violated his right
to due process. (Pet‘r‘s Br. 5.) This claim is entirely
without merit.
53. The Court‘s charge to the jury included, for
example, an instruction that, in order to convict
Georgiou of the frauds charged in the indictment, the
government was required to prove beyond a reasonable doubt that Georgiou acted with the specific intent
to defraud, and that if Georgiou ―acted in good faith,
that would be a complete defense to these charges.‖
Tr. 2/12/10, 45. The Court reminded the jury, repeatedly, that the burden of proving all charges beyond a
reasonable doubt was on the government, and that the
defendant, Georgiou, did not have the burden of
proving good faith:
If you find from the evidence that the defendant
acted in good faith as I have defined it, or if you find
for any other reason that the government has not
proved beyond a reasonable doubt the defendant
acted with intent to defraud, you must find the
defendant not guilty....
Id. at 46.
54. The Court also advised the jury that, because
Waltzer was a cooperating witness, it should consider
Waltzer‘s testimony ―with great care and caution.‖ Tr.
2/12/10, 52. The Court fully instructed the jury on the
law of conspiracy, including the requirement that ―at
least one alleged co-conspirator shared a unity of
purpose towards those objectives or goals.‖ Id. at 1724. The defense cross-examined Waltzer on his mental
state and desire to collect evidence to cooperate in the
future and argued, in closing, that Waltzer was
manipulating Georgiou in this fashion. The jury
instructions were more than sufficient to allow the
jury to accept Georgiou‘s view of the case. Obviously,
given the overwhelming evidence to the contrary,
_______________(cont'd)
Notably, the current state of the record neither changes our
prior reasoning nor the Third Circuit‘s analysis.

A175

including the fact that the conspiracy was far broader
in time and in number of participants than simply
Georgiou and Waltzer conspiring together during
some short period of time, the jury did not accept
Georgiou‘s view of the facts. This Court did not
deprive Georgiou of any jury instruction, much less a
jury instruction that would have made a difference in
the outcome of the trial.
55. Georgiou‘s Brady and Napue claims regarding
the government‘s failure to disclose information
concerning Waltzer‘s pre-June 2007 provision of
national security information to the FBI are denied.
56. Georgiou‘s subsidiary claims that the government‘s Brady violation resulted in his not getting an
appropriate defense theory instruction, as well as the
other subsidiary claims referenced above, are denied
both because the Court has denied Georgiou‘s underlying Brady claim, and because the claims are
independently without merit.
57. Georgiou‘s additional Napue claims relating to
Kevin Waltzer‘s testimony are also denied as lacking
in merit.
4. The AUSAs Did Not Have Improper Contacts
With Kevin Waltzer And Were Not Necessary
Fact Witnesses At Trial
58. As discussed throughout these Findings,
Georgiou also has alleged a series of claims based
upon his general assertion that Waltzer had improper
―one-on-one‖ contacts with the AUSAs who prosecuted
his case.
59. More specifically, Georgiou contends that the
AUSAs ―were inextricably intertwined as participants
with Waltzer during the undercover operation, having
hundreds of private, one on one calls, without
Waltzer‘s FBI handlers or counsel present.‖ (Pet‘r‘s
Br. 25.)
*82 60. Based upon this general assertion, Georgiou
argues that he was denied his right to due process and
a fair trial because: (1) this alleged conduct created a
conflict of interest for the AUSAs in prosecuting
Georgiou; (2) relatedly, the AUSAs became necessary
A176

witnesses at trial; and (3) these offending contacts
with Waltzer should have been disclosed to the
defense as Brady material. (Pet‘r‘s Br. 23-41.)
61. Georgiou has procedurally defaulted these
claims. He bases these claims on telephone records
that the government produced in pretrial discovery.
Georgiou could have raised this issue pretrial, posttrial, or on direct appeal, but he failed to do so.
62. Georgiou cannot establish cause for his default,
as the records that form the basis of his claims were in
his possession prior to trial.
63. As set forth below, even if Georgiou could
establish cause to overcome his procedural default, he
cannot establish prejudice.
64. The testimony and evidence presented at the
evidentiary hearing demonstrated that following his
decision to cooperate with the government in June
2007, Waltzer had frequent contact with the AUSAs
and agents investigating and prosecuting Georgiou, as
well as numerous other targets and subjects of
unrelated investigations. Findings of Fact, supra ¶ 4042.
65. Georgiou contends that telephone records, which
show numerous calls to and from the office and
cellular phones of AUSAs Lappen and Cohen,
substantiate his claims of improper contacts.
66. As addressed in the Findings of Fact, the
telephone records evidence nothing other than a call
being placed. Findings of Fact, supra ¶ 41. It cannot
be gleaned from the phone records alone whether an
actual call took place or whether the call was a hangup or a voicemail was left; who the parties to the call
were; or what was discussed during the call. The
evidence is clear that Waltzer was cooperating against
numerous targets during the same time frame he was
cooperating against Georgiou. It is impossible from
the phone records alone to determine whether any
given call even pertained to Georgiou.
67. Moreover, based upon the evidence and
testimony presented at the evidentiary hearing, and
discussed above, this Court finds that the level of
A177

contact that Waltzer had with the AUSAs was routine
and entirely consistent with what would be expected
under the circumstances. No witness confirmed
Georgiou‘s unsupported accusations that the AUSAs
were acting improperly in their interactions with
Waltzer. To the contrary, all of the witnesses testified
that the AUSAs had entirely appropriate conduct with
Waltzer, which would, obviously, have been
meaningless to the jury‘s consideration of the case.
68. The Court finds that AUSAs Lappen and Cohen
acted professionally and ethically, and that their
interactions with Waltzer legally comported with what
one would expect of prosecution interaction with a
witness cooperating in the high number of
investigations in which Waltzer was cooperating.
69. The Court further finds Georgiou‘s allegations of
wrongdoing by AUSAs Lappen and Cohen to be
entirely unsupported by the record. Neither AUSA
undertook any action that would have made either of
them a fact witness and necessitate their recusal from
the trial. Additionally, as discussed above, counsel
strategically would not have wanted to make the
AUSAs witnesses at trial.
70. Georgiou‘s allegations of improper contacts
between the AUSAs and Waltzer are entirely without
merit and, therefore, denied.79
5. Ineffective Assistance Of Counsel Claim –
Failure To Engage A Securities Expert For The
Defense
*83 71. Georgiou claims that a ―[f]ailure to utilize
securities experts in a case of this kind, was
prejudicially ineffective.‖ (Pet‘r‘s Br. 65.) He argues
that a securities expert would have uncovered the
errors in Koster‘s claims and conclusions. (Id.)
72. During the September 19, 2017 evidentiary
____________________
Insofar as Georgiou alleges that counsel were ineffective
for failing to raise the issue of Waltzer‘s inappropriate
contacts with the AUSAs, that claim is denied. The Court
has found that there was no inappropriate contact, and
counsel cannot be found ineffective for failing to raise a
meritless claim. See Strickland, 466 U.S. at 691.
79

A178

hearing, Georgiou‘s trial attorney, Pasano, testified
about this specific issue. When cross-examined by the
government about his reason for not engaging a
securities expert, Pasano succinctly stated as follows:
Q. Yeah, and now I want to turn to your reasons for
not calling a securities expert. You considered using
a securities expert?
A. Yes.
Q. And what was your concern with using a
securities expert?
A. A couple things were going on. I believe, but I‘ll
leave to Mr. Welsh or Ms. Recker what they recall
about what contacts they had —
Q. And certainly I only want your contacts.
A. Right. I had reached out to a lawyer at the
Trenam Firm in Tampa who is a securities expert
I‘ve used before and had discussions with him about
the case. But in discussing the issues with him and
in examining where we thought the case was going
and particularly the focus on Waltzer and on George
as a witness, I made a determination that if we tried
to call a securities expert, the government‘s crossexamination of that witness, their ability to use
emails, their ability to use recordings, none of which
the witness would have a basis to say much about,
except to accept that on the fact that‘s what they
said, would give the government, in essence, a
second closing argument right at the end of the
government‘s – right at the end of the trial and just
before Mr. Georgiou‘s testimony. So, in balance, it
made little tactical sense to call a securities expert.
Q. And that was a strategic decision on your part?
A. It was.
Q. And did you – you did speak to a securities expert
—
A. Yes.
Q. – as you testified? And you found that, based
upon what he said, he likely would not be helpful?
A. It would have taken a lot of work to get him
comfortable with the things that I was looking to
A179

establish, because it wasn‘t just what‘s a wash sale
or what‘s a mass trade or what does mark to market
mean? It was how do you apply those concepts to the
security witness‘ testimony in this case and what
the document showed? And, ultimately, without
getting into what were my work produce discussions
with that man, I decided even if I wanted to call an
expert, he wasn‘t the one, and I ultimately decided
that it made no sense to call an expert.
Q. And you had discussions with Mr. Georgiou about
all of this?
A. We did. George was always interested in having a
securities expert. In a lot of ways, I was lucky to
have George as my client to work with because we
did extensive analyses of the trade records and
plotted them out and had charts and diagrams, all of
which, you know, ultimately I had available and
then I made my decision as to which pieces of it to
use with Koster. But at the end of the day the
decision that, as a group, we reached, and I do
believe that Welsh & Recker were involved in that
as well, was not to seat an expert.
Q. And the defendant was included in that group
who decided that you weren‘t going to call an
expert?
A. Well, these are tactical choices. So I mean George
I think would have liked to have lots of witnesses
who would have said wonderful things that would
have helped win the case. But, as lawyers, we made
judgments as to how valuable those witnesses could
be and whether they would accomplish the goal. And
the more we focused on George as witness, the less
it became sensible as a tactical matter for us to seat
an expert.
*84 Q. Right, and you couldn‘t find an expert that
would accomplish the goals that your client wanted
to meet?
A. I was not able to.
Tr. 9/19/17, 109-12.
73. It is clear from Pasano‘s testimony that he
exercised reasonable professional judgment when he
decided not to engage a securities expert after careful
A180

consideration of the issue. See Strickland, 466 U.S. at
691 (stating that ―counsel has a duty to make
reasonable investigations or to make a reasonable
decision that makes particular investigations
unnecessary‖).
74. The issue of whether to engage a securities
expert was investigated by Pasano when he contacted
the attorney from the Trenam Firm, who is a
securities expert that he had used before, and had
discussions about the case with him. After discussing
the case with the securities expert and other defense
counsel, Pasano states that, from a tactical point of
view, ―I ultimately decided that it made no sense to
call an expert.‖ Tr. 9/19/17, 111. Pasano also states
that he was unable to find an expert who would
accomplish the goals that Georgiou wanted to meet.
Id. at 112.
75. As Pasano explained, he used reasonable defense
tactical decisions in not engaging a securities expert
given the facts of the case. Pasano‘s assessment that it
made little tactical sense to call a securities expert
with the government‘s cross-examination of that
witness giving it, essentially, a second closing
argument right at the end of trial and just before
Georgiou‘s testimony was reasonable.
76. ―[S]trategic choices made after thorough investigation of law and facts relevant to plausible options
are virtually unchallengeable.‖ Strickland, 466 U.S. at
690. ―Because advocacy is an art and not a science,
and because the adversary system requires deference
to counsel‘s informed decisions, strategic choices must
be respected ... if they are based on professional
judgment.‖ Id. at 681; see also Rolan, 445 F.3d at 682
(―Only choices made after a reasonable investigation
of the factual scenario are entitled to a presumption of
validity.‖).
77. Pasano‘s tactical choice to not engage a securities
expert was designed to achieve a successful defense,
and was eminently reasonable. Therefore, this choice
did not rise to the level of an error, much less error of
such a magnitude that Georgiou is entitled to habeas
relief. Such strategic decision-making is within the
scope of constitutionally competent representation
A181

under the Sixth Amendment.
78. Since Georgiou has not established that Pasano‘s
performance was deficient, we need not address
whether he suffered prejudice. However, we note that
Georgiou fails to establish prejudice because he has
not made any showing, whatsoever, that there is a
reasonable probability that, but for Pasano‘s decision
not to engage a securities expert, the result of the trial
would have been different. See Strickland, 466 U.S. at
694.
79. Georgiou‘s claim of ineffective assistance of
counsel pertaining to defense counsel‘s failure to
engage a securities expert must fail and, therefore, is
denied.
V. CUMULATIVE ANALYSIS
Georgiou generally argues that all of the alleged
errors cumulatively prejudiced him. ―The cumulative
error doctrine allows a petitioner to present a
standalone claim asserting the cumulative effect of
errors at trial that so undermined the verdict as to
constitute a denial of his constitutional right to due
process.‖ Collins v. Sec‘y of Pa. Dep‘t of Corr., 742 F.3d
528, 542 (3d Cir. 2014); see also Gibson, 718 F. App‘x
at 135. This claim appears to be procedurally
defaulted; however, even assuming the cumulative
error claim does warrant further review, it is without
merit. Significantly, as just discussed, we have
concluded that none of Georgiou‘s assertions
regarding error have merit. See Morris v. Pa., No. 151352, 2017 WL 345626, at *12 (E.D. Pa. Jan. 24, 2017)
(―Because the individual errors alleged by Petitioner
are without merit, there can be no cumulative error
that undermined the verdict to the degree that
Petitioner was denied his constitutional right to due
process.‖). Whether considering Georgiou‘s claims
separately or together, we find that none of the claims
resulted in any prejudice. That is, Georgiou‘s claim
fails because there is no likelihood that the
cumulative impact of the alleged errors ―had a
substantial and injurious effect or influence‖ on the
jury‘s verdict. See id.

A182

VI. CERTIFICATE OF APPEALABILITY
*85 Finally, we must determine whether a certificate
of appealability should issue. See Third Circuit Local
Appellate Rule 22.2. Pursuant to 28 U.S.C.
§ 2253(c)(2), a certificate of appealability is appropriate only if the petitioner ―has made a substantial
showing of the denial of a constitutional right.‖
Georgiou must ―demonstrate that reasonable jurists
would find the district court‘s assessment of the
constitutional claims debatable or wrong.‖ Slack v.
McDaniel, 529 U.S. 473, 484 (2000). Under the facts of
this case, we conclude that Georgiou has shown
neither the denial of a constitutional right nor that
reasonable jurists would disagree with this Court‘s
resolution of his claims. Accordingly, we will not grant
Georgiou a certificate of appealability with respect to
any of his claims.
VII. CONCLUSION
As discussed above, Georgiou has no viable claim on
any of the grounds raised. Therefore, Georgiou‘s
request for habeas relief pursuant to 28 U.S.C. § 2255
is denied. Also, Georgiou‘s request for a certificate of
appealability is denied.
An appropriate Order follows.

A183

APPENDIX C
UNITED STATES COURT OF APPEALS,
FOR THE THIRD CIRCUIT
________________
Nos. 18-2953 & 18-3168
________________
UNITED STATES OF AMERICA
v.
GEORGE GEORGIOU,
Appellant
________________
Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Criminal Action No. 2-09-cr-00088-001)
District Judge: Honorable Robert F. Kelly
________________
Present: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN,
GREENAWAY, Jr., SHWARTZ, RESTREPO,
BIBAS, PORTER, MATEY, and PHIPPS,
Circuit Judges
SUR PETITION FOR REHEARING
The petition for rehearing filed by Appellant in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is
denied.
A184

BY THE COURT,
s/ Patty Shwartz
Circuit Judge
Dated: June 9, 2020

A185

